NO.

IN THE UNITED STATES SUPREME COURT

TIMOTHY B. BROWN,
Petitioner
v.
U.S. BANK NATIONAL ASSOC, AS TRUSTEE, MASTR ASSET BACKED
SECURITIES TRUST 2006-AB1, MORTGAGE PASS-THROUGH
CERTIFICATES SERIES 2006-AB1, AND WELLS FARGO BANK, N.A,
Respondents

ON PETITION FOR A WRIT OF CERTIORARI TO
THE ELEVENTH CIRCUIT COURT OF APPEALS

PETITIONER’S APPENDIX

Timothy B. Brown
165 Monticello Way
Fayetteville, GA 30214
* 770-827-6458
^XX^^Y^nrnobgyn.enmkreooft.com
Petitioner Sui Juris

33

4>3@= B397

34

Case 3:19-cv-00001-TCB

Document 1

Filed 01/03/19 Page 1 of 57

t

FILED in CLERK’S OFFICE
U.S.D.G. Wlants ^

Timothy B. Brown
165 Monti cello Way
Fayetteville, GA 30214
770-827-6458
PLAINTIFF Pro Per/Sui Juris

JAN 0 3 2019
1

■

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGI A
NEWNAN DIVISION
TIMOTHY & BROWN]
Plaintiff
CASE

vs.

U.S. BANK NATIONAL ASSOC., AS
TRUSTEE, MASTR ASSET BACKED
SECURITIES TRUST 2006-AB1,
MORTGAGE PASS-THROUGH
CERTIFICATES SERIES 2006-AB1,
AND WELLS FARGO BANK, N.A.,

-CV-O0&J ; .
, ;

COMPLAINT FOR WRONGFUL
FORECLOSURE, NEGLIGENCE,
CONVERSION, FRAUD, AND
REQUEST FOR INJUNCTIVE
RELIEF
JURY TRIAL DEMANDED

Defendants
!

TO THE HONORABLE JUDGE OF SAID COURT:
Comes now Timothy B. Brown, hereinafter referred to as “Plaintiff,” and
moves the court for relief as herein requested:
I.

INTRODUCTION

PLAINTIFF’S ORIGINAL COMPLAINT
Page 1
35

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 2 of 57

1. This lawsuit involves claims of violations of Federal and the State
of Georgia laws governing mortgages, financing, and debt
collection; wrongful foreclosure; negligence,
Conversion, fraud, and an application for injunctive relief. The claims arise out of
a mortgage contract entered into between Plaintiff and Defendant U.S. Bank, N.A.
for the financing of the purchase of real property located in Fayetteville, Fayette
County, Georgia, which property was foreclosed against by Defendant U.S. Bank,
who allegedly was appointed by Defendant Wells Fargo to service the loan of
Plaintiff.
2. Losing one’s home through a foreclosure is one of the most
disruptive events that one could experience.
3. Recognizing this; Congress set aside $50 billion in stimulus
funding for the Home Affordable Modification
Program (“HAMP”). Created in the wake of the mortgage crisis, HAMP was
designed to keep people in their homes, providing a measure of stability to
homeowners facing unemployment in harsh economic conditions.
4. Wells Fargo accepted up to $6.4 billion in HAMP funding, but
failed to fulfill its obligations and duties to
its customers, such as Plaintiff, under FLAMP’s loan modification program.

PLAINTIFF'S ORIGINAL COMPLAINT
Page 2
36

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 3 of 57

5. Rather than use software developed by Fannie Mae to calculate a
borrower’s eligibility for HAMP, Wells
Fargo developed its own Proprietary tool. Wells Fargo now admits that this tool
caused systematic miscalculations that led to Wells Fargo wrongfully denying loan
modifications to over 870 borrowers who qualified for a loan modification under
HAMP. Of those, Wells Fargo admits it foreclosed on 545 borrowers when it
should have instead offered them a loan modification. Of course, the numbers are
much higher than Wells Fargo admits.
6. Loan modifications often substantially reduce borrowers’ monthly
payments.
i.

7. Plaintiff Timothy B. Brown is the exact type of person whom
HAMP was supposed to help. Prior to 2005,
he was working full time and bought a house in Fayetteville, Fayette County,
Georgia.
8. When the recession hit, however, he suffered a salary reduction
and needed the help that HAMP was
supposed to provide.
9. Rather than extend a HAMP. modification, Wells Fargo
miscalculated and initiated foreclosure

PLAINTIFF'S ORIGINAL COMPLAINT
Page 3
37

.

Case 3:19-cv-0G001-TCB Documenj 1 Filed 01/03/19 Page 4 of 57

proceedings. As a result of this wrongful conduct, Plaintiff Timothy B. Brown lost
i

his house despite the over $6 Billion Dollars' Wells Fargo was paid to save the
homes of homeowners such as Plaintiff Timothy B. Brown.
\

lO.Defendant Wells Fargo has a reputation for fraudulent and
deceptive conduct including the forging of
documents as well as committing other acts of fraud in the filing of documents in
the property records of various states. See “Forensic Examination of the Real
Property Records and the Circuit Court Records Osceola County, Florida,” a study
conducted July 14, 2014 to December 20, 2014 by DK Consultants, LLC
('https://www.osceolaclerk.com/Content/UploadedContent/Examination/OC Foren
sic Examination.pdf)
I ask the Court to take judicial notice of this (document prepared at the request of
Armando Ramirez, Clerk of the Circuit Court of Osceola County, Florida. See
especially pages 312-326 which highlight the fraudulent activity of Defendant
Wells Fargo in the recording of documents in the property records. Among those
abuses are:<
A. The drafting of a 150-page “Foreclosure Attorney Manual” which
includes detailed instructions: on “HOW TO manufacture

\

assignments ... for the purpose of foreclosing on real property” at
312;
PLAINTIFF’S ORIGINAL COMPLAINT
Page 4
38

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 5 of 57

B. Defendant Wells Fargo has used robo-signing and quotas assigned
to employees which have given rise to a systemic culture of fraud,
!

oppression and abuse in the bank’s mortgage foreclosure
%

i

i

procedures at 318;
C. The report cites an article entitled “Wells Fargo Insiders Detail
Foreclosure Fraud Practices” (https://thinkprogress.org/wellsfargo-insiders-detail-foreclosure-fraud-practices-its-exactly-likean-assembly-line-88a5d9916911 ) which includes information that
Defendant Wells Fargo has paid out over $25 billion dollars in
■:

settlements to various governments for “improper foreclosures”;
D. Defendant Wells Fargo’s use of e-signatures on assignments and
other documents raises issues of fraud and improper practices in
that the notary section does not specify whether the person
“appeared” in person or via electronic signature and there is no
way of insuring that the electronic signature is being provided by
the person of that name who'has authority to sign the document, at
319;
E. The report cited numerous instances of notaries of one state
attesting to the signature of a Wells Fargo employee in another
state, at 317-321.
PLAINTIFF'S ORIGINAL COMPLAINT
Page 5
39

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 6 of 57

11 .The above are just a few of the fraudulent acts committed by
Defendant Wells Fargo in the recording of
documents in the property records of various states and in its foreclosure
procedures. No doubt, a forensic examination of the exhibits provided by
Defendant Wells Fargo in the instant case will reveal a consistent and pervasive
system of fraud and abuses in the foreclosure procedures of Defendant Wells Fargo
which raises a material issue of facts regarding the authenticity and veracity of the
documents Wells Fargo will file with the Court.
12.Further, the Court ought not to surmise that Defendant Wells Fargo
has mended its fraudulent ways since
2014. The bank recently paid out over $185 million dollars to settle government
complaints that the bank had engaged in systemic fraud and abuse by creating
millions of fake accounts in its checking, savings, and credit card di visions
(http://www.latimes,com/business/la-fi-wells-lawsuits-20160909-snap-story.html).
13.Wells Fargo has historically been the nation’s largest mortgage
:

lender. That lasted until a string of scandals
stemming from Wells Fargo’s misdeeds started coming to light in 2017. i
According to Wells Fargo’s latest quarterly filing with the Securities & Exchange

11 Samantha Sharf, Quicken Loans Overtakes Wells Fargo As America's Largest Mortgage Lender, FORBES (Feb. 5,
2018). (https//tinyurl.com/largest-lender)

PLAINTIFFS ORIGINAL COMPLAINT
Page 6.
40

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 7 of 57

Commission (SEC), the bank holds $284 billion in mortgage debt, and another $36
billion on second-mortgages.2
14. At the end of 201.6, federal regulators revealed that Wells Fargo’s
employees had “secretly created millions of unauthorized bank and credit card
accounts without their customers knowing it. »3
15. In July 2017, the New York Times revealed that Wells Fargo had
charged more than 800,000 borrowers for “force-placed” car insurance that they
did not want or need.4 The bank was only allowed to charge for “force-placed”
insurance if the car-loan customer did not have their own auto insurance, but these
customers did have their own insurance.5 The New York Times reported that
25,000 Wells Fargo borrowers had their vehicles wrongfully repossessed as a
result of Wells Fargo adding these additional premium amounts for the forceplaced insurance to costumers’ monthly loan statements.6

'v/'

2 Wells Fargo & Company, form 10-Q for quarter Ending Sept. 30, 2018, SECURITIES & EXCHANGE
COMMISSION (Oct. 24,2018), https://tinvurl.com/vbazt2wl.
3 Jackie Wattles et al., Wells Fargo's 20-month nightmare, CNN (April 24, 2018), https://tinvurl.com/cnn-20-moniehtmare.
,4 Gretchen Morgenson, Wells Fargo forced Unwanted Auto Insurance on Borrowers, NEW YORK TIMES (July 27,
2017), https://tinvurl.com/y8p5c4sd.
5 Id.
6 Id.

PLAINTIFFS ORIGINAL COMPLAINT
Page 7
41

Case 3:19-cv-00001-TCB Document! Filed 01/03/19 Page 8 of 57
!
i

16. In April 2018, federal regulators settled an enforcement action
with Wells Fargo for $1 billion related to its force-placement of unneeded auto
insurance, on top of the $1.5 billion that Wells Fargo already faced in penalties
from the Department of Justice arid states regulators for the opening of fraudulent
i

accounts.7

i

17. And now, Wells Fargo has caused certain customers to lose their
homes and suffer financial, physical, and emotional hardships. In August 2018,
Wells Fargo admitted that a “software error” had caused it to deny mortgage
modifications to at least 625 borrowers (though the actual number is quite higher)
who actually qualified for and were entitled to a mortgage modification under
federal law.8 This admission was based on information it knew in 2015 and 2016
but chose not to disclose for nearly three years.
18. In November 2018,.Wei 1 s Fargo announced that it had
understated the number of affected borrowers and that it was actually 40% more;
now Wells Fargo claims a total of 874 were wrongfully denied loan modifications

7 Matthew Goldstein, Wells Fargo Pays $1 billion to federal Regulators, NEW YORK TIMES {Apr. 20, 2018),
https://tinyurl.com/wf-reg-fines.
i
8

Ben Lane, Wells Fargo reveals software error wrongly denied much-needed mortgage modifications, HOUSING
WIRE {Aug. 3, 2018), https://tinvurl.com/v8i9iivg.

PLAINTIFF’S ORIGINAL COMPLAINT
Page 8
42

Case 3:19-cv-00001-TCB Document;! Filed 01/03/19 Page 9 of 57

by the software error.9 These borrowers should have received a loan modification
under the federal Home Affordable Modification Program (HAMP), but were
incorrectly denied.10
19.

In the end, at least 545 mortgage borrowers lost their homes

through foreclosures because of Wells Fargo’s software error.11
II. Parties
20. Timothy B. Brown (hereinafter “Plaintiff’) is an individual
residing in the State of Georgia.; City of
Fayetteville, and County of Fayette.
21.U.S. Bank National Association (hereinafter “Defendant U.S.
Bank”), as Trustee, MASTR Asset Backed
Securities Trust 2006 AB1, Mortgage Pass-Through Certificates Series 2006AB1 is a national banking association organized and existing under the laws of the
United States and without a registered agent jin the State of Georgia. Defendant
U.S. Bank is a wholly owned subsidiary of U.S. Bancorp, a bank holding company.
Defendant U.S: Bank may be served with process by serving its Registered Agent:
CT Corporation System, 350 North St. Paul St., Dallas, Texas 75201.

9 Ben Lane, Wells Fargo reveals software error led to hundreds of faulty foreclosures, HOUSING WIRE (Nov. 6,
2018), https://tinvurl.com/y94ezdie.

10 Id.
11 id.

PLAINTIFF'S ORIGINAL COMPLAINT
Page 9
43

Case 3:19-cw00001-TCB Document;! Filed 01/03/19 Page 10 of 57
!
'i

22. Wells Fargo Bank, N.A. (hereinafter referred to as “Defendant
•

I

I

Wells Fargo”) is a national banking
.
.
i
corporation with its principal place of business in Sioux Falls, SD and can be
served with process by serving its registered'agent: Corporation Service Company
i

at its registered office 40 Technology Parkway South, Suite 300, Ben Hill,
;

Northcross, GA 30092.
III.

• ;

JURISDICTION AND VENUE

23. This Court has jurisdiction over this controversy pursuant to 12
USC §2605(f) and 12 C.F.R. §1024.41(a). The Court also has jurisdiction pursuant
to 28 U.S.C. §1332, since the parties are citizens of different states and the amount
in controversy exceeds $75,000, exclusive of interest and costs.
24. This Court has personal jurisdiction over all of the defendants,
i

who have repeated contacts and transact substantial business in this District,
including the actions which form the basis for this Complaint.
25. This court also has supplemental jurisdiction over all other claims
I

that are so related to claims in this action, including State law claims, that they
form part of the same case or controversy under Article III of the United States
Constitution, pursuant to 28 U.S.C. § 1367.

!

PLAINTIFF’S ORIGINAL COMPLAINT
Page 10
44

Case 3:19-cv-00001-TCB Document'! Filed 01/03/19 Page 11 of 57
;
I
!'
!

26. Venue is appropriate in thislDistrict pursuant to 28 U.S.C.
i

§1391 (a) and (c) and in this Division pursuant to Federal Rules of Civil Procedure,
Local Rules for the Northern District of Georgia LR 3.1.
IV.

FACTUAL BACKGROUND
!

27. Plaintiff incorporates by reference the facts set forth in “I.
Introduction” above the same as if fully copied
and set forth again here.
28.“In response to rapidly deteriorating financial market conditions in
the late summer and early fall of 2008,
Congress enacted the Emergency Economic Stabilization Act. The centerpiece of
the Act was the Troubled Asset Relief Program (TARP), which required the
Secretary of the Treasury to “implement a plan” to “minimize foreclosures” and
i '

keep troubled mortgage -borrowers in their homes.12

/

29. The Treasury Secretary created the HAMP program to carry out
Congress’s mandate. HAMP received
$50 billion in TARP funds.13 Mortgage lenders that chose to participate in the
HAMP program were eligible to receive allocations of the stimulus funds.
30.Defendant Wells Fargo chose to participate in HAMP.

12 Wigod v. Wells Fargo Bank, N.A., 673 F.3d 547, 556 (7th Cir.!2012).
13 Id.

PLAINTIFF’S ORIGINAL COMPLAINT
Page 11
45

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 12 of 57
!
:

r

31. To participate, Defendant Wells Fargo was required to comply
with all HAMP program requirements. In exchange for up to $6.4 billion in
HAMP funds, Wells Fargo agreed to abide by all “guidelines and procedures
issued by the Treasury with respect to [HAMP]” and “any supplemental
documentation ...issued by the
Treasury,” including “Supplemental Directives.” See Wells Fargo, Amended and
Restated Servicer Participation Agreement, Sec. 1(B).14
32. In a Supplemental Directive, the Treasury Secretary required loan-servicers
participating in HAMP to issue a
mortgage modification to any borrower who met all the criteria to qualify. See
Supplemental Directive 09-01 (If a borrower meets all qualifying criteria, “the
servicer MUST offer the modification”) (emphasis in original).
33. Defendant U.S. Bank accepted more than $20 Billion Dollars in
HAMP funds, However, a Federal Judge
in Georgia lambasted Defendant U.S. Bank for denying otherwise eligible
mortgagors loan modifications.13 Defendant U.S. Bank agreed to the same terms
and conditions for receiving HAMP funds as did Defendant Wells Fargo.

M Available at https://tinvurl.com/wells-fargo-hamp-agreement.

\
15 "Judge Rips Into U.S. Bank For Taking Bailout Money But Denying Mortgage Modifications,"
(https://consumerist.com/2011/ll/16/judge-rips-into-us-bank-for-taking-bailout-rnoney-but-denying-mortgage- .
modifications/).
;

PLAINTIFF'S ORIGINAL COMPLAINT
Page 12
46

i-

Case 3:19-cv-00001-TCB Document! Filed 01/03/19 Page 13 of 57
:

On or about September 16, 2005, Plaintiff purchased the real property

34.

located at 165 Monticello Way,

!

Fayetteville, Fayette County,Georgia, (hereinafter “Subject Property”) described
legally as:
All that tract or parcel of land lying and being in Land Lot 197 of the
13th District of Fayette County, Georgia, and being Lot 14, Block C, Unit
1 of the Dix-Lee'On Corporation Subdivision, as per plat recorded in Plat
Book 6, Page 115, Fayette County,:Records, and being more particularly
described as follows:
Beginning at a point located on the southwesterly side of Monticello
Way, 900 feet Southeasterly as measured along the Southwesterly side of
Monticello Way, from the intersection of the Southwesterly side of
Monticello Way and the Southerly side of the Dix-Lee'On Drive, said
point of beginning also being located at the Southeast corner of Lot 13 of
said Block, Unit and Subdivision; thence running Southeasterly along the
•

i

Southwesterly side of Monticello Way, 100 feet to a point at the
Northeast corner of Lot 15 of said Block, Unit, Subdivision; thence
i

running Southwesterly along the Northwesterly side of said Lot 15, 249
.4 feet to a point; thence running Northwesterly 180 feet to a point at the
Southwest corner of Lot 13 of said Block, Unit and Subdivision; thence
PLAINTIFF'S ORIGINAL COMPLAINT
i

47

Page 13

Case 3:19-cv-00001-TCB Document! Filed 01/03/19 Page 14of 57

running Northeasterly along the Southeasterly side of said Lot 13, 249.8
feet to the Point of Beginning.

!
i

A copy of the Plat of the Subject Property isiattached to this pleading as Exhibit A
and is incorporated into this pleading by reference for all purposes.
35. On that same date, Plaintiff borrowed $389,500.00 from Defendant Wells
Fargo to finance said purchase and
in conjunction with such loan, he executed a Security Deed and Note with
\

\

f

I

Defendant Wells Fargo in the principle amount of $389,500.00 by which
Defendant Wells Fargo became Plaintiffs mortgagee. A true and correct copy of
Plaintiffs Security Deed is attached to this pleading as Exhibit B and this
document is incorporated into this pleading by reference. On April 21, 2015,
Defendant Wells Fargo assigned the Security Deed, but not the Note, to Defendant
U.S. Bank. Defendant U.S. Bank became the. servicer of the Security Deed and
thus remained liable for the terms and conditions and duties of the Security Deed.
36. The original lender, Defendant Wells Fargo, without notice to Plaintiff and
without his consent, monetized
Plaintiffs Note. This promissory note became the same as a cashier’s check or
cash and it was entered in the accounting records of Defendant Wells Fargo as an
asset. The Note was neither endorsed nor assigned.

PLAINTIFFS ORIGINAL COMPLAINT
Page 14
48

Case 3:19-cv-00001-TCB Document,! Filed 01/03/19 Page 15 of 57

37. The effect of the monetizing of Plaintiff s Promissory Note was that it paid
for the purchase of the Subject Property.
38.That Plaintiffs Note was paid in full can be seen also in the Security Deed
which he signed on September 16, 2005.
Under the Section styled “Transfer of Rights in the Property,” appears the
following: “Borrower irrevocably grants and conveys to Trustee, in trust, ...” and
then the document gives the legal description of the Subject Property. The Security
Deed goes on to provide that “BORROWER: COVENANTS that borrower is
lawfully seised of the estate hereby conveyed and has the right to grant and convey
the Property and that the Property is unencumbered ...” How could Plaintiff
convey the property to the Trustee except he’ owned the Subject Property free and
clear of any debt? Clearly, the Security Deed shows that Plaintiffs Promissory
Note paid off the mortgage debt on the Subject Property.
39.Defendant Wells Fargo committed fraud when it had Plaintiff to sign the
Security Deed knowing that his debt had
been paid in full on the Subject Property. Additionally, Defendant U.S. Bank
committed fraud when it represented that it had standing to foreclose against the
Subject Property and it committed further fraud when it engaged in a wrongful and
void foreclosure sale.
'"N

PLAINTIFF'S ORIGINAL COMPLAINT
Page 15
49

Case 3:19-cv-00001-TCB Document il Filed 01/03/19 Page 16 of 57

;

40. Plaintiff did not discover the fraud committed by Defendant Wells Fargo
;

until recently when he was researching
Matters regarding his Complaint and ran across a video on the Internet by a
member of the Federal Reserve System who. explained the concept of the
Promissory Note and how it pays the mortgage debt in full. Needless to write,
!

.

Plaintiff was shocked and amazed when he read his Security Deed and discovered
that he was a victim of fraudulent misconduct by Defendant Wells Fargo.
41. Plaintiff has made numerous demands upon Defendant Wells Fargo and
Defendant U.S. Bank to verify any debt

;

they claim he owes on the Subject Property and despite these numerous requests to
Defendant Wells Fargo and Defendant U.S. Bank and their attorneys and agents,
Defendants and their attorneys and agents haye failed and refused to provide
Plaintiff with the information he requested and needed to determine the status of
his mortgage and to whom he needed to make payments and when and where.
These demands were made both before he discovered that his mortgage debt was
paid in full and after such discovery.
42. In early 2016, as the result of a worsening economy, Plaintiff notified
Defendant U.S. Bank and Defendant Wells
Fargo that he had suffered a reduction in sal dry and he wished to apply for a loan
modification under HAMP so that he could keep making his mortgage payments..
!

PLAINTIFF'S ORIGINAL COMPLAINT
' A

Page 16
5°

j

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 17 of 57

At. the time he made these requests, Plaintiff was not behind in his mortgage and
was not aware that his mortgage loan had been paid in full.
43.The Defendants responded by telling Plaintiff he was ineligible to apply for
a loan modification until his mortgage
’

■ '

/

debt was at least 30 days past due. Plaintiff relied in good faith on the
representations of Defendants and allowed his mortgage to fall into arrears.
44. Once his mortgage debt was at least 30 days past due, Plaintiff reapplied for
a loan modification. This time,
Plaintiff s application was accepted and Plaintiff submitted all of the required
!

documents including proof of his salary reduction and the fact that he now had two
children going off to college.
45. After he submitted his loan modification request, Plaintiff received from
Defendant Wells Fargo a Notice of
Foreclosure Sale scheduled for 90 days after ,the submission of his loan
modification request. Thereafter, Plaintiff had a face-to-face meeting with
Defendant Wells Fargo at which he was led to believe that his loan modification
would be approved. As a result of this assurance, Plaintiff took no further efforts to
i

avail himself of any of his other alternatives to foreclosure.
46. At the time he applied for a loan modification pursuant to HAMP, Plaintiff
was eligible for a loan modification
PLAINTIFF'S ORIGINAL COMPLAINT
Page 17
51

Case 3:19-cv-00001-TCB Document}! Filed 01/03/19 Page 18 of 57

given that he had suffered two financial setbacks and he had sufficient income to
l

/

pay 31% of his income in mortgage payments. Thus, it was with great distress and
j

i

agony that Plaintiff received notice on the 85lh day after his application that his
i

request for a loan modification had been denied.
47. Sometime in September 2016, on the 91st day after his application for
i

HAMP relief, Plaintiff received a Notice of
Foreclosure Sale dated August 30, 2016 from the law firm of McCalla Raymer
Pierce, LLC. The letter was not signed and it was not clear which, if any, of the
'

!

defendants the law firm was representing. The letter stated that the Subject
Property would be foreclosed against on the first Tuesday in October 2016.
48. On December 2, 2016, Plaintiff filed a Chapter 13 Bankruptcy Petition in
the'United States Bankruptcy Court for the
Northern'District of Georgia, Newnan Division which was assigned Case Number
16-12409-WHD. A true and correct copy of the Bankruptcy Docket Sheet is
attached hereto as Exhibit C and this Exhibit is incorporated into this Complaint
by reference for all purposes.

I

49.Defendant Wells Fargo and Defendant U.S. Bank were given due notice of
Plaintiffs bankruptcy filing.
i

50. In early January 2017, Plaintiff received a letter from Premiere Asset
Services which advised me that the Subject
PLAINTIFF’S ORIGINAL COMPLAINT
Page 18
52

I

Case 3:19-cv-00001-TCB Document k Filed 01/03/19 Page 19 of 57

Property had undergone a change of ownership. The letter did not say who the new
owner is but stated that Defendant Wells Fargo was now the “Servicer” of the
alleged mortgage debt.
51. Upon further research, Plaintiff discovered that a foreclosure sale of the
Subject Property is alleged to have taken place on
December 6, 2016 at which Defendant U.S. Bank purchased the Subject Property
for $247,050.00
52. If a foreclosure sale took place on the Subject Property on December 6,
2016, said sale is in violation of the
Automatic Stay which was then in effect.
53.If a foreclosure sale took place in December 6, 2016, then said sale took
place without providing me the notices and
remedies to which I am entitled under the Note, the Security Deed, and Georgia
law.
54. If a foreclosure sale took place on December 6, 2016, then said sale is
wrongful because there is no mortgage debt
outstanding against the Subject Property, the sale is in violation of the Automatic
Stay afforded to those who file bankruptcy, and the sale violated the Note, the
Security Deed and Georgia law.

PLAINTIFF’S ORIGINAL COMPLAINT
Page 19
53

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 20 of 57
I
i

55. As
a result of Defendants’ misconduct,» 1 Plaintiff has suffered severe
•
emotional and mental anguish and distress which
1

exceeds the minimal j urisdictional limits of the Court and for which Plaintiff
hereby sues.
56. The conduct of Defendant U.S. Bank in pursuing a wrongful foreclosure is
wanton, with malice, reckless, and in total
disregard to Plaintiffs rights to such a degree that the Court should assess punitive
;

damages against Defendants, jointly and severally, in a sum which exceeds the
minimal jurisdictional limits of the Court.

I

57. The foreclosure sale, if in fact it occurred, has resulted in the taking of
1

Plaintiffs home, the Subject Property; which results in .
damages to Plaintiff in a manner that cannot be compensated adequately by money
damages even though the loss of the house constitutes damages in excess of
$253,000.00; all of such damages for which Plaintiff hereby sues for money.
damages and injunctive relief.
V.

CAUSES OF ACTION
!

58. NEGLIGENCE

)

A. Plaintiff incorporates by reference the Facts set forth in 1-19 and 27-57
above the same as if fully copied and set forth
!

herein.
PLAINTIFF'S ORIGINAL COMPLAINT
Page 20
54

i

Case 3:19-cv-00001-TCB Document11 Filed 01/03/19 Page 21 of 57

B. Defendant Wells Fargo had a duty, to implement HAMP and to approve
Plaintiffs application for a loan modification
because Plaintiff met the eligibility requirements for a loan modification under
HAMP.
\

C. To be eligible for HAMP, borrowers needed to (among other things);
Show that they had suffered a financial hardship;
!

and be able to pay 31/% of their monthly income towards the mortgage.
D. If the borrower met these eligibility criteria, the loan servicer
participating in HAMP was required to issue a mortgage
modification if the "’’Net Present Value" of the modified mortgage was positive,
meaning it was '"more profitable to modify the loan than to allow the loan to go
into foreclosure.”
E. In essence, a positive Net Present Value meant that the lender was
expected to lose money by foreclosing on rather than
modifying the mortgage.
F. If the Net Present Value calculation was positive, the Treasury Secretary
required the loan servicer to issue a modification.
If it was negative, the servicer could choose to offer a modification, but did not
have to. See Supplemental Directive 09-01. Loan servicers received HAMP money
for every loan modification they issued, as an incentive to offer modifications.
PLAINTIFF’S ORIGINAL COMPLAINT
Page 21
55

Case 3:19-cv-00001-TCB Document L Filed 01/03/19 Page 22 of 57

}

G. When modifying a mortgage, HAMP-participating lenders were required
to reduce the borrower's monthly mortgage
. payment to get it "as close as possible to 31 percent" of the borrower's monthly
income. To achieve this, loan servicers were required to reduce the interest rate on
the loan. If this reduction was insufficient to get the payment down to 31 percent of
borrower income, the loan servicer was required to convert the mortgage to a 40year term.' If that wasn't enough, the servicer
had to place the loan in forbearance and waive interest on the loan while in
forbearance.
H. Borrowers who qualified for HAMP were generally given a trial
modification for three months or more. If they were able to pay the modified
amount and remained HAMP eligible, they could receive a permanent
modification.
!

I. This elaborate scheme reflects the public policy of the U.S. Congress and
the President to save the homes of Americans from foreclosure.
!

J. Both Defendants accepted billions of dollars from U.S. Taxpayers to carry
/

. :

.

out this public policy yet they failed to do sojand the mission of the U.S. Congress
and President was thwarted as is the case with Plaintiff.

PLAINTIFF’S ORIGINAL COMPLAINT

.
Page 22
56

.

Case 3:19-cv-00001-TCB Document!! Filed 01/03/19 Page 23 of 57

K. Wells Fargo had a duty to exercisejreasonable care in the creation,
implementation, and use of its internal softwjare to determine whether a mortgage
modification was required under HAMP regulations.
L. Wells Fargo had a duty to ensure that borrowers who met all objective
requirements were given a HAMP mortgage!modification.
M. Wells Fargo failed to exercise reasonable care in the creation,
j
'

F

implementation, and use of its internal software to determine whether a mortgage
modification was required under HAMP regulations.
N. Wells Fargo failed to ensure that borrowers who met all objective
requirements were given or offered a HAMP mortgage modification.
:

O. Wells Fargo denied or failed to offer mortgage modification to Plaintiff
who met all objective requirements to receive a permanent HAMP mortgage
modification.
l

.

(

P. Wells Fargo breached its duties to Plaintiff by:
1. Failing to perform mortgage servicing functions consistent with its
responsibilities to Plaintiff;
2. Creating, implementing, and using an internal software program
i

and protocols that were flawed and defective: and incorrectly calculated whether
Plaintiff was entitled to a HAMP mortgage modification;

PLAINTIFF’S ORIGINAL COMPLAINT
Page 23
57

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 24 of 57

3. Failing to properly supervise its agents and employees, including its
loss mitigation and collection personnel; foreclosure attorneys; and technical,
computer and engineering employees who developed, implemented, and used the
internal software to determine whether Plaintiff qualified for a HAMP mortgage
modification;

l
:

4. Making inaccurate calculations and determinations of Plaintiffs
eligibility for a HAMP mortgage modification;
5. Not conducting sufficient testing to determine whether its internal
software program was correctly calculating
whether a borrower, such as Plaintiff, was entitled to a HAMP mortgage
modification;
6. Failing to give HAMP mortgage modifications and other
foreclosure alternatives to qualified borrowers such as Plaintiff; and
i

7. Concealing the error in its internal software program from
«

*

approximately 2015 through October 2018.
Q. Defendant Wells Fargo knew or should have known that borrowers
such as Plaintiff would suffer injury as a result of Wells Fargo’s
failure
to exercise reasonable care.

PLAINTIFF’S ORIGINAL COMPLAINT
Page 24
58

Case 3:19-cv-00001-TCB Document;! Filed 01/03/19 Page 25 of 57

i

R. Defendant Wells Fargo's violations of law and/or negligence were the
direct and proximate cause of Plaintiff s injuries, harm and economic
i

loss,
which Plaintiff suffered and will continue toj suffer, including the loss of;the
Subject Property in a sum which exceeds $253,000.00.
S. As a consequence of Defendant Wells Fargo's negligence, Plaintiff
was injured in at least the following ways:
1. wrongful foreclosure;
2. otherwise avoidable losses, of Plaintiff s home to foreclosure;
3. less favorable mortgage modification;
4. increased fees and other costs related to a wrongful foreclosure;
''

5. lost equity in Plaintiffs home that was foreclosed on;
6. loss of savings in fruitless attempts to secure mortgage modifications;
7. loss of opportunities to pursue other refinancing or loss mitigation
strategies;
8. increased costs associated with lowered credit scores; and
9. significant stress causing physical injuries and emotional distress.
59. Wrongful Foreclosure
a.

Plaintiff incorporates by reference the allegations set forth in the Factual
Background and Introduction above and replead the same by reference

PLAINTIFF'S ORIGINAL COMPLAINT
Page 25
59

Case 3:19-cv-OOOOl-TCB Document}! Filed 01/03/19 Page 26 of 57
:
!

the same as if fully set forth again herein.
b.

Plaintiff contends that the foreclosure sale of December 6, 2016, if in fact ,
such a sale took place, was wrongful and should be rescinded and set
/

aside for the following reasons:

1. Any debt owed by Plaintiff to Defendant Wells Fargo or Defendant
U.S. Bank has been satisfied and fully discharged prior to the
foreclosure

i

sale as verified by the attached Exhibit B which is incorporated herein by
i

reference for all purposes as if fully set forth': herein.
2. Defendant Wells Fargo breached its fiduciary duty to me in
wrongfully denying my application for a loan modification under
!

HAMP which
misconduct was the direct and proximate cause of the wrongful foreclosure sale;
•/

3. Defendant Wells Fargo breached its contract with the Secretary of the
i

'

Treasury^, to which Plaintiff is a third-party beneficiary, by not
approving
Plaintiff for a loan modification for which he was eligible and qualified and for
which Defendant had been paid over $6 Billion Dollars to assist borrowers such as
Plaintiff;
4. The wrongful denial ofPlaintiffs loan modification under HAMP was
PLAINTIFF’S ORIGINAL COMPLAINT
Page 26 ,
60

|

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 27 of 57

a direct and proximate cause of the wrongful foreclosure sale as such
sale would not have happened but for the misrepresentations of Defendant Wells
Fargo and its negligence in devising a flawed system of analyzing borrowers for
eligibility for HAMP and its wrongful denial of Plaintiffs application for a loan
!■

modification.
5. Defendant U.S. Bank breached its fiduciary and contractual duty to
Plaintiff in conducting the Foreclosure sale in the face of its failure to
hold
a face-to-face meeting with Plaintiff when his mortgage became three months in
arrears and to hold another face-to-face meeting with Plaintiff at least 30 days
before the foreclosure sale as required by 24 C.F.R. Section 203.604(b) and Section
203.606(a) and also required by Plaintiffs Security Deed. If it is found after
discovery that Defendant U.S. Bank did not conduct the actual foreclosure sale,
Defendant U.S. Bank would still be liable because as the Servicer, it is charged with
v
the duty of making sure that all conditions precedent to a foreclosure sale are
;

fulfilled and that the foreclosure sale is conducted in good faith.
6. The foreclosure sale is wrongful in that it was conducted at a time
when the courthouse and many other government offices and
businesses

PLAINTIFF’S ORIGINAL COMPLAINT
Page 27
61

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 28 of 57

were closed due to inclement weather and thijs factor reduced the number of people
who ordinarily would have been present to bid on the property and gave
Defendant U.S. Bank an unfair advantage and caused the foreclosure sale to yield a
greatly reduced sales price than what it would have generated had the foreclosure
sale been conducted in a fair and impartial and reasonable manner. Thus,
I

Defendant U.S. Bank breached its duty to conduct the foreclosure sale in good
faith.
!

7. The foreclosure was wrongful in that Plaintiff would not have been
behind in his mortgage payments but for the misrepresentation by
Defendant Wells Fargo that Plaintiff had to be delinquent in his mortgage
:

i

payments to apply for HAMP assistance and there would not have been a need for
a foreclosure sale had Defendant Wells Fargo approved Plaintiff for a loan
i

modification under HAMP as Defendant Wells Fargo had a duty to do and for
i
■

which it had been paid over $6 Billion Dollars to accomplish.
8. The foreclosure sale is wrongful because Plaintiffs mortgage debt
was paid in full and discharged when Plaintiff gave Defendant Wells
Fargo
his Promissory Note which Defendant Wells Fargo monetized.

PLAINTIFF'S ORIGINAL COMPLAINT
Page 28
I

. 62

Case 3:19-cv-00001-TCB Document]! Filed 01/03/19 Page 29 of 57
!
■!

9. The foreclosure sale was wrongful in that Defendant U.S.
!•
!

Bank lacked standing to conduct a foreclosure sale and such
;
:

sale on

i

December 6, 2016 violated the applicable section of Federal Law which
provides:
12 CFR § 226.39(a)(1), stating in part that:
/

a servicer of a

mortgage loan shall not be treated as the owner of the
:

obligation if the servicer holds title to the loan, or title is
assigned to the servicer, solely for the administrative
convenience of the servicer in servicing the obligation.” See
U
also 15 U.S.C. § 1641(f)(1): “A servicer of a consumer
obligation arising from a consumer credit transaction shall not
I

be treated as an assignee of such obligation for purposes of this
section unless the servicer is or was the owner of the
i

obligation.”.
I

10. It is undisputed that Defendant U.S. Bank lacked any interest in
Plaintiffs property and Defendant U.S. Bank’s sole function was that '
of loan

;
i

servicer.

:

PLAINTIFF’S ORIGINAL COMPLAINT
Page 29
63
I

{

i

Case 3:19-cv-00001-TCB Documentjl Filed 01/03/19 Page 30 of 57

1 l.Thus, the December 6, 2016 foreclosure sale, if in fact such sale took
i

l
\

place, was wrongful, and Plaintiff asks this Honorable Court to declare
the sale/purported sale wrongful and void, to rescind the sale, and to declare
Plaintiff the rightful owner of his home--[the Subject Property described in 34
l

above, and to assess actual damages against Defendant Wells Fargo and Defendant
U.S. Bank, jointly and severally, in an amount which exceeds the minimum
jurisdictional limits of the court including1 damages for emotional distress and
mental anguish and distress and assess punitive damages against Defendant to deter
:

such conduct in the future by Defendant and others and that such damages be in a
sum of at leasPSHOOOjOOO.OO, together with pre and post-judgment interest and
l

. such other and further relief in law and in equity to which Plaintiff may show
i

himself justly entitled.
60.CONVERSION
i.

A. Plaintiff incorporates by reference the foregoing allegations the
j

same as if fully copied and set forth again here.
B. Plaintiff was the owner and possessor of the Subject Property. As a
result of the conduct alleged above, Defendant Wells Fargo and Defendant
U.S. Bank interfered with Plaintiffs; right to possess and to control the
!

Subject Property by denying Plaintiff a HAMP loan modification to which
Plaintiff was eligible and by engaging in a wrongful foreclosure sale that
PLAINTIFF’S ORIGINAL COMPLAINT
Page 30
64

Case 3:19-cv-00001-tCB Document;! Filed 01/03/19 Page 31 of 57

result in the wrongful taking of the Subject Property. At the time of the
conversion, Plaintiff had a superior right of possession and control of the
Subject Property.
C.As a direct and proximate result of Defendant Wells Fargo and
Defendant U.S. Bank misconduct, Plaintiff
suffered injury, damages, loss of the Subject Property in an amount of over
i

$253,000.00, for which Plaintiff sues for compensatory damages.

61. GEORGIA CONSUMER FRAUD ACT
A. Plaintiff incorporates by reference the foregoing allegations the same
as if fully copied and set forth again here.
B. The Georgia O.C.G.A. 51-6-1 (2010), provides “Fraud, accompanied
by damage to the party defrauded,
always gives a right of action to the injured party.
C.Defendant Wells Fargo's unconscionable and deceptive practices
include:
1. Failing to perform mortgage servicing functions consistent with its
responsibilities to
Plaintiff and HAMP regulations';
2. Creating, implementing, and using an internal software program and
!

protocols that were
PLAINTIFF’S ORIGINAL COMPLAINT
Page 31
i
65

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 32 of 57

flawed and defective and incorrectly calculated whether a borrower
such as Plaintiff was entitled to a HAMP mortgage modification;'
3. Failing to properly supervisees agents and employees, including its
I

loss mitigation and collection personnel; foreclosure attorneys; and
technical, computer, and engineering employees who developed,
V--

implemented, and used the internal software to determine whether a
boiTOwer such as Plaintiff qualified for a HAMP mortgage modification;
i

4. Making inaccurate calculations and determinations of Plaintiffs
;

eligibility for a HAMP mortgage modification;
i

5: Not conducting sufficient testing to determine whether its internal
software program was correctly calculating whether a borrower such as
Plaintiff was entitled to a HAMP mortgage modification;
6. Failing to give HAMP mortgage modifications and other
foreclosure alternatives to qualified borrowers such as Plaintiff; and
7. Concealing the error in its internal software program from
approximately 2015 through October 20 1 8.
D. Wells Fargo's representation? and omissions were material because
they were likely to deceive Plaintiff, and in fact did deceive Plaintiff,
!■

i

about his entitlement to a mortgage

modification under HAMP and the adequacy of Defendant Wells Fargo's methods
PLAINTIFF’S ORIGINAL COMPLAINT
Page 32
66

Case 3:19-cv-00001-TCB Document ! Filed 01/03/19 Page 33 of 57

for evaluating someone's entitlement to a FIAMP modification such as Plaintiff.
I

E. Defendant Wells Fargo intended to mislead Plaintiff and in fact did
mislead Plaintiff and induced him to rely on Defendant Wells
. I

Fargo’s misrepresentations and omissions to
the detriment of Plaintiff who would not have allowed his mortgage to go into
arrears had he known that Defendant Wells, Fargo would not act in good faith in
evaluating and approving Plaintiff for a HAMP modification.
i

F. Defendant Wells Fargo intended to mislead Plaintiff and in fact did
I

mislead Plaintiff by representing to Plaintiff at his face-to-face meeting that
Plaintiff s HAMP modification would be approved, and such misrepresentations
lulled Plaintiff into inaction so he did not avail himself of other remedies available
to him to avoid foreclosure.
G.

i

Wells Fargo acted intentionally or knowingly to violate

Georgia’s Fraud Statute and to lull Plaintiff into inaction such that
Plaintiff had insufficient time to seek alternatives
to foreclosure when Defendant Wells Fargomotified Plaintiff just six days before
foreclosure that Plaintiff s HAMP modification was denied.
H.

As

a direct and proximate result of Wells Fargo's
■;

unconscionable and deceptive practices, Plaintiff suffered injury in fact
and lost money and property through;
PLAINTIFF’S ORIGINAL COMPLAINT
Page 33
67

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 34 of 57
i.

t

I-

1. wrongful foreclosure;

?

2. otherwise avoidable loss of his home to foreclosure;
l

3. less favorable mortgage modifications;
i

4. increased fees and other costs to avoid or attempt to avoid
foreclosure;
5. lost equity in Plaintiffs home that was foreclosed on;
6. loss of savings in fruitless attempts to secure mortgage
modifications;
7. loss of opportunities to pursue other refinancing or loss mitigation
strategies; and

;

8. increased costs associated with lowered credit scores.
I. Because of Wells Fargo's unconscionable and deceptive business
practices, Plaintiff is entitled to relief, including injunctive relief, other
equitable relief, actual damages,

i

treble damages, restitution, and attorneys' fees and costs.
62.Request for Injunctive Relief Including Temporary Restraining
(

Order
A. An immediate Temporary Restraining Order against Defendants is
!

required to protect Plaintiffs homestead and his goodwill and
reputation. Without a Temporary Restraining
PLAINTIFF'S ORIGINAL COMPLAINT
Page 34

/
68 . :

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 35 of 57

Order and Temporary Injunction, Plaintiff will be irreparably harmed by these
Defendants in evicting Plaintiff from his residential homestead as the result of a
wrongful foreclosure. The loss of Plaintiff s homestead, goodwill, and reputation
cannot be adequately compensated through money damages and the harm will be
i

irreparable and permanent.

B. To preserve the status quo, Plaintiff requests a Temporary Restraining
Order prohibiting these Defendants from continuing with the eviction
j

process against Plaintiff from his
residential homestead presently scheduled for “immediately” according to an
eviction notice received from an attorney. Further, a Temporary Restraining Order
will allow Plaintiff the time he needs to litigate the instant lawsuit.
C. Plaintiff further requests a Temporary Injunction prohibiting these
Defendants from evicting Plaintiff from his residential homestead
until this Honorable Court can resolve the
issues raised herein. Upon final hearing, Plaintiff requests that the Temporary
Injunction become permanent.
D. Plaintiff prays for such damages as he may be entitled to in law and in
equity, including reasonable and necessary attorney fees.

A. JURY TRIAL
PLAINTIFF'S ORIGINAL COMPLAINT
Page 35
.

69 :

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 36 of 57
i

B. A jury trial is demanded.
i

WHEREFORE, PREMISES CONSIDERED, Plaintiff respectfully
requests that this Court grant the requested relief and upon final trial that
Plaintiff be awarded the damages
requested above, pre- and post-judgment interest, court costs, and such other and
further relief to which he may be justly entitled in law and in equity.
I

Thank You,'
;
:
*.

ay.
Timothy B. Brown
165 Monticello Way
Fayetteville, GA 30214
770-827-6458'
PLAINTIFF PRO PER/SUI JURIS
!
I

VERIFICATION
STATE OF GEORGIA

[]

COUNTY OF FAYETTE

[]

D

BEFORE ME, the undersigned authority, on this day personally appeared Timothy B.
,

Brown, Plaintiff in the above-entitled and numbered cause, who, being by me first duly sworn,
deposed and said that he has read the allegations contained in the foregoing application for

PLAINTIFF’S ORIGINAL.COMPLAINT

i

/
70

'

Page 36

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 37 of 57

temporary restraining order, temporary and permanent
injunction, and each and every fact and
;
i

t .

matter therein stated is within his personal knowledge and is tine and correct.

Timothy\B. Brown
SUBSCRIBED AND SWORN to before me, this 3 day of .DeeefifS'er SOtST
:

ZanuwjM*}

m
i

i<i

AiA lAiO

ANTOINETTE BLOUNT BYSE
Notary Public - State of Georgia
Fulton County
My Commission Expires Nov 12.2021

CERTIFICATION! AS TO FONT
Pursuant to N.D. Ga. Local Rule 7.1 D, 1 hereby certify that this document is submitted in Times
New Roman 14-point type as required by N.D. Ga. Local Rule 5.1(b).

1

1

Timothy B, Brown

I
;

t

!
i

!

1

PLAINTIFF’S ORIGINAL COMPLAINT

:
71

•

Page 37

Case 3:19-qv:00001-TCB Docuimeht 1 Filed 01/03/19. Page 38 of 57

.:

i

i

!

I

:

i

EXHIBIT A
LEGAL-DESCRIPTION,,

:
!
!
Attached to file: S6-QQ68Q54T

.

t

,

• -

All that tract or parcel of land lying and being in Land Lot l97,ofthe 13th District of Fayette County,
Georgia, and being Lot 14, Block C„ Unit 1 of the Dix-Lee ’On Corporation Subdivision, as per plat
recorded in Plat Bodk.6, Page 11.5, Fayette .County, Records, and being more particularly described as
follows:
ji
1
Beginning'at a polhtjlocated on the southwesterly side of'MoYrticelio Way, SQQ.feet Southeasterly'as
Measured along the; Southwesterly side of Monticetlo Way, from .the intersection of the Southwesterly side
.of Monticetl.o Way and the Southerly side of the' Dix-Lee .'On tDrlve, said point of beginning also being
located, at the Southeast corner of Lot 13 of said Block, Unit and'Subdivision; thence running.
Southeasterly aiongithe Southwesterly, side of Monticello way, 100 feet to a point at the Northeast comer
of Lot 1.5 of said Block, Unitj Subdivision; thence runnlng-Southv/esterly along the Northwesterly side of
said Lot 15,-249.4 fe.et.to a point; thence running Northwesterly 180 feet to a point at the Southwest ■
corner,of Lot 13 of said Block, Unit and Subdivision; thence-(junning.Northeasterly along the
Southeasterly side of said Lot 13, 249.8 feet to the Point of Beginning..'

\
i

r

;i

;
:

i

i

i

t

I

!

I

•

i

:

■t

;i

f

. *

I

;

i

5

>

!

:
i

■

:
;

•I

I

!
i

:

i!

;

!■

1
i

:

ii

t

i

;
i
!■'

;-

!
•!

I

l

,• i

!

•

i

i

• -... 72—
i

i

'/
-T '

Case;3:jl9-cv-00001-TCB Document!l Filed 01/03/19 Page 39 of 57
5
}

}

Killi

!
!

Ooc ID:
006860030020 Type: Gift’
riled: 09/22/2003 at 09:04:00 AM
Fee Amt: $1,216.50 Pape 1 -of 20
Ihtanalbla Tax: $1,168.50
Fayette, Ga. Clerk. Superior Court
Sheila Studdard Clerk of Court

i

;

Return-To:

*2863 "431-450

V/ELTS=PARGO-fiAMMrNfA.
IMVESTGR-OOCUMENTIVIANAGER
1O00.BUUEH3ENTIAN-ROAD
EAGAN;=MN.=551 2-1=1663-

I

f

Prepared By:
AREtHA D. WILLIAMS
; WELLS FARGO BANK, N.A.
1 HOME CAMPUS
DES MOINES, IA 50328-

i

'•

i
;
i

i

■ Return to: ;
Rand and Associates
3237 Satellite Bivd., Bldg. 300,
Suite 450 Dultith, GA 30096

I

Spacs Above This dine For Recording Data)
i

SECURITY deep

0147194864

s
i
I

: l
i DEFINITIONS
!

.

.

■

•

•

; Words used in multiple sections qf this document are defined below aiid other words are
defined in ^Sections 3, 11, 13, 18, 20 and 21. Certain rules regarding the usage .of words used
in this document are also provided in Section 16.|
'

i
i

■

j

.

•

(A) "Security Instrument" means this document, which is dated SEPTEMBER 16, 2005
together, with all Riders to this document.'
. !
; (B) “Borrower" is
TIMOTHY B. BROWN, SOLELY

;

:•
\

s

• •:

Borrower is the grantor under this Security Instrument.
. (C) ‘'Lender" is WELLS FARGO BANK, NA.
I

i i

'

•

i

. !

. Lender is a National Association
organized and existing under the lav/s of THE UNITED STATES OF AMERICA

!
:

i
; GEORGIA i Sinyie Family - Fannie Mae/Froddle Mac UNIFORM .INSTRUMENT
Pago I of IB

FORM .3011

1/01

I

!

Initials:

SGA01

ftov 11/02/00

i
I

• \:

)
- {

i

5

73

!

r

I

i

Case 3:19-cv-0000i-TCB Document jL

Filed 01/03/19

Page 40 of 57

\
t

i
!

;
\.
\.Lender's address is
P. 0. BOX 5137, DES MOINES, IA 50306-5137
|
Lender isthe grantee under this Security Instrument,
(D) "Not©;" means the promissory note signer! by {Borrower and dated SEPTEMBER 16, 2005.
. The Note) stktes that Borrower owes Lender THREE HUNDRED EIGHTY-NINE THOUSAND
. FIVE HUNDRED AND NO/100
j
Dollars
(U.S. $ ...?.9.5!i§QQift9.............. ) plus interest. Borrower has promised to pay this debt in regular
.'Periodic Payments and to pay the debt In full not later than OCTOBER 1, 2035
(E) "Property'.' means the property that is described below under the heading; "Transfer of
flights in the Property."
(
.
*.

•
j
I
I

I

I

.

;
:
r ..
;

(■
!

ii
I
i

i

j'
f '
I

(F) "Loan” means the debt evidenced by. the Note, plus interest, any prepayment charges
:and late charges due under the Note, and all sum's due under this Security Instrument, plus
interest;
j
(G) "Riders" means all Riders'; to this Security Instrument that, are executed by Borrower.
The (following Riders are to be executed by-Borrower [check box as .applicable):
*
.
;
€13 Adjustable Rate Rider€33 Condominium Rider.
m Second Home Rider
□ BalloonJ Rider
• • □ planned Unit Development Rider [33 1-4 Family RIddr
.[13'Biweekly Payment Rider
€33 0ther(s) [specify)
□ VA Rider
'
- i
-

(H) “Applicable Law" means all controlling applicable federal, state and local statutes,
regulations,! ordinances and administrative- rules land orders (that have the effect of law) as
well.as all applicable final, non-appealable judicial opinions.
(I) “Community Association Dues, Fees, and Assessments" means ail dues; fees,
assessmfe.nfs and other charges that are imposed on. Borrower or the Property by a
condominium association, homeowners association or similar organization. .
(J) "Electronic Funds Transfer" means any transfer of funds, other than- a transaction
{originated by check, draft, or similar paper instrument, which is initiated through an
‘ .electronic terminal, telephonic instrument, computer, or magnetic tape so as to order,
instruct, or authorize- a financial institution to debit'or credit an account. Such term includes,
but is not limited to, point-of-sale transfers, automated teller machine transactions, transfers
{initiated by telephone, wire transfers, and automated clearinghouse transfers.
(K) "Escrow Items" means those items that are described in Section 3.
,{Lj “Miscellaneous Proceeds” means any compensation, settlement, award of damages, or
proceeds paid by. any third party (other than insurance proceeds paid under the coverages
. described in Section'5) for- (i) damage to, of destruction of, the Property; (ii) condemnation
or other taking of all or any part of the Property; (iii) conveyance in lieu of condemnation; or
:(iv) misrepresentations of, dr omissions as to, the1 value and/or condition of the Property,
(Mj "Mortgage Insurance" means insurance protecting Lender against the nonpayment of,
. of default on, the Loan.
:{N) "Periodic Payment*' means the regularly scheduled amount due for (I) principal and
■ {interest .under the Note, plus (li) any amounts under Section 3 of.this Security Instrument,
(O) "RESPA" means the Real Estate Settlement (Procedures Act (12 U.S.C. Section 2601 et
seq.) and itis implementing regulation, Regulation X (24 C.F.R.. Part 3500), as they might be
amended from time to time, or any additional or successor legislation or regulation that

SGA02

Rev 12/1fo00

i

Pago 2 ol 18

Initials; jL.

i

-74-

FORM 3011

— —

1/01

Case 3S19-CV-00001-TCB Docmrient 1 Filed 01/03/19 Page 41 of 57
!
!

':

!I

i

:
;
:
i
,

governs the. same, subject matter. As used in th'is Security Instrument, "RESPA" refers to all
requirements and restrictions that are imposed in regard to a "federally related mortgage
loan" even if the Loan does not qualify as a "federally related mortgage loan" under RESPA.
(P) ‘'Successor in Interest of Borrower" means any party that has taken title to the Property,
whether or not that party has assumed Borrower's obligations under the Note and/or this
Security Instrufnent.

! TRANSFER OF RIGHTS IN THE PROPERTY
i

.

i
i

This Security Instrument secures to Lender: <i) the repayment of the Loan, and all renewals,
extensions and modifications of the Note; and (ii) the performance of Borrower's convenants
and agreements under this Security Instrument and the Note. For this purpose, Borrower
; does hereby grant and convey to Lender andlLender's successors and assigns, with the
power of sjale, the following described property located in the
FULTON
fcountv
.
of
l •
w
(Type ot* Recording Jurisdiction)
; {Name of Recording Jurisdiction)
: 1
i
1 LEGAL DESCRIPTION IS ATTACHED HERETO AS SCHEDULE “A" AND MADE A
PART HEREOF.
1 .
i
i

• Parcel ID Number:
165 MONTlpELLO WAY
: FAIRBURN
(“Property Address"}:
l
i

;

[City] ,

which currently has the address of
[Street]
30213:
[Zip Code]
Georgia

I.

TO, H/WE AND TO HOLD this property unto lender and Lender's successors and
; assigns/forever, together with all improvements now or hereafter erected on the property,
and all theleasements, appurtenances, and fixtures now or hereafter a part, of the property.
: All replacements arid additions shall also be covered by this Security Instrument. All of the.
, foregoing is referred to in this Security Instrument as the "Property,"
BORROWER-COVENANTS that Borrower is lawfully seised of the estate hereby
conveyed and has the right to grant and convey the Property and that the Property is
; unencumbered, except for encumbrances of record: Borrower warrants and will defend
generally the title to the Property against all claims and demands, • subject to any
encumbrances of record,
■
THIS SECURITY INSTRUMENT combines uniform covenants for national, use and noniu.niform covenants with limited variations by jurisdiction to constitute a uniform security
-Instrument covering real property.

SQA03

Rev 11/02/00

thiUa>5>

Pago. 3 of 18

t
)
\
;

75

!

FORM 3011

1/01

Case.3:il9-cv-00001-TCB Document;! Filed 01/03/19 Page 42 of 57

;

•i
!
!

i

!
i

:
UNIFORM COVENANTS. Borrower and Lender covenant and agree as follows:
1. Payment of Principal, Interest, Escrow Items, Prepayment Charges, and Late Charges.
Borrower shall pay when due the principal of, :and interest, .on,, the debt evidenced by the
Note and any prepayment charges and late charges due Under the Note. Borrower shall
also pay, funds for Escrow Items pursuant to Section ,3. Payments duo under the Note and
this Security Instrument shall b.e made in U.-S.| currency. However,. If any check or other,
instrumentj received by Lender as payment under the Note or this Security instrument is
returned to Lender, unpaid, Lender may require that any of all subsequent payments due
f
under the Note and this Security Instrument be made ih one or more, of the following forms,
' as-selected by lender: (a) cash; (b). money order; (c) certified check, bank check, treasurer's
check or cashier's check, provided any such check is drawn upon an institution whose .
. deposits are insured by a federal agency, instrumentality, or entity; or (d) Electronic Funds
; Transfer. ,j.
|
'
Payments are deemed received by Lender when received at the location designated in
the Note dr at such other location as may be designated by Lender in accordance with the
i
notice provisions in Section 15. Lender may return any. payment or partial payment if the
payment ojr partial1 payments are insufficient tojbring the Loan current. Lender may accept'
any payment or partial payment insufficient to bHngthe Loan current, without Waiver of any
I
rights herelunder or prejudice to its rights to refuse such payment or partial payments in the
future, butjLender is not obligated to, apply such payments at the time such payments .are
accepted. If each: Periodic Payment is applied W of its scheduled due date, then Lender
need not pay interest on unapplied funds. Lender may hold such unapplied funds until
Borrower makes payment to bring the Loan current. If Borrower does , hot do so within a'
reasonable period of time, Lender shall either apply such funds or return them to Borrower;
If not applied earlier, such funds will be appliedj to.the-outstanding principal balance under
the Note immediately prior to foreclosure. No offset or claim which. Borrower might have
now or in the future against Lender shall relieve IBorrower from making payments due under,
the Note and this Security Instrument or performing the covenants and agreements secured
[
by this Security Instrument.,
j
2. Application of Payments or Proceeds. Except'as otherwise described in this Section 2.
:
all payments accepted and applied by Lender shall be applied in the' following order.of
priority: (a)j interest due tinder the Note; (b) principal due under the Note; (c) amounts due
under Section 3, Such, payments shall be applied to each- Periodic Payment in the order in
. ; which it became due. Any remaining amounts shall be applied first to late, charges,, second
to any other amounts due under this Security Instrument, and then to reduce the, principal
I balance bf the Note.
i
If Lender receives' a. payment from Borrower for a delinquent Periodic Payment which •
.Includes,-a sufficient amount to.pay any late charge due, the.payment may be applied to the
I
delinquent ’payment and the late charge. If more than one Periodic Payment is outstanding,
Lender may apply any payment received from Borrower to the repayment of the Periodic
-Payments if, and to the extent that, each payment can be paid in-full. To the extent.that any
.!
; excess exists afteir the payment is applied to the full, payment of one or more Periodic
Payments, such excess may be applied to any Tate charges due. Voluntary prepayments
.
shall be applied first to any prepayment charges and then as described in the Note.
■

I

i

•i

-SGAC4

f
Rev tjl/02/00

}

Page 4 of IB

I
i

*6i

FORM 3011

1/01

Case;3:|19-cv-00001-TCB Document!! ..Bled 01/03/19 Page 43 of 57

i

1

i

!

Any application of payments, insurance proceeds, or Miscellaneous Proceeds to
principal djUe under the Note shall not extend; or postpone the due date, or change the
amount,;ofjthe Periodic Payments.
•
]
3. funds for Escrow Items. Borrower shall pay to Lender on the day Periodic Payments
; are due under the Note, until the Note is paid, in full, a sum (the "Funds”) to provide for
; payment ojf amounts due for: (a) taxes and assessments and other items which can attain
; priority lover this Security Instrument as a lien or encumbrance on; the Property; (b)
! leasehold payments or ground rents on the Property, if any; (c) premiums for any and all
: insurance jrequired by Lender under Section 5'; and (d) Mortgage Insurance premiums, if
any, or; any sums payable by Borrower to Lender in lieu of the. payment of Mortgage.
Insurance premiums in accordance with the provisions of Section 10. These items are called
"Escrow Items.” At origination or at any time during the term of the. Loan, Lender may
require !that Community Association Dues,-Fees;, and Assessments, if arty, be escrowed by
Borrower, land such dues, fees and assessments shall be an Escrow Item, Borrower shall
; promptly furnish to Lender all notices of amounts to be paid under this Section. Borrower
; shall pay (lender the Funds for Escrow Items unless Lender waives Borrower's, obligation to
: pay the [Funds for any or all. Escrow Items. Lender may waive Borrower's obligation to pay
' to Lender jFunds for- any or all Escrow Items atjany time. Any such waiver may only, be in
; writing. !ln jthe event of such waiver, Borrower shall pay directly, when and where payable,
I the amounts due for any .Escrow Items for which payment of Funds has been waived by
; Lender and, if Lender requires, shall furnish to! Lender receipts evidencing such payment
within such time period as Lender may require. Borrower's obligation to rnake such,
payments and to provide receipts shall for all purposes be deemed to be a covenant .and
: agreements contained in this Security Instrument, as the phrase "covenant and agreement"
;
! is used jin jSection 9, If Borrower is obligated to pay Escrow Items directly, pursuant, to a
I waiver, and Borrower fails to pay the amount due for an Escrow Item, Lender may exercise
: its rights under Section 9 and pay such amount and Borrower shall then be obligated under
: Section 9 to repay to Lender any such amount. Lender may revoke the waiver as to any or
! ail Escrow Items at any time by a notice given injaccordance wjth Section; 15 and, upon such
!
; revocation,! Bori-ower shall pay to Lender all Ftmds, and in such amounts, that are then
I
• required under this Section 3.
Lender may, at any time, collect and hold Funds in an amount (a) sufficient to permit
i
: Lender to apply the Funds at the time specified under RE.SPA, and (b) not to exceed the
: maximum amount'a lender can require ufider RESPA. Lender shall estimate the amount of
: Funds duejon the basis of current data and reasonable estimates of expenditures of future
Escrow Items or otherwise in accordance with Applicable Law.
}
The Funds shall be held in an institution whose deposits are insured by a federal
!
> agency,: instrumentality, or. entity (including Lender, if Lender is an institution whose
} - ; deposits, a re so insured) or in any Federal Home Loan Bank. Lender shall apply the Funds
>to pay thejEscrow Items no later than the time specified under RESPA. Lender shall not
; charge Borrower.for holding and applying the Funds, annually analyzing the escrow
'[account,ior! verifying the Escrow Items, unless Lender pays Borrower interest on the Funds
| and Applicable Law permits Lender to make sucjh a charge. Unless an agreement is made,
!
iin writing or Applicable'Law requires interest to be paid on the Funds, Lender shall not be

l

‘

SGA05 .

Rbv 11/02/00

I

Pago 5 of 1fl

i

:
I

i
77

!

Initials/

FORM 3011

1/01

;

I ■

■I

Case 3:19-cv-00001-TCB Document jl Filed 01/03/19 Pag6 44of57
!

^

f
i

■

i

:

1
! .

required'toj pay Borrower any interest or earnings on the Funds. Borrower and Lender can
agree ini writing, however; that interest shall be paid on the Funds. Lender shall give to
Borrower, vyithout charge, an annual accounting of the Funds as required by RESPA.
If therje is a surplus of Funds held in escrow, as defined under RESPA, Lender shall
account tojBpfrower for the excess funds in accordance with RESPA. If there is a shortage
of Funds held in escrow, as defined under RESPA, Lender shall notify Borrower as required,
by RESPA,! and Borrower shall pay to Lender the amount necessary to make up the
: shortage in accordance with RESPA, but in no more than 1.2 monthly payments. If there is a;
deficiency of Funds held jn escrow, as defined Under .RESPA, Lender shall notify Borrower
. as required by RESPA, and Borrower shall pay to Lender the amount, necessary to make up
■ the deficiency in accordance with RESPA, but in no more than 12 monthly payments,
Upphjpayme.nt in full of all sums secured by this Security Instrument, Lender shall
promptfyi.rejfund to Borrower any Funds held by Lender.
4. Charges; Liens. Borrowershaii pay all taxes, assessments, charges, fines, and
: impositions attributable to the Property which can attain priority over, this Security
Instrumentj leasehold payments or ground rent's on. the Property, if any, and Community
Association Dues, Fees, and Assessments, If any. To the extent that these items are Escrow
Items, Borrower shaii pay them in the manner provided in Section 3.
Borrower shall promptly discharge any tien jwhich has priority over this Security
Instrument unless Borrower; (a) agrees in writing to the payment of the obligation secured
by the lien in a manner acceptable to Lender, but only so long as Borrower is performing
such agreement; (b) contests, the lien in good faith by, or defends against enforcement pf
the lien in, legal proceedings which in Lender's opinion, operate to prevent the enforcement
of the lien while those proceedings are pending, but only until such proceedings are
concluded; or (c) secures from the holder of the lien an agreement satisfactory to. Lender
subordinating the lien to this Security Instrument. If Lender determines lhat any part of the
PropertyHs|subject to a lien which can attain priority over this Security Instrument, Lender
may .give Borrower a notice-identifying the lien.' Within 10 days of the date on which that
notice isigiyen, Borrower shall satisfy the lien or take one or more of the actions set forth
above inlthis Section 4.
Lender may require Borrower to pay a one-time charge fora real estate tax verification
" and/or reporting service used by Lender in connection with this Loan.
, 5. Property Insurance. Borrower shall keep the improvements now existing or hereafter
erected fonj the Property insured against loss by fire; hazards included within the term
“extended .coverage," and any other hazards including, but .not limited to, earthquakes and
floods, for jwhich Lender requires insurance. This insurance shall be maintained in the
:amounts;{including deductible levels) and for the'periods that Lender requires. What Lender
: requires pursuant to the preceding sentences can change during the: term of the Loan. The
“insurance carrier providing the insurance shall tie chosen by Borrower subject to Lander's
: right to disapprove Borrower's choice, which right shall not be exercised unreasonably.
Lender may require Borrower to pay, in connection with this Loan, either; (a) a. one-time
charge for jflood zone determination, certification and tracking services; of (b) a one-time
charge for flood zone determination and certification services and subsequent charge's each
tirri.e remappings of similar changes occur which reasonably might affect such determination

s

i
!

;

i

!

I
;
!

i
i
SGAOS

Rev U1/J3/00

FORM 3011

Page 6 ol 13

I

i

I

.I

!
!
V

,78.

1/01

Case 3:l9-ev-0000i-TCB Document (L. Filed 01/03/19 Page 45 of 57
1

:

:
;
I

!'

■i

; .or certification. Borrower shall, also be responsible for the payment of any fees imposed by .
; the Federal Emergency Management Agency in connection with the review'of any flood
• zone determination resulting from an objection by Borrower.
If Borrower fails to maintain any of the coverages described above, Lender may obtain
insurance jcoverage, at. Lender's option and Borrower's expense". Lender is under no
’ obligation to purchase any particular type or amount of coverage. Therefore, such coverage
. 'shall coyer Lender; but might or mig'ht hot protect Borrower, Borrower's equity tri.the
; Property, or the content's of the Property, against any risk,- hazard or liability and might
:
j provide greater or lesser coverage than was- previously iii effect. Borrower acknowledges
’ that the -cost of the insurance coverage so obtained might significantly exceed the cost of
insurance that Borrower couid have obtained. I Any amounts disbursed by Lender under
this Section 5 shall become additional debt of Borrower secured by this Security Instrument. '
These arhounts shall bear interest at the Note rate from the date of disbursement and shall
i
: be payable! with such interest, upon notice from Lender to Borrower requesting payment.
i
All |nsjurance policies required by Lender and renewals of such policies-shall be subject
; to Lender's right to disapprove such policies, shall include a standard mortgage clause, and
■ shall narnej Lender as mortgagee and/or as an additional loss payee. Lender shall have the
; right to.; hold the policies and renewal certificates. If Lender requires, Borrower shall
; promptly g!iv.e to' Lender all receipts of paid premiums and renewal notices, if Borrower
i obtains any form of insurance coverage, not otherwise required by Lender, for damage to,'
; or destruction of; the Property, such policy shall include a standard mortgage clause and •
S shall name Lender as mortgagee and/dr as an additional loss payee.
In the event of loss,. Borrower shall give prompt notice to the insurance carrier and
Lender.'Lender irh.ay make proof of loss if not made promptly by Borrower. Unless Lender
; and 8orrolver otherwise agree in writing, any! insurance proceeds, whether or not the
1
underlying {insurance was required by Lender, shall be applied to restoration or repair of the
' \ Property, If the restoration or repajr is. economically feasible and Lender’s security is not
1 lessened. During such repair and restoration p'eriod, Lender shall have the right to hold
: such insurance proceeds until Lender has had 'an opportunity to inspect such Property to
: ensure thejwork has been .completed to Lender's satisfaction, provided that such inspection
: shall be undertaken promptly. Lender may -disburse proceeds for the repairs and
restoration in: a'single payment or in a. series of progress payments as the worfc is.
I completed. Unless an agreement is made in writing or Applicable Law requires interest to
fbe paid.i.on such insurance proceeds, Lender shall not be required to pay Borrower any
i interest iorj earnings, on such, proceeds. Fees for. public adjusters, or other third parties,
retained^ by Borrower shall not be paid out of the insurance proceeds and shall be the sole
: obligation of Borrower. If the restoration or repair is not economically feasible or Lender's
i.i
- ' security .would be lessened, the-insurance proceeds shall be applied to the. sums secured
. by this Security Instrument, whether or not then, due, with the ejccess, if any, paid -to
;.Borrower. Such insurance proceeds shall be applied in the order provided for in Section s.
!
. If Borrower abandons the Property, Lender .may file, negotiate and settle any available
.-.insurance claim and related matters. If Borrower does not respond within 30 days to a
notice from Lendfer that the insurance carrier has offered to settle a claim, then Lender may
j
I negotiate and settle the claim, the 30-day periodjwill begin when the notice is given. In

;

i

•:

1.
I

'

I

I

SGA07

!

Rov 10/23/00

I

Page 7 of 18

!
I

>

i

!

X

1
?

79

;

Initio I

- FORM 301 i

1/01

I

Case3:19-cv-00001-TCB Document;! Filed 01/03/19 Page 46 of 57
?

!
i

:'

5

i. .

1
either event, or if Lender acquires the Property.under Section 22 or otherwise, Borrower
hereby assigns to tender (a) Borrovver’s rights to any insurance proceeds in an amount riot
to exceed the amounts unpaid under .the Note or this Security instrument, and (b) any. other
of Borrower's rights .{other than the right to any refund of unearned premiums paid by
Borrower) under, all insurance policies covering the Property, insofar as such rights are
applicable to the coverage of the Property. Lender may use the insurance proceeds either
to repair or restore the Property or to pay amounts unpaid under the Note or this Security
instrumentj whether or not .then due.
1

:

;
!
i

,

-:
;
* ;
;
I
|
:
i

:
.
;

I
}

!

!
i
!

.

; ,
i

6, Occupancy. Borrower shall occupy, establish, and use the Property as Borrower's
principal residence within. 60 days after .the execution of this Security Instrument and shall
continue to occupy the Property as Borrower's principal residence for at least one year after
the date of occupancy,- unless .Lender otherwise agrees in writing, which consent shall not
be unreasonably withheld, or unless extenuating circumstances exist which are. beyond
Borrower's control.
•
’
I
7. Preservation, Maintenance and Protection of the Property; Inspections. Borrower
shall not destroy; damage or impair the Property, allovy the Property to deteriorate or
commit! waste on the Property, Whether or not Borrower is residing in the Property,
Borrower shall maintain the Property in order to prevent the Property from deteriorating or
decreasing in value due-to its condition.'Unless, it .is determined pursuant to Section S that
repair or restoration is not economically feasible, Borrower shall promptly repair the
Property if damaged to avoid further deterioration or damage: If insurance or condemnation
proceeds are paid in connection with damage to, or the taking of,, the Property, Borrower
shall be responsible for repairing or restoring! the Property only if Lender has released
proceeds fpr such purposes. Lender may disburse proceeds'for the repairs and restoration
in a single payment or in a series of.progress!payments
the work is completed. If the
insurance |or condemnation proceeds are not sufficient to repair or restore the Property,
Borrower is hot relieved of Borrower's obligation for the completion of such repair or
restoration!
[
Lender or its agent may make reasonable entries upon and inspections of the Property.
If it has; reasonablecause, .Lender may inspect the interiorof theimprovements
on the
Property. .Lender shall give Borrower notice
at the time, of orprior to such an interior
inspection specifying such reasonable cause. . | '
8. Borrower's Loan Application. Borrower shall be in default if, during the Loan
applicatiohj process, Borrower or any persons or entities acting at the direction of Borrower
or with Borrower’s knowledge-or consent gave, materially false, misleading, or inaccurate
information or statements to Lender.(or failed to provide Lender with material information)
in connection with the Loan. Material representations include, but are -not limited to.,,
representations concerning Borrower's occupancy of the Properly as Borrower's principal
residence.!
'

9. Protection of Lender's Interest in the Property and Rights Under this Security
! Instrument! If (a) Borrower fails to perform the covenants and agreements contained in this
• Security;Instrument, (b).there is a legal proceeding that might significantly affect Lender’s
, interest in the Property and/or rights under this:Security Instrument (such as a proceeding
.in bankruptcy, probate, for condemnation or forfeiture, for enforcement of a lien which may
, attain priority over this Security Instrument or to enforce laws or regulations), or
i

i

!

f

; SGA06
!

Raw td'WOO

Initials*

Page B ol 18

:

.!
-----_.— -80—i—

!

!-. i

FORM 3011

1/01

Case 3:l9-cv-00001-TCB Document %. Filed 01/03/19 Page 47 of 57
!

I

5

• I

J

r

I

i

!
!
!
:

;
•
I

!

::
!

.

.
-!
:
■

.
i

■

I
i

:

;

•j

(c).Borrower has abandoned the Property, then Lender may do and pay for whatever is
reasonable or appropriate to protect Lender's interest in the Property and rights under this
Security. Instrument! including protecting and/pr assessing the value of the Property, and
securing and/or repairing the Property (as set forth below). Lender’s actions can include,
but are; not limited to: (a) paying any sums secured by a lien which has priority over this
Security Instrument; (b) appearing in court; and (c) paying reasonable attorneys' fees to
protect[itsj interest in the Property and/or rights under.this Security Instrument, including its
secured position in a bankruptcy proceeding.! Securing the Property includes, but is not
limited | tq, making repairs, replacing doors jand windows, draining water from pipes,
eliminating building or other code violations. or;dangerous conditions. Although Lender may
take action
under this Section 9,
Lender
does not
have to do so and is not under
any duty
l
■ *
,
•
j*
•••#*
or obligation to do :so. It is agreed that Lender incurs no liability for not taking any or all
actiOns authorized under this Section 9.
'I
Any; amounts disbursed by Lender under this Section 9 shall become additional debt of
Borrower secured by this Security Instrument;! These amounts shall bear interest at the
Note rate from the date of disbursement andpshall be payable, with such, interest, upon
notice from Lender to Borrower requesting payment:
If this Security Instrument is oh a. leasehold,! Borrower shall comply with all the
provisions of the lease. If Borrower acquires fe’e-title to. the Property, the leasehold and the
fee title shall not merge unless Lender agrees to the merger in writing.
10. Mortgage Insurance. If Lender required Mortgage Insurance as a condition of
making, the Loan, .Borrower shall, pay the. premiums required to maintain the Mortgage
Insuranceiin effect, if, for any reason, the Mortgage Insurance coverage required'by Lender
ceases to: be available from the mortgage insurer that previously provided such insurance
and Borrower was required to make separately designated payments toward the premiums
for Mortgage Insurance, Borrower shall pay the premiums required to obtain coverage
substantially equivalent to the Mortgage Insurance previously in effect, at a cost .
substantially equivalent.-to the cost to Borrower of the Mortgage Insurance, previously in
effect, from an alternate mortgage insurer sejected by Lender. If substantially equivalent
Mortgage|lnsurance coverage is not available. Borrower shall continue to pay to Lender the
amount of the separately designated paymentslthat were due when the insurance coverage
ceased! to be .in effect. Lender will, accept, use and retain these- payments as a
non-refundable loss reserve in lieu of Mortgage Insurance. Such loss reserve shall be
non-refundable, notwithstanding the fact that the Loan is ultimately paid in full, and Lender
shall nbt | be required to pay Borrower any interest or earnings on such loss reserve.
Lender; can no longer require loss reserve payments if Mortgage Insurance, coverage, (in the
amount and for the period that Lender requires) provided by an insurer.selected by Lender
again becpmes available, is obtained, and Lender requires separately designated payments
toward;ths premiums for Mortgage Insurance, jif Lender required Mortgage Insurance as a
Condition of making the Loan and Borrower was required to make, separately designated
payments toward the premiums for Mortgage Insurance, Borrower shallpay the premiums
required to maintain Mortgage insurance in ^effect, or to provide a non-refundable loss
reserve, until Lender’s requirement for Mortgage Insurance ends in accordance with any
written! agreement between Borrower and Lender providing for such termination or until
termination is required by Applicable Law. Nothing in this Section. 10 affects Borrower’s .
obligation to pay interest at the.rate provided in the Note.
SGAD9

:

1

i
Rev 11/02/00

Pago 9 of 18

!

r
i

:

!

5

i
:

!
I

;

81

i

. i

Initials:/. V

FORM 3011.

1/01

i

Case3:H9-cv-00001-TCB Documentil Filed 01/03/19 Page 48 of 57
■

i-

i

(
t

(
!
;

I
f

i

}

i
!
Mortgage Insurance reimburses Lender (or any entity that purchases the Note} for
certain'losses it may incur if Borrower does not repay the Loan as agreed. Borrower is not
a party to the Mortgage Insurance.
Mortgage insurers evaluate their total riskpn all such insurance in force from time to
time, and may enter into agreements with other parties that share or modify their risk, or
reduce losses. These agreements are on terms and conditions that are satisfactory to the
mortgage insurer and the other party (or parties) to these, agreements, These agreements
may requite the mortgage insurer to make payments using any source of funds that the
. mortgage ’insurer may have available (which may include funds obtained from Mortgage
Insurance premiums).
.
Asia result of these, agreements; Lender, any purchaser of the Note, another insurer,
; any reinsurer, any other entity, or any affiliate of any of the foregoing, may receive (directly
or 'indirectly) amounts that derive from (or (might be characterized as) a portion of
Borrower's! payments for Mortgage Insurance,jin exchange for sharing or modifying the
mortgage insurer's risk, or reducing losses. If such agreement provides that an affiliate of
: Lender fakes a share of the insurer's risk in exchange for a share of the premiums paid to
the insurerj, the arrangement, is often termed."captive reinsurance.'1 Further:,
(a)’ Any such agreements will not affect the!; amounts that Borrower has agreed to pay
for Mortgage Insurance, or any other terms of the Loan. Such agreements will not increase
the amount Borrower will owe for Mortgage Insurance, and they will not entitle Borrower to
any refund:
■
(b) Ariy such:agreements will not affect the rights Borrower has - if any - with respect
1 to the Mortgage insurance under 1he Homeowners Protection Act of 1993 or any other law.
! These rights may include the right to receive certain disclosures, to request and obtain
; cancellation of the Mortgage Insurance, to have the Mortgage Insurance terminated
■ automatically, and/or to receive a refund of any Mortgage Insurance premiums diet were
unearned at the time of such cancellation or terrhination.
.11.i Assignment of Miscellaneous Proceeds;! Forfeiture. All Miscellaneous Proceeds are
hereby assigned to and shall be paid to Lander: ;
If the Property is damaged, such Miscellaneous. Proceeds shall be applied to
restoration or repair of the Property, if the restoration or repair is economically feasible and
Lender's security is not lessened. During such repair and restoration period, Lender shall'
.; have the right to hoid such Miscellaneous Proceeds until Lender has had an opportunity to
inspect such Property to ensure the work hasi been completed to Lender's satisfaction,
provided that such inspection shall be undertaken promptly. Lender may pay for the repairs
and restoration in a single disbursement or in a 'series of progress payments as the work is
completed.j Unless an agreement is made in writing or Applicable Law requires interest to
: be paid orijsuch Miscellaneous Proceeds, Lender shall not be required to pay Borrower any
interest ;orj earnings on such Miscellaneous Proceeds. If the restoration or repair is not
; economicajly feasible or Lender's security would be lessened, the Miscellaneous Proceeds
; shall be applied to the sums secured by this Security. Instrument, whether or not then due.,
with the excess, if any. paid to Borrower. Such Miscellaneous Proceeds shall be applied in
: the order provided, for in Section 2.
!

I

:
:

I

i.SGA'10
i

r

t
Rsv 10/23/00

;

Pug© 10 of 16

FORM 3011

i

r

’l
i

82

;
t

i

1/01

Case 3:19-cv-00001-TCB Document 1 Filed 01/03/19 Page 49 of 57

:

;

I'

1
i

I
•i
i

;

;

i

!

I

.

'

i

•

In the event of a total taking, destruction, or loss In value of the Property, the
Miscellaneous Proceeds shall be applied to the sums secured by this Security Instrument,
whether dr not then due, with the excess, if any, paid to Borrower:
In the event of a partial taking, destruction, or loss in value of the Property in which.the
fair market value of the Property immediately before the partial faking, destruction, or loss
in value is (equal to. or greater than the amount of the sums secured by this Security
instrument jmmediateiy before the partial takirtg, destruction, or loss in value, unless
Borrower; and Lender otherwise agree in writing, the sums secured .by this Security
Instrument shall be reduced by the amount of the' Miscellaneous Proceeds multiplied by the
following ifra'ction: (a) the total amount of the sums secured immediately before the partial
taking, destruction, or loss in va|ue divided by (b) the fair market value of-the Property
immediafelyj before the partial taking, destruction, or loss in value. Any balance shall be
paid to Borrower.
'
j
In the event of a partial taking, destruction, o'r loss in value of the Property in which
the fair market value of the Property immediately before the partial taking, destruction,.or
joss in value is less than the amount of the sums secured immediately before the partial
taking, destruction,1 or loss in value, unless Borrower and Lender otherwise agree in writing,
the' Miscellaneous' Proceeds shall be applied ! to the sums secured by this Security
instrument whether or not the sums are then due.'
If the Property is abandoned by Borrower, or if, after notice by Lender to Borrower that
the Opposing Party (as defined in the next sentence) offers to make an award to settle a
claim forlda'mages, Borrower fails to respond toi Lender within 30 days after the date the
notice is given, Lender is authorized to collect anti apply the Miscellaneous Proceeds either
to restoration or repair of the Property 6r to the sums secured by this Security Instrument,
whether or Jnot then due. “Opposing Party" means the third party that owes Borrower
Miscellaneous Proceeds or the party against whom Borrower has a right of action In regard
to Miscellaneous Proceeds.
i
Borrower shall be in default if.any action or proceeding, whether civil or criminal, is
begun that, in Lender's judgment, could result in forfeiture of the Property or other material
impairment [of Lender's interest in the Property or rights under this Security Instrument.
Borrower ca|n cure such a default and, if acceleration-has occurred, reinstate as provided in
Section 19, jby causing the action or proceeding to be dismissed with a ruling that, in
Lender's judgment, precludes forfeiture of the Property or other material impairment of
Lender's interest in the Property of rights underithis Security Instrument. The proceeds of
any. award.or claim for damages that are attributable to the impairment of Lender's interest .
in the Property are'hereby assigned and shall be paid to Lender.
All Miscellaneous Proceeds that are not applied to restoration or repair of the Property
shall be applied in the order provided for in Section 2.
12. Borrower Not Released; Forbearance By Lender Not a Waiver. Extension of the time
for paymentlor modification of amortization of thej sums secured by this Security Instrument
. 'granted by Lender to Borrower or any Successor in Interest of BoiTOwer shall not operate to
release the liability of Borrower or any Successors in Interest of Borrower. Lender shall not
be required to commence proceedings against any Successor in Interest of Borrower or to
refuse to.extend time for payment or otherwise modify, amortization of the sums secured by

SGA11

Rev! .11.jpa/03 ■

;

Pigs 1t of l«

: . ■initial/__\b

.5

~83

i

FORM 3011

1/01

!

‘

Case ;3:jL9-cv-00001-TCB Document! Filed 01/03/19 Page 50 of 57

i

i

I

i .

!j
this Security Instrument by reason of any demand made by the original Borrower or any
Successors in Interest of Borrower. Any forbearance by Lender in exercising any right or
remedy 'including, without limitation, Lender's acceptance of payments from third persons,
entities or Successors in Interest of Borrower or in arpounts less than the amount then due,
: shall not be a waiver of or preclude the exerci.se;of any right or remedy.
13. Joint and Several Liability; Co-signers; Successors and Assigns Bound. Borrower
covenants jand agrees that Borrower's obligations and liability shall be joint and several.
; However, any Borrower who co-signs this Security Instrument but does not execute the Note
: (a ’’co-signer”): (a) is co-signing this Security Instrument only to mortgage, grant and convey
the co-sjgn!er’s interest in the Property under the terms of this Security Instrument; (b) is not
personally [obligated to pay the sums secured by this Security Instrument; and (c) agrees
that Lender and any other Borrower can. agree to extend, modify, forbear or make any
; accommodations with regard, to the terms of this; Security Instrument or the Note without the
cosigner'sjconsent.
' j
. Subject to the provision of Section 18, any Successor in Interest of Borrower who
assumes Borrower's obligations under this Security instrument in writing, and is approved
by Lender,; shall obtain all of Borrower’s rights and benefits, under this Security Instrument. .
Borrower shall not be released from Borrower's,, obligations and liability under this Security
Instrumentjunless Lender agrees to such release in writing. The covenants and agreements
of this. Security Instrument shall bind (except es provided in Section 20) and benefit the, successors' and assigns of Lender,
14.Loan Charges. Lender may charge Borrower fees for services performed In
connection [with Borrower's default, for the purpose of protecting Lender's Interest in the
Property arid rights under this Security Instrument, including, but not limited to, attorneys'
fees, property inspection and valuation fees. Ini regard to ,any'other fees; the. absence of.
express authority in this Security Instrument to charge a specific fee to Borrower shall not
■be construed as a prohibition on the charging ofjsuch fee. Lender may riot charge fees that
are expressly prohibited by this Security Instrument or by Applicable Law.
If the loan is subject to a law which sets maximum loan charges, and that law is finally

i

;
!

r

i

interpreted' so that the interest or other loan: charges collected or to be collected in
connection with the Loan exceed the permitted limits, then: (a) any such loan charge shall
be reduced by the amount necessary to reducethe charge to the permitted limit; and (b)
any sums already'collected from Borrower whichjexceeded permitted limits will be refunded
;to Borrower. Lender may choose to make this refund'by reducing the principal owed under
:the Note; or by making a direct payment to Borrower, if a refund reduces principal, the
reduction will be treated as a partial prepayment without any prepayment charge (whether
or not a prepayment charge is provided for under the .Note), Borrower's acceptance of any
such refund made by direct payment to Borrower will constitute a waiver of any right of
action Borrower might have arising cut of such overcharge.
15. Notices, All notices given by Borrower or Lender in connection with this Security
Instrument [must be, in writing. Any notice to Borrower In connection with this Security
•Instrument shall be deemed to have been given tp Borrower when mailed by first class, mail
or when factually delivered to Borrower's, notice 'address if sent by other means. Notice to
i.ahy one Borrower shall constitute notice to all Borrowers unless Applicable Law expressly
;

:.
'SGA12

Rev 1 j'02/00

/
5

Pago 12 of 16

ini1iai£

f

!
!

*•
84

|

I*

FORM 3011

1/01

4

Case 3:t9-cv-00001-TCB Document 1 Filed 01/03/19 Page 51 of 57
;
I
{

:•
!'
:.

I

I

■

!

i

j

: requires;ot lerwise. The notice address shall bejthe Property Address unless Borrower has
; designated a substitute notice address by notice to Lender, Borrower shall promptly notify
r Lender of Borrower’s change of address. If Lender specifies a procedure for reporting
i Borrower's change of address, then Borrower sh‘all only report a change of address through •
(that specified procedure, there may be only one designated notice address under this
I Security Instrument at any one time. Any notice to Lender shall be given: by delivering it or
\ by mailing it by first class mail to Lender's address 'stated herein unless Lender has
; designated another address by notice to Borrower. Any notice in connection with this
I Security: Instrument shall not be deemed to have been given to Lender until actually
! received by Lender. If any notice required by; this Security Instrument is also required
under Applicable Law, the Applicable Law requirement will satisfy the corresponding
requirement under this Security Instrument.
1 .
16. Governing Law; Severability; Rules of Construction. This Security Instrument shall
be governed by federal law and the law of the jurisdiction in which the Property is located.
-All rights and obligations contained in this [Security Instrument are subject to any
requirements and limitations of Applicable Law. Applicable Law might explicitly or implicitly
fallow the parties to agree by contract or it might be silent, but such silence shall not be
construed as a prohibition against agreement bylcontract. In the event that any provision or
.clause of this Security Instrument or the Note conflicts with Applicable law, such conflict
’shall not! affect other provisions of this Security instrument or the Note which can be given
j effect without the conflicting provision.
j
As used in this Security Instrument: (a) words of the masculine gender shall mean and
‘include corresponding neuter words or words of the feminine gender;, (b) words in the
; singular (shall mean and include the. plural and j vice Versa; and (c) the word ‘may" gives
■ ’sole discretion without any-obligation to lake any|actiqn.
17. ( Borrower's Copy. Borrower shall be given one copy of the Note and of this
Security instrument.
18. Transfer of the Property of a Beneficial Interest in Borrower. As used in this
( Section 18,j"!nterest in the. Property" means any .legal or beneficial interest in the Property,
(including, but not limited to, those .beneficial interests transferred Jn a bond for deed,
(contract forj deed, installment sales contract or escrow agreement, the. intent of which, is the
{transfer of title by Borrower at:a future date to. a purchaser.
If all or any part of the Property or any Interest in the Property, is sold or transferred (or
: if Borrower is hot a natural person and a beneficial interesj in Borrower is sold or
(transferred^ without Lender's prior written consent, Lender may require immediate payment
I in full of, all sums'secured by this Security Instrument. However, this option shall not .be
(exercised by Lender if such exercise is prohibited by Applicable Law.
. If Lender exercises this option, Lender shallj give Borrower notice of acceleration. The
‘notice shall provide a period of not loss than 30 days from the date the: notice is given in
|accordahce| with Section 15 within which Borrower must pay all sums secured by this
; Security instrument. If Borrower fails to-pay these sums prior to the expiration of this
■ (period, Lender may. invoke, any remedies permitted by thjs Security Instrument without
(further notice or demand on Borrower,
• .
I

SGA13

Rev \ J/23/00

.:

Page 13 ol 18

!
:
i

;
J

85

. Initial s/n

' FORM 3011

1/01

[

Case 3: 19-cv-00001-TCB Document 1 Filed 01/03/19 Page 52 of 57

i

:

\
!•

\

I

■V

:

• i

]
i

;

!

:

\
19.; Borrower's Right to Reinstate After Acceleration, If Borrower meets certain
, conditiohs.j Borrower shall have'the right to have enforcement of this Security Instrument

;

s

!
r

discontinued at any time.prior to.the earliest, of: (a) five days before sale of the Property
. pursuant to any power of sale contained in this Security Instrument; (b) such other period as
( Applicable |Law might specify for the termination,of Borrower's right to reinstate; or (c) entry
I- of a judgment enforcing this Security Instrument. Those conditions are that Borrower: (a)
i .pays Lender all sums which then would be due under this Security Instrument and the Note
; as if no acceleration had occurred; (b) cures any default of any other covenants or .,
agreements; (c) pays all expenses .incurred in enforcing this Security Instrument, including,
but not limited to, reasonable attorneys' fees, property inspection and valuation fees, and '
: other fees incurred for the purpose of protecting (Lender's .interest in the Property and rights
under this Security instrument; and..(d) takes such action as Lender may reasonably require
to assure that. Lenders interest, in the Property! and rights under this Security Instrument, . .
' and Borrower's obligation to pay the sums secured by this Security; Instrument, shall
continue' unchanged. Lender may require that Borrower pay such reinstatement, sums and
: expenses, in one or more of the following forms,;as selected by Lender: (a), cash; (b) money
order; (c) certified check, bank check, treasurers check or cashier's check, provided any
such check is drawn upon an institution whose|deposits are insured by a federal agency,
(instrumentality or entity; or (d) 'Electronic Funds Transfer. Upon reinstatement by Borrower,
this Security Instrument and . obligations secured! hereby -shall remain fully effective as if no.
^acceleration had occurred.- However, this right (o' reinstate shall not apply in the case of
acceleration under Section 18.
i
20. Sale of Note; Change of Loan Servicer, Notice of Grievance. The Note or a partial
interest in the Note (together with .this Security Instrument) can be sold one or more times
without prior notice to Borrower. A sale might result in a change in the entity (known as the
"Loan Servicer") that collects' Periodic Payments due under the Note and this Security
Instrument land performs .other mortgage loan 'servicing, obligations under the Note, this
Security ‘Instrument, and Applicable Law. There also might be one or more-changes of the
• Loan Servicer unrelated to'a sale of the Note. ‘If there is a change of the Loan Servicer,
" ! Borrower will be given written notice of the change which'will state the name and address
o1 the new Loan. Servicer, the address to which'-payments' should be made and any other
iinformatipn RESPA requires in connection.'with a .notice, of transfer or servicing, if the Note
is sold and. thereafter the Loan is serviced by a [Loan. Servicer other than the purchaser- of '
, -the Note1, the .mortgage loan servicing obligations to Borrower will remain with, the Loan
Servicer|6r|be. transferred to a successor Loan Servicer and are not assumed, by the Note
.purchaser unless otherwise provided by the Note,purchaser.
Neither Borrower nor Lender may commence,.join, or be joined to any judicial action
;{as either -sin individual litigant or the member of a class) that arises from the other party’s
actions pursuant to this Security. Instrument or that alleges that the other party has.
(breached any provision of, or any duty owed by reason of, this Security Instrument; until
isuch Borrower or Lender has notified the other party (with such notice given in compliance
iwith the .requirements of Section -15) of such alleged breach and afforded the other party,
•hereto, al reasonable period after the giving of. such notice to take corrective action. If
Applicable Law provides a time period which must elapse before certain action can be
taken, that time period will be deerned 'to be reasonable for purposes of this paragraph.

i

I

SGA14
i

:
:
;

i
Floy 12/27m

Initials:

. Page H o? J3‘

FORM 3011

1/01
}

t

i

!
i

•;
:

!

%:
■

'

86

I

i

Case 3:19-cv-00001-TCB Document! Filed 01/03/19 Page 53 of 57
t

!'

i

;
;

!
i

i

i

i
‘

i

i.
i
? •

!
i

i

i

i

1

!

i
■

:
:

|

The, notice of acceleration and opportunity to cure given to Borrower pursuant to Section 22
and the notijce of acceleration given to Borrower [pursuant to Section 1.8 shall’be deemed to
satisfy the notice and opportunity to take corrective action provisions of this Section 20;
21. Hazardous Substances. As used in this Section 21: (a) “Hazardous Substances"
. [are thosd substances defined as toxic or hazardous substances, pollutants; or wastes by
Environmental Law and the following substance's: gasoline, kerosene, other flammable or
itoxic petroleum products, toxic pesticides and herbicides, volatile solvents,. materials
(containing asbestos or formaldehyde, and radioactive materials; (b) "Environmental Law"
[means federal laws and laws of the jurisdiction V/here the Property is located that relate to
[health, safety or environmental protection; (c) "Environmental Cleanup" includes any.
(response;.action, remedial action, or removal action, as defined in Environmental Law; and
(d). an "Environmental Condition" means a condition that can cause, contribute to, or
[Otherwise trjigger an Environment Cleanup.
;
Borrower shall not cause or permit the presence, use, disposal,, storage, or release of
any Hazardous Substances, or threaten to release any Hazardous Substances, on or in the
Property.': Borrower shall not do, nor allow anyone :else to dp, anything .affecting the
Properly: (a') that Is in violation of any Environmental Law, (b) which creates an
[Environmental Condition, or (c) which, due to the presence, use, or release of a Hazardous
'Substance, |creates a 'condition that adversely, affects the value of the Property. The
[preceding t'jvo sentences shall not apply to.the presence, use, or storage on the Property of
small quantities of Hazardous Substances that are generally recognized to. be appropriate to
normal residential uses and to maintenance of the Property (including, but not limited to,
.'hazardous substances in consumer products).
[
Borrower shall promptly give Lender written' notice of (a) any investigation, claim,
demand, lawsuit or other action by any governmental or regulatory agency or private party
involving [ the Property and any Hazardous Substance or Environmental Law of which
Borrower has actual knowledge, (b) any Environmental Condition, including but not limited
to, any spilling, leaking, discharge, release or threat of release of any Hazardous Substance,
and (c) anyj condition caused by the presence, use or release of a Hazardous Substance
which adversely affects the value, of the Property. If Borrower learns, or is’ notified, by any
governmental, or regulatory authority, or any private party, that any removal or other
femediatipnjpf any Hazardous Substance affecting the Property is necessary, Borrower shall
promptly take all: necessary remedial actions in accordance with Environmental Law.
Nothing herein shall create any obligation on Lender for an Environmental Cleanup.
NON-UNiPORM COVENANTS. Borrower. and.iLender further covenant and agree as
follows:
|
[

i
• • i<

22. Acceleration; Remedies. Lender shat) give notice to Borrower prior to acceleration
following .Borrower's breach of any covenant or agreement In this Security Instrument (but
not prior, to I acceleration under Section 18 unless Applicable Law provides otherwise), The
notice shall! specify: (a) the default; (b) the action required to euro the default; (c). a date,
not less than 30 days from the date the notice 1b given to. Borrower, by which the default
must be cured; and (d) that failure to cure the default on or before the date specified in the
notice may result in acceleration of the sums secured by this Security instrument and sale
bf the Property. The notice shall further inform; Borrower of the right to reinstate after
acceleration! and the right to bring a court action to [assert the non-existence of a default or

.SGA15

ROV 10723/00

Page 15 o! 16

I

Initials*/ f/‘

FORM 3011

t

1/01
l

:
i

'r

^-87-

*

—• .

.

i

Case:3:jl9-cv-00001-TCB Document 1 Filed 01/03/19 Page 54 of 57

}

;

i
5

I

K

;
;

| any otfidr defense of Borrower to acceleration and sale. If the default is not cured on or
! before the date specified in the notice, Lender at its option may require immediate payment .
in toil of all sums secured by this Security instrument without further demand and may
invoke the power of sale granted by Borrower and any other remedies permitted by
| Applicable Law. Borrower appoints Lender the -agent and attorney-in-fact for Borrower to
5
exercise.; the power of sale. Lender shall be entitled to collect all expenses Incurred In
pursuing ttte remedies provided in this Section 22, Including, but not limited to, reasonable
j attorneys* fees and costs of title evidence.
If Lender invokes the power of sale, Lendershailgive a copy of a notice of sale by
i public advertisement for the time and in the manner prescribed by Applicable Law, Lender,
; without further demand on borrower, shall Sell the Property at public auction to the highest
; bidder at the time and place and under the terms designated in the notice of sale in one or
: more parcels and In any order Lender determines. Lender or Its designee may purchase the
: Property atj any sale.
'
,
!
Lender shall convey to the purchaser indefeasible title to the Property, and Borrower
hereby appoints Lender Borrower’s agent and attorney-in-fact to make such conveyance.
; The recitals In the Lender's deed shall be prima facia evidence ot the truth of the statements
i made therein. Borrower covenants and agrees that Lender shall apply the proceeds of the
: sale in thej following order: (a) to all expenses; of the sale, including, but not limited to,
i reasonable]attorneys' fees; (b) to all sums secured by this Security Instrument; and (cj any
| excess to the person or persons legally entitled to it The power and agency granted are
; coupled with an Interest, are Irrevocable by death or otherwise and are. cumulative to the
i remedies for collection of debt as provided by Applicable Law.
If the Property is sold pursuant to this Section: 22, Borrower, or any person holding
; possession j of the Property through Borrower, shall immediately surrender possession of the
I Property 'td the purchaser at the sale; if possession is not surrendered, Borrower or such
jperson shall be a tenant holding over and may be dispossessed in accordance with
Applicable Law.
'
'
- (

I

1

:

i

i

23. Release. Upon payment of all sums secured by this Security Instrument', Lender
; shall cancel this Security Instrument. Borrower shall pay any recordation costs. Lender
| may charge Borrower a fee for releasing this. Security Instrument, but only if the fee is paid
;to a third party for services rendered and the charging of the fee is permitted under
' Applicable Law. .
' j
24. Waiver of Homesteads, Borrower waives ;aII rights of homestead exemption in the
Property;: j .
^

:•
i

25. Assumption Not a Novation.‘Lender's .acceptance of an assumption of the
[obligations jof this Security Instrument and the Note, and any release of Borrower in
Connection [herewith, shall riot constitute a novation.

i

26. Security Deed. This conveyance is to be pontrued under the existing laws of
:of the State: of Georgia as a deed passing title; and not as a mortgage, and is intended to
Isecure the payment of all sums secured hereby.
' ' •

i

l

I
!

■

SSA16

Rov 10/23/00

Initial e

Pago 16 ol 16

!
!
i

:
;

i

88

7"

FORM 3011

1/01

i

Case 3:19-cv-00001-TCB Documentjl Filed 01/03/19. P^ge 55 of 57

I

:
i

:
:
;

I

t

BORROWER ACCEPTS AND AGREES to the terms' and covenants contained in
this Security instrument and. in any Rider executed, by Borrower and recorded with if..

:
!■

'

;

IN WITNESS WHEREOF, Borrower has signed and sealed this Security Instrument;. .
;

i
:

:

s

i

;

:

"

|

. TIMOTHY B. BRO

:

i

(Seal)
Borrower

:
i

'<

:

i

t

:
:
;

.

I

i

i
i

;
:
:

*
:
t
t

I •

;
:

I
!

i
I'
!

\

I

i
'

!

- ]

i

.i
i

!

::

:

i
;
. i

■ SGA17 ! f)av norm

Paga 17 0M6

'

Initials:;

FORM 3011

'1/01

:
:
:
i

':

89

!i
i
t

;

r\

Case 3:19-cv-O0OOl-TCB Document t Filed 01/03/19 Page 56 of 57
:

I

i
I

!
.:

}

|
:
STATE OF GEORGIA,

County 8s:

Signed,jsealed. and delivered in the presencelof:

!

!

i

I

i

!

i

i

/ja/

\
Nipafry Public.

j

■ s„r
i

£/j
Comity

Is of Georgia

-is®

i

/»# '

:

I
***■«•*' ,J

i

O

cou^\,a>x
I

!

:• !

I.
!

‘

!

I?

f

•■i

:

I

:
i

■

!

<i

i

i

i

I

l

:

!

’

/.
i

l

i

(

t
i

i •

•r

?

.1
i

SGA18

:
:•
:
;

Rev: 10/23/00

Pago la ot 18 .

FORM 3011

;
!
90

r

!

1/01

Case 3:jL9-cv-00001rTCB ' Document 1 Filed 01/03/19 Page 57 of 57

Doc ID*.
0OS63874OD01 Type! ASGN
Recorded: 04/29/2015 at os:i5:oo An
Tee Amt: $7.'00*Pape 1 of 1
Fayette,’ Qa, Clerk Superior Court
„„
• Sheila Stoddard Clerk of Court

;

, bk4308 p«644

i•

i

t
Recording Requested By: WELLS FARGO BANK. N.A.
When Recorded Return To: ASSIGNMENT TEAM. WELLS FARGO BANK. N.A. MAC: N9289-016 P0 BOX 1629,
EAGAN, MlSI 55121-4400 ,^|

\

CORPORATE ASSIGNMENT OF ^SECURITY DEED
Kayettol Georgia
“BROWN"
I
PREPARED BY: WELLS FARGO BANK, N.A.,

!

\

'

Date of Assignment: April 21st, 2015
Assignor: WELLS FARGO BANK, NA at 1 HOME CAMRUS.'DES MOINES, IA 50328
Assignee: U S. BANK NATIONAL.ASSOCIATION, AS TRUSTEE FOR MASTR ASSET BACKED SECURITIES
TRUST 200S-AB1, MORTGAGE PASS-THROUGH CERTIFICATES, SERIES 2006-AB1 at 60 LIVINGSTON '•
AVENUE. ST PAUL,'MN £5107 '- .
I
/

\

• Executed By: TIMOTHY.B. BROWN, SOLELY To: WELLS'FARGO BANK..N.A.
Date of.Security Deed; 09/16/2005 Recorded: 09/22/2005 in SooWRcel/Liber: 2853 Page/Fclio: 431 In the County
of Fayette, State of Georgia;.
I
Property Address:.165 MONTICELLO WAY, FAiRBURN, GA 30213

\

;

KNOW ALL MEN BY THESE PRESENTS, that tor good and valuable consideration, (he receipt and sufficiency of
which ii hereby acknowledged, the said Assignor hereby assigns unto the above-named Assignee, the said
Mortgage having ari original principal sum of 5389,500.00 with interest, secured thereby, and the full benefit of alt the
powers arid of all the covenants.and provisos therein contained, and tho.said Assignor.hereby grants and conveys
untothe said AssigrieiMhe Assignorisinterest underlhe Mortgage.
’
TO HAVE AND TO HOLD the said Mortgage, and the said property unto the said Assignee forever, subject to the
terms contained in said Mortgage.
: j
Vt/EUiS FARGO BANK, NA,
'OH'_■
I-

; i n
Vice President Loan Documentation

:

■

WITNESS

WIJNESS

■iHfiPt L. Jones!
STATEjOF Minnesota
COUNTY OF Dakota

■

/
f-S . hefore me., ,
•
_____ a Notary Public in the State cf Minnesota,On'
. personally appeared
oCOttLieraldHpi’irtrinc ■ ; .Vice President Loan Documentation, personally
known to me (or proved to me on the basis of satisfactory evidence) to be the persons) whose name(s) is/are,
subscribed'to the within instrument and acknowledged to me Hast he/she/they executed the same in his/her/their
aulhorized.capacity, and that by his/her/their signature on the instrument the person(s), or the entity upon behalf of
’ which the person(s) acted, executed the instrument.
. !

i

!

WITNESS my hand and official seal,

>M»^WVWV*VSVWVVWVWWW”

' i JessicaMGartng
Notary Expires: / £J'I
(This area for nolarial seal)
i ■

i

.n4SS'-WSSvJ^W(W21.-20l 5 03.20:23 PM’VVFehO?V^£MAbOCOOOOCOOOCOai322055* OAf AY£1*CA*irAT£_M0ftTiASSlGN_ASSN-*rSP2VVrEM*

i

!
i

i

91

Case 3:19-cv-00001-TCB Document 2 Filed 01/03/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
NEWNAN DIVISION

TIMOTHY B. BROWN,
Plaintiff,
CIVIL ACTION FILE
v.
NO. 3:19-cv-l-TCB
U.S. BANK NATIONAL
ASSOCIATION, et al.
Defendant.

ORDER
This case comes before the Court on Plaintiff Timothy B. Brown’s
pro se complaint [1]. This case involves claims similar to those in the
case Brown previously filed against Defendants U.S. Bank National
Association and Wells Fargo Bank, N.A., Civil Action File Number 3:17cv-44-TCB. The Court directs this case be referred to Magistrate Judge
Russell G. Vineyard pursuant to this Court’s Standing Order 18-01
because Brown alleges Defendants violated the Real Estate Settlement

92

Case 3:19-cv-00001-TCB Document 2 Filed 01/03/19 Page 2 of 2

Procedures Act, 12 U.S.C. § 2601, et seq. Judge Vineyard should also
determine whether this action is barred by res judicata.
IT IS SO ORDERED this 3rd day of January, 2019.

Timothy C. Batten, Sr.
United States District Judge

93

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 1 of 38

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
NEWNAN DIVISION
TIMOTHY B. BROWN,
Plaintiff,

CIVIL ACTION NO.

v.

3:19-cv-00001-TCB-RGV

U.S. BANK NATIONAL ASSOC, as
Trustee, Mastr Asset Backed Securities
Trust 2006-AB1, Mortgage Pass-Through
Certificates Series 2006-AB1, and
WELLS FARGO BANK, N.A.,
Defendants.
MAGISTRATE TUDGE'S FINAL REPORT AND RECOMMENDATION
Plaintiff Timothy B. Brown ("Brown"), proceeding pro se, brings this action
against defendants U.S. Bank National Association, as Trustee for MASTR Asset
Backed Securities Trust 2006-AB1, Mortgage Pass-Through Certificates Series 2006AB1 ("U.S. Bank") and Wells Fargo Bank, N.A. ("Wells Fargo"), jointly referred to
as "defendants," alleging claims of negligence, wrongful foreclosure, conversion,
and fraud. See [Doc. I].1 Defendants have moved to dismiss Brown's complaint,
[Doc. 6], which Brown opposes, see [Doc. 7], and defendants have filed a reply in
support of their motion, [Doc. 8]. The Honorable Timothy C. Batten, Sr., United
States District Judge, has referred this case to the undersigned to "determine

1 The listed document and page numbers in citations to the record refer to the
document and page numbers shown on the Adobe file reader linked to the Court's
electronic filing database, CM/ECF.

94

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 2 of 38

whether this action is barred by res judicata" since this case "involves claims similar
to those in the case Brown previously filed against [defendants [ ], Civil Action File
Number 3:17-cv-44-TCB."

[Doc. 2 at 1-2].

For the reasons that follow, it is

RECOMMENDED that Brown's complaint be DISMISSED as barred by res
judicata and, alternatively, that defendants' motion to dismiss, [Doc. 6], be
GRANTED.
I. FACTUAL AND PROCEDURAL BACKGROUND
This action concerns the real property located at 165 Monticello Way,
Fayetteville, Georgia ("the property"). See [Doc. 1 at 13 ^ 34,39-56].2 On September
16, 2005, Brown obtained a mortgage loan in the original principal amount of
$389,500.00 from Wells Fargo and used the proceeds of the loan to purchase the
property. [Id. at 13 ^ 34, 14

35, 39-56]. The transaction was secured by the

property pursuant to a security deed executed by Brown in favor of Wells Fargo,
and the deed was recorded at Deed Book 2863, Pages 431-450, in the real property
2 The factual background is taken from the pleadings and exhibits and does
not constitute findings of fact by the Court. Additionally, Brown attached several
documents to his complaint, see [Doc. 1], and the Court will consider these
documents since they are "central to the plaintiff's claim and the authenticity of the
documents] is not challenged," Adamson v. Poorter, No. 06-15941, 2007 WL
2900576, at *2 (11th Cir. Oct. 4,2007) (per curiam) (unpublished) (citations omitted);
see also Clark v. Bibb Ctv. Bd. of Educ., 174 F. Supp. 2d 1369,1370 (M.D. Ga. 2001)
(citation omitted) ("A court evaluating a motion to dismiss for failure to state a claim
upon which relief can be granted must focus its analysis on the face of the
complaint, but it may also consider any attachments to the complaint[.]").
2

95

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 3 of 38

records of Fayette County, Georgia. [Id. at 14 T| 35, 39], On April 21, 2015, Wells
Fargo assigned the security deed to U.S. Bank, as evidenced by the assignment
recorded on April 29, 2015, at Deed Book 4308, Page 644, of the Fayette County,
Georgia, real estate records. See [id. at 57].
At some point, Brown defaulted on his obligations under the mortgage loan,
and U.S. Bank commenced non-judicial foreclosure proceedings against the
property. See [id. at 17 ^ 44-45,18 ^ 47], On June 29, 2016, Brown filed his first
Chapter 13 bankruptcy action. See In re Brown. Bankruptcy Petition No. 16-11288WHD (Bankr. N.D. Ga. 2016). On August 2,2016, Brown's bankruptcy petition was
dismissed based on his failure to correct a filing deficiency, see id. at [Doc. 12], and
on September 26, 2016, he again filed for Chapter 13 bankruptcy relief, see In re
Brown, Bankruptcy Petition No. 16-11915-WHD (Bankr. N.D. Ga. 2016). However,
on October 12,2016, Brown's second bankruptcy action was dismissed for his failure
to pay the filing fee. See id. at [Doc. 12]. On December 2, 2016, Brown filed a third
petition for Chapter 13 bankruptcy relief, see In re Brown, Bankruptcy Petition No.
16-12409-WHD (Bankr. N.D. Ga. 2016); see also [Doc. 1 at 18 Tf 48], and on December
6, 2016, U.S. Bank purchased the property at a foreclosure sale, see [Doc. 1 at 19 ^[
51]. On February 13,2017, Brown's third bankruptcy action was dismissed pursuant
to 11 U.S.C. §§ 105(a) and 109(g), since he had "filed two [] other recent bankruptcy

3

96

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 4 of 38

cases" that had been dismissed. See In re Brown, Bankruptcy Petition No. 16-12409WHD, at [Doc. 10] ,3
The parties have a history of litigation related to the property. On March 30,
2017, Brown filed an action against defendants centered around his allegations
concerning the validity of the assignment at issue, whether defendants had the right
to foreclose on the property, and whether the December 2016 foreclosure sale
violated any automatic stay that should have been in place due to his bankruptcy
filing. See Brown v. U.S. Bank NatT Ass'n, Civil Action File No. 3:17-cv-00044-TCB,
at [Doc. 1] (N.D. Ga. Mar. 30, 2017). Based on these allegations, Brown asserted
claims for violations of the Fair Debt Collection Practices Act ("FDCPA"), 15 U.S.C.
§ 1692, et seq., and the Real Estate Settlement Procedures Act ("RESPA"), 12 U.S.C.
§ 2601 et seq., as well as state law claims for breach of contract, quiet title, and
wrongful foreclosure, and he sought an emergency temporary restraining order
("TRO"). Id. After defendants moved to dismiss Brown's complaint in its entirety,
see id. at [Doc. 5], the undersigned issued a Report and Recommendation,
recommending that Brown's claims against Wells Fargo be dismissed for failure to

3 Specifically, 11 U.S.C. § 109(g) provides that "no individual . . . may be a
debtor under this title who has been a debtor in a case pending under this title at any
time in the preceding 180 days if ... the case was dismissed by the court for willful
failure of the debtor to abide by orders of the court, or to appear before the court in
proper prosecution of the case[.]" 11 U.S.C. § 109(g)(1).
4

97

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 5 of 38

state any plausible claim and that U.S. Bank be dismissed without prejudice for
Brown's failure to properly serve it within the time allowed by Rule 4 of the Federal
Rules of Civil Procedure. See id. at [Doc. 7], Thereafter, Brown filed objections to
the Report and Recommendation, in which he also requested, among other things,
an opportunity to amend his complaint. IcL at [Doc. 9]. On February 13,2018, Judge
Batten issued an Order adopting the Report and Recommendation, and he dismissed
U.S. Bank for lack of service, dismissed Brown's claims against Wells Fargo under
the FDCPA, RESPA, and O.C.G. A. § 44-14-162, and denied his request for injunctive
relief, but granted Brown's request for leave to amend his complaint and ordered
him to file a motion and brief in support, along with a copy of the proposed
amended complaint, within seven days of that Order. Id. at [Doc. 11], Brown filed
the motion for leave to amend his complaint, id. at [Doc. 12], which was granted, see
id. at [Docs. 13 & 14].
In his amended complaint, Brown alleged that Wells Fargo, as the original
lender at the time of the loan transaction in September 2005, "monetized [his]
Note," the "effect" of which "was that it paid for the purchase of the [] [property."
Id. at [Doc. 14

11-13]. Based on this "monetizing of [his] Promissory Note,"

Brown asserted:
That my Note was paid in full can be seen also in the Security Deed
which I signed on September 26, 2005. Under the Section styled
5

98

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 6 of 38

"Transfer of Rights in the Property," appears the following: "Borrower
irrevocably grants and conveys to Trustee, in trust, . . ." and then the
document gives the legal description of the [] [property. The Security
Deed goes on to provide that "BORROWER COVENANTS that
borrower is lawfully seised of the estate hereby conveyed and has the
right to grant and convey the [property and that the [property is
unencumbered . .
How could I convey the property to the Trustee
except I owned the [] [property free and clear of any debt? Clearly, the
Security Deed shows that my Promissory Note paid off my mortgage
debt on the [] [property."
Id. at [Doc. 14 TfTf 12-13 (first and sixth alterations in original)]. Relying on this
premise, Brown asserted that Wells Fargo "committed fraud when it had [him] to
sign the Security Deed knowing that [his] debt had been paid in full on the []
[property" and that it "committed fraud when it represented that it had standing
to foreclose against the [] [property and it committed further fraud when it engaged
in a wrongful and void foreclosure sale." JcL at [Doc. 14 Tf 14].
Brown also alleged that his "mortgage debt was fully paid and discharged a
second time as evidenced by the Notice of Default Judgment dated March 27,2017,"
which "was duly served upon Defendant after it failed and refused to offer a
controverting affidavit to [his] Affidavit of Fact/Truth of Default Judgment dated
July 10,2017," and "served upon [] Wells Fargo after it failed and refused to respond
to [his] Notice of Debt Validation and Demand for Production of Documents dated
February 22, 2017." IcL at [Doc. 14 ^[^[ 17-18, 46-80]. Brown asserted that because
Wells Fargo failed to "rebut[] these documents or provide[] controverting
6

99

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 7 of 38

affidavits/' its "failure amount[ed] to [its] tacit agreement that [his] mortgage debt
[was] paid in full as a person of ordinary prudence under the same or similar
circumstances when presented the documents . . . would have taken action and
made their opposition known if they did in fact dispute the contents of those
documents and the facts stated in such documents"and that "[a] reasonable and
prudent business/legal person in the same or similar circumstances would have not
remained silent in the face of allegations that a debt of several hundred thousand
dollars had been paid in full." Id. at [Doc. 14 Tf 19],
Brown further alleged that he received a notice of foreclosure sale sometime
in September of 2016, and that he filed a Chapter 13 bankruptcy petition in
December of 2016, but that in "early January 2017," he was informed that the
property had been sold and that Wells Fargo was now the servicer of the mortgage
debt and he then discovered that U.S. Bank purchased the property. IcL at [Doc. 14
20-24]. Brown asserted that" [i]f a foreclosure sale took place on the [] [p]roperty
on December 6, 2016, said sale [was] in violation of the Automatic Stay which was
then in effect"; "took place without providing [him] the notices and remedies to
which [he was] entitled under the Note, the Security Deed, and Georgia law"; and
was "[wrongful because there [was] no mortgage debt outstanding against the []

[property[.]" IcL at [Doc. 14 ^[^[ 25-27].

7

100

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 8 of 38

Based on these allegations, Brown asserted a claim for breach of contract,
claiming that Wells Fargo breached paragraph 11 of the promissory note and
paragraph 22 of the security deed by "failing to give [him] notice of the acceleration
of [his] mortgage debt," "failing to give [him] 30 days in which to pay whatever
balance remained on [his] mortgage debt," and failing to provide him with a notice
of default, a notice of acceleration, a notice of his right to reinstate the loan after
acceleration, and notice of any foreclosure sale on his property. Id. at [Doc. 14 ]f
31A-B],

Brown further asserted that the security deed incorporated certain

regulations of the United States Department of Housing and Urban Development
("HUD") and that Wells Fargo breached those contractual provisions by failing "to
arrange a face-to-face meeting with [him] as a condition precedent to foreclosure."
Id. at [Doc. 14

31C].4 As a consequence of these failures, Brown maintained that

he "was deprived of [his] right of reinstatement of [his] mortgage debt and as a

4 Brown maintained that had Wells Fargo held "the required face-to-[f]ace
meeting, [he] would have been able to present [his] documents... and show... that
its failure to respond to those documents amounted] to an agreement that any
mortgage debt on [his] property [was] paid in full or [] Wells Fargo could have
shown [him] that [he] was wrong in which case [he] would have taken advantage
of [his] right to reinstate [his] mortgage loan by paying the arrearages or getting [his]
loan refinanced or taking advantage of government programs such as [the Home
Affordable Refinance Program] and [Home Affordable Modification Program
('HAMP')] for which [he was] qualified to apply and receive." Brown, Civil Action
File No. 3:17-cv-00044-TCB, at [Doc. 14 If 31C(5)].
8

101

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 9 of 38

further consequence . . . suffered the loss of [his] homesteadf.]" JcL at [Doc. 14 |
31B],
Brown also asserted a claim for wrongful foreclosure, alleging that the
"foreclosure sale of December 6,2016, if in fact such a Sale took place, was wrongful
and should be rescinded and set aside[.]" IcL at [Doc. 14

32B], Specifically, Brown

alleged that the "debt owed by [him] to [] Wells Fargo or . . . U.S. Bank ha[d] been
satisfied and fully discharged prior to the foreclosure sale as verified by the [Notice
of Default Judgment]," that Wells Fargo "breached its fiduciary duty to [him] in
conducting the Foreclosure sale in that it sold the property to an insider for an
inadequate price," that it "breached its fiduciary duty in conducting the Foreclosure
sale in the face of its failure to hold a face-to-face meeting with [him] when [his]
mortgage became three months in arrears and to hold another face-to-face meeting
with [him] at least 30 days before the foreclosure sale," that the "foreclosure sale
[was] wrongful in that it was conducted at a time when the courthouse and many
other government offices and businesses were closed due to inclement weather,"
thereby providing U.S. Bank "an advantage and causing] the foreclosure sale to
yield a greatly reduced sales price than what it would have generated had the
foreclosure sale been conducted in a fair and impartial reasonable manner," and that
the sale was "wrongful because [his] mortgage debt was paid in full and discharged

9

102

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 10 of 38

when [he] gave [] Wells Fargo [his] Promissory Note which it monetized." Id, at
[Doc. 141} 32B(l)-(5)]. After Wells Fargo filed a motion to dismiss Brown's amended
complaint, id. at [Doc. 16], the undersigned issued a Report and Recommendation,
recommending that Wells Fargo's motion to dismiss be granted and Brown's
amended complaint be dismissed, id. at [Doc. 18], which was adopted on December
3, 2018, id, at [Doc. 21],5
On January 3, 2019, Brown filed the instant action against defendants. [Doc.
1]. In this complaint, Brown again complains that Wells Fargo "monetized [his]
Note," the "effect" of which "was that it paid for the purchase of the [] [property."
[Id. at 14-15 TfTj 36-37]. Relying on this premise, Brown asserts that Wells Fargo
"committed fraud when it had [him] to sign the Security Deed knowing that his debt
had been paid in full on the [] [property" and that U.S. Bank "committed fraud
when it represented that it had standing to foreclose against the [] [property and it
committed further fraud when it engaged in a wrongful and void foreclosure sale."
[Id, at 15 If 39].
Brown alleges that in early 2016 he notified defendants that he wanted to
apply "for a loan modification under HAMP," but "[defendants responded by

5 Brown appealed the decision to the Eleventh Circuit Court of Appeals, but
the Eleventh Circuit dismissed the appeal on February 8, 2019. See Brown, Civil
Action File No. 3:17-cv-00044-TCB, at [Doc. 26].
10

103

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 11 of 38

telling [him] he was ineligible to apply for a loan modification until his mortgage
debt was at least 30 days past due/' so once "his mortgage debt was at least 30 days
past due, [he] reapplied for a loan modification." [IcL at 16-17 f ^[ 42-44]. After he
submitted his request, Brown maintains that he received from Wells Fargo a "Notice
of Foreclosure Sale scheduled for 90 days after the submission of his loan
modification request," and that he thereafter "had a face-to-face meeting with []
Wells Fargo at which he was led to believe [] his loan modification would be
approved," so he "took no further efforts to avail himself of any of his other
alternatives to foreclosure." [Id. at 17

45]. He contends that he subsequently

received notice that his "request for a loan modification had been denied." [Id. at
18 146],
Brown also alleges that he received a notice of foreclosure sale sometime in
September of 2016, and that he filed a Chapter 13 bankruptcy petition in December
of 2016, but that in "early January 2017," he was informed that the property had
been sold and that Wells Fargo was now the servicer of the mortgage debt and he
then discovered that U.S. Bank purchased the property at a foreclosure sale on
December 6, 2016. [JcL at 18-19

47-51], Brown asserts that if a foreclosure sale

took place on December 6, 2016, then the "sale [was] in violation of the Automatic
Stay which was then in effect"; "took place without providing [him] the notices and

11

104

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 12 of 38

remedies to which [he was] entitled under the Note, the Security Deed, and Georgia
law"; and was "wrongful because there [was] no mortgage debt outstanding against
the [] [p]roperty[.]" [Id. at 19 ^ 52-54], Brown then asserts claims for negligence,
wrongful foreclosure, conversion, and fraud, and he requests injunctive relief,
including a TRO. See generally [Doc. 1]. Defendants have filed a motion to dismiss
Brown's complaint in its entirety, [Doc. 6], which Brown opposes, [Doc. 7], and
defendants have filed a reply in support of their motion, [Doc. 8].
II. DISCUSSION
A.

Res Judicata
Although defendants have not raised the defense of res judicata in their

motion to dismiss, see [Doc. 6], Judge Batten referred the case to the undersigned to
determine whether this action is barred by res judicata since it involves claims
similar to those Brown previously brought in this Court,6 [Doc. 2 at 2]; see also

6 The Court uses the term res judicata in its traditional sense as a synonym for
claim preclusion, which "bars the re-litigation of claims that were raised or could
have been raised in a prior proceeding," McCullev v. Bank of Am., N.A., 605 F.
App'x 875,877 (11th Cir. 2015) (per curiam) (unpublished) (citing Lobo v. Celebrity
Cruises, Inc., 704 F.3d 882, 892 (11th Cir. 2013)), as distinguished from collateral
estoppel (or issue preclusion), which applies only to specific issues that were
actually litigated and necessarily decided in the prior action, see In re Morrow, 508
B.R. 514,522 (Bankr. N.D. Ga. 2014) (quoting Waldroup v. Greene Ctv. Hosp. Auth.,
463 S.E.2d 5,7 (Ga. 1995)) (noting that "collateral estoppel under Georgia law limits
the doctrine's applicability to 'those issues that necessarily had to be decided in
order for the previous judgment to have been rendered'").
12

105

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 13 of 38

Arizona v. California. 530 U.S. 392,412 (2000) (citation omitted) ("'[I]f a court is on
notice that it has previously decided the issue presented, the court may dismiss the
action sua sponte, even though the defense has not been raised" since res judicata "'is
not based solely on the defendant's interest in avoiding the burdens of twice
defending a suit, but is also based on the avoidance of unnecessary judicial waste'");
Cmtv. State Bank v. Strong. 651 F.3d 1241, 1261 n.17 (11th Cir. 2011) (citations
omitted) ("[Tjhis Court may consider the preclusive effect of a prior judgment sua
sponte.''); Shurick v. Boeing Co., 623 F.3d 1114,1116 n.2 (11th Cir. 2010) (per curiam)
(alterations in original) (citations omitted) ("Although Federal Rule of Civil
Procedure 8(c) classifies claim preclusion as an affirmative defense, '[dismissal by
the court sua sponte on res judicata grounds ... is permissible in the interest of
judicial economy where both actions were brought before the same court/"); Restivo
v. Bank of Am. NA. No. 3:18-CV-68 (CAR), 2019 WL1117910, at *3 n.17 (M.D. Ga.
Mar. 10,2019) (alterations in original) (citation omitted) ("Although BANA does not
raise the issue of res judicata as an affirmative defense, '[dismissal by the court sua
sponte on res judicata grounds... is permissible in the interest of judicial economy
where both actions were brought before the same court/"); Rumbough v. Comenitv
Capital Bank. Case No: 6:17-cv-956-Orl-18GJK, 2017 WL 10058564, at *4 (M.D. Fla.
Nov. 6, 2017) (citation omitted) ("'[Wjhen necessary, the court may raise the

13

106

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 14 of 38

question of claim or issue preclusion sua sponte.'"); Taylor v. Cochran, CIVIL
ACTION 16-0251-KD-M, 2016 WL 7472144, at *5 (S.D. Ala. Dec. 12, 2016), adopted
by 2016 WL 7469725, at *1 (S.D. Ala. Dec. 28, 2016) (citation omitted) (finding
plaintiff's claims were barred by res judicata despite the defendant's failure to raise
the issue since '" [dismissal by the court sua sponte on res judicata grounds ... is
permissible in the interest of judicial economy where both actions were brought
before the same court'"). Thus, the Court will first address whether Brown's
complaint is barred by res judicata.
Under the principle of res judicata, a final judgment on the merits in a civil
action operates to preclude parties or their privies from re-litigating in a subsequent
proceeding issues that were or could have been raised in the original action.
Federated Dep't Stores, Inc, v. Moitie, 452 U.S. 394, 398 (1981) (citations omitted).
"Whether in federal or state courts, 'res judicata ... relieve[s] parties of the cost and
vexation of multiple lawsuits, conserve[s] judicial resources, and, by preventing
inconsistent decisions, encourage[s] reliance on adjudication.'" Davis v. U.S. Steel
Supply, 688 F.2d 166,174 (3d Cir. 1982) (enbanc) (citations omitted) (quoting Allen
v. McCurrv, 449 U.S. 90, 94 (1980)). "The doctrine of res judicata is one of finality,
providing that a final judgment rendered by a court of competent jurisdiction on the
merits is conclusive as to the rights and responsibilities of the parties and their

14

107

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 15 of 38

privies." Baptiste v. Comm'r of Internal Revenue. 29 F.3d 1533,1539 (11th Cir. 1994).
"As to the parties to the prior proceeding and their privies, res judicata constitutes
an absolute bar to a subsequent judicial proceeding involving the same cause of
action." IcL (citations omitted).
For res judicata to apply, four elements must exist: (1) a final judgment on the
merits; (2) rendered by a court of competent jurisdiction; (3) identical parties (or •
their privies) in both actions, and (4) the same cause of action at issue in both cases.
In re Piper Aircraft Corp., 244 F.3d 1289,1296 (11th Cir. 2001) (citations omitted): see
also Echeverria v. Bank of Am., N.A.. 632 F. App'x 1006,1008 (11th Cir. 2015) (per
curiam) (citation omitted); Clark v. Comm'r of Internal Revenue, No. CV409-058,
2009 WL1363411, at *2 (S.D. Ga. Mar. 30,2009), adopted by 2009 WL1034785, at *1
(S.D. Ga. Apr. 16,2009) (citations omitted). "Generally both the party invoking res
judicata and the party against whom it is invoked must have been represented in the
prior action for res judicata to apply."

Vereen v. Everett, Civil Action No.

1:08-CV-1969-RWS, 2009 WL 901007, at *3 (N.D. Ga. Mar. 31, 2009) (internal marks
omitted) (quoting Akin v. PAFEC Ltd.. 991 F.2d 1550,1559 (11th Cir. 1993)).
All of the elements of res judicata are satisfied in this case, as Brown
previously brought an action premised on the same allegations against the same two
defendants, and that cause of action was definitively adjudicated on the merits by

15

108

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 16 of 38

a court of competent jurisdiction. See Brown, Civil Action File No. 3:17-cv-00044TCB. First, the order dismissing Brown's prior action against Wells Fargo for failure
to state a claim was indisputably a final adjudication on the merits by a court of
competent jurisdiction. See Kaspar Wire Works, Inc, v. Leco Eng'g & Mach., Inc.,
575 F.2d 530,534 (5th Cir. 1978)7 (citations omitted) ("It is clear that a stipulation of
dismissal with prejudice, or, for that matter, a dismissal with prejudice at any stage
of a judicial proceeding, normally constitutes a final judgment on the merits which
bars a later suit on the same cause of action."); Reynolds v. TPMorgan Chase Bank,
N.A., Civil Action No. 5:13-CV-440 (MTT), 2014 WL132248, at *3 (M.D. Ga. Jan. 14,
2014) (first and third alterations in original) (citations and internal marks omitted)
(explaining that "[t]he phrases 'with prejudice' and 'on the merits' are synonymous
terms," and that" [i]t is clear that [a] dismissal with prejudice operates as a judgment
on the merits unless the court specifies otherwise"); Tohnson v. Bank of Am., N.A.,
Civil Action No. 5:12-CV-85(MTT), 2012 WL 1903907, at *2 (M.D. Ga. May 25,2012)
(citation omitted) (finding "that the U.S. District Court for the Northern District of
Georgia was a court of competent jurisdiction"); Thomas v. BAC Home Loans
Servicing. LP. CIVIL ACTION FILE NO. 1:11-CV-03719-AT-GGB, 2012 WL 13012806,

7 Decisions of the Fifth Circuit rendered before October 1,1981, are binding
precedent in the Eleventh Circuit. Bonner v. City of Prichard, 661 F.2d 1206,1209
(11th Cir. 1981) (en banc).
16

109

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 17 of 38

at *5 (N.D. Ga. May 23,2012), adopted by 2012 WL13013624, at *1 (N.D. Ga. July 9,
2012) (citations omitted) ("As a general proposition, dismissal of a complaint for
failure to state a claim operates as an adjudication on the merits for res judicata
purposes, even where the dismissal order does not specify whether such dismissal
was with prejudice or without prejudice.").
Moreover, defendants, or their privies, were parties in the prior action. Wells
Fargo was a party to the prior action, and although U.S. Bank was not served with
process in the prior action, see Brown, Civil Action File No. 3:17-cv-00044-TCB, at
[Doc. 11], and "thus w[as] not [a] 'part[y]' for res judicata purposes," Williams v.
Owens, No. 2:13-CV-432-MEF-TFM, 2014 WL 5112053, at *3 n.6 (M.D. Ala. Aug. 19,
2014), adopted by 2014 WL 5112051, at *1 (M.D. Ala. Sept. 24, 2014) (citation
omitted), "the doctrine of res judicata may [] operate against an unserved defendant
to the first action" if "the unserved defendant was in privity with a party to the first
action," Davis v. Davis, 551 F. App'x 991, 996 (11th Cir. 2014) (per curiam)
(unpublished) (citations omitted). "'Privity' describes a relationship between one
who is a party of record and a nonparty that is sufficiently close so a judgment for
or against the party should bind or protect the nonparty." Hart v. Yamaha-Parts
Distribs., Inc., 787 F.2d 1468, 1472 (11th Cir. 1986) (citations omitted); see also
Cordner v. Specialized Loan Servicing, LLC, CIVIL ACTION FILE NO.

17

110

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 18 of 38

1:15-CV-2090-TWT-JFK, 2016 WL 3675557, at *13 (N.D. Ga. June 7, 2016), adopted
by 2016 WL 3634722, at *1 (N.D. Ga. July 7, 2016) (citations and internal marks
omitted) ("A privy is one who is represented at trial and who is in law so connected
with a party to the judgment as to have such an identity of interest that the party to
the judgment represented the same legal right."). "Privity is a flexible legal term,
comprising several different types of relationships and generally applying when a
person, although not a party, has his interests adequately represented by someone
with the same interests who is a party." Cordner, 2016 WL 3675557, at *13 (citation
and internal marks omitted).
"Courts acknowledge that privity exists between preceding and succeeding
owners of property," and "[similarly, assignees and servicing agents of a loan are
in privity with an original mortgage company." Ernest v. CitiMortgage, Inc., No.
SA:13-CV-802-DAE, 2014 WL 294544, at *4 (W.D. Tex. Jan. 22, 2014) (citations
omitted); see also Axiom Worldwide, Inc, v. Excite Med. Corp.. 591F. App'x 767,772
(11th Cir. 2014) (unpublished) (emphasis, citations, and internal marks omitted)
("[Njonparty preclusion may be justified based on a variety of pre-existing
substantive legal relationships between the person to be bound and a party to the
judgment," which "include, but are not limited to, preceding and succeeding owners
of property, bailee and bailor, and assignee and assignor[.]"); Bailey v. Deutsche

18
m

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 19 of 38

Bank Tr. Co. Ams.. No. 3:13-CV-00001 (CAR), 2013 WL 820411, at *2-3 (M.D. Ga.
Mar. 5, 2013); Crooked Creek Props., Inc, v. Enslev, No. 2:08-CV-1002-WKW[WO],
2009 WL 3644835, at *16 (M.D. Ala. Oct. 28,2009), affd. 380 F. App'x 914 (11th Cir.
2010) (per curiam) (unpublished). Here, Wells Fargo assigned the security deed to
U.S. Bank, see [Doc. 1 at 57], and thus, the Court finds that privity exists between
Wells Fargo and U.S. Bank "such that the requisite identity of the parties element is
satisfied," Cordner, 2016 WL 3675557, at *13; see also Bouldin v. Mortg. Elec.
Registration Svs., Inc.. CIVIL ACTION FILE NO. l:14-cv-03214-TCB-RGV, 2015 WL
11517084, at *7 (N.D. Ga. Feb. 5,2015), adopted by 2015 WL 11622462, at *1 (N.D. Ga.
Feb. 23, 2015) (first and third alterations in original) (citation and internal marks
omitted) (finding "MERS, as the original beneficiary under the [security deed] and
assignor, share[d] sufficient interest with [the assignee] to establish privity").
With regard to the fourth element, identical claims and legal theories are not
required for res judicata to apply. Rather, "'[i]f a case arises out of the same nucleus
of operative fact, or is based upon the same factual predicate, as a former action,.
. . the two cases are really the same 'claim' or 'cause of action' for purposes of res
judicata.'" Milburn v. Aegis Wholesale Corp.. Civil Action No. 1:12-CV-1886-RWS,
2013 WL 1747915, at *4 (N.D. Ga. Apr. 22, 2013) (second alteration in original)
(quoting Citibank, N.A. v. Data Lease Fin. Corp.. 904 F.2d 1498, 1503 (11th Cir.

19

112

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 20 of 38

1990)); see also Home Depot U.S.A., Inc, v. U.S. Fire Ins. Co.. 299 F. App'x 892, 896
(11th Cir. 2008) (per curiam) (unpublished). The instant action clearly constitutes
the same cause of action as Brown's previous action since the earlier action was
based on the same core nucleus of operative fact and raised some of the same claims
and allegations as those presented in this action. Consequently, the fourth and final

8 Moreover, the addition of new claims in the current complaint that were not
asserted in the prior action is of no moment because " [r]es judicata applies not only
to the precise legal theory presented in the previous litigation, but to all legal
theories and claims arising out of the same operative nucleus of fact," Draper v.
Atlanta Indep. Sch. Svs., 377 F. App'x 937, 939 (11th Cir. 2010) (unpublished)
(citations and internal marks omitted), and it therefore "bars the filing of claims
which were raised or could have been raised in an earlier proceeding," Ragsdale v.
Rubbermaid. Inc.. 193 F.3d 1235, 1238 (11th Cir. 1999) (emphasis added) (citation
omitted); see also Aning v. Fed. Nat'l Mortg. Ass'n, 754 F. App'x 816,820 (11th Cir.
2018) (per curiam) (unpublished) (citations omitted) (finding that plaintiffs could not
"create a new cause of action by asserting a new theory of recovery" and that the
distinction between "fil[ing] a motion for an injunction and not a complaint" was
not relevant "for res judicata purposes," since the two "arise from the same core
facts," and "two claims are identical when they are based on the same allegations
of misconduct, and the underlying allegation of misconduct in both cases is the
defendants' improper foreclosure of the... property"); Manning v. City of Auburn,
953 F.2d 1355,1358 (11th Cir. 1992) (citation omitted) (explaining that res judicata
"bars relitigation of matters that were litigated or could have been litigated in [the]
earlier suit."); Gjellum v. City of Birmingham, 829 F.2d 1056,1059-60 (11th Cir. 1987)
(citation and internal marks omitted) (" [W]hen a court of competent jurisdiction has
entered a final judgment on the merits of a cause of action, the parties . . . are
thereafter bound not only as to every matter which was offered and received to
sustain or defeat the claim . . . but as to any other admissible matter which might
have been offered for that purpose."); Neely v. City of Riverdale, 681 S.E.2d 677,679
(Ga. Ct. App. 2009) ("The doctrine [of res judicata] applies even if some new factual
allegations have been made[ or] some new relief has been requested .... It is only
where the merits were not and could not have been determined under a proper
presentation and management of the case that res judicata is not a viable defense.");
20

113

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 21 of 38

element of res judicata is satisfied, and Brown's complaint is due to be dismissed as
barred by res judicata. See Vereen, 2009 WL 901007, at *3 (finding claims barred by
res judicata where "a comparison of the allegations in the [earlier and later
complaints] . . . show[s] that all of the previous litigation arises from the same
nucleus of operative facts."); see also Milburn, 2013 WL 1747915, at *4 (applying res
judicata where "[i]n both cases, Plaintiff challenged [the] authority to foreclose on
the property," and where "[t]he same Property, Note, Security Deed, and
Assignment [were] at issue in both suits"). Accordingly, it is RECOMMENDED
that Brown's complaint be DISMISSED WITH PREJUDICE as barred by res
judicata.

Franklin v. Gwinnett Ctv. Pub. Sch., 407 S.E.2d 78, 83 (Ga. Ct. App. 1991),
superseded by statute on other grounds as stated in, One Bluff Drive, LLC v. K.A.P.,
Inc., 766 S.E.2d 508, 513 (Ga. Ct. App. 2014) (citation omitted) (citing Spence v.
Erwin, 38 S.E.2d 394, 396-97 (Ga. 1946)) (defining a cause of action "as 'all the facts
which together constitute the plaintiff's right to maintain the action,"' and
explaining that, "when a subsequent action arises from the same wrong as a prior
action and is based on essentially the same facts, the subsequent action should be
barred by res judicata").
9 Alternatively, and to the extent Brown's complaint includes any claims that
are not barred by res judicata, the Court will address defendants' arguments for
dismissal of all of Brown's claims.
21

114

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 22 of 38

B.

Defendants7 Motion to Dismiss, [Doc. 6]
1.

Legal Standard

Federal Rule of Civil Procedure 12(b)(6) authorizes dismissal of an action
when the complaint fails to state a claim upon which relief can be granted. Fed. R.
Civ. P. 12(b)(6). In considering a motion to dismiss, the court must accept Brown's
allegations as true and construe the complaint in his favor. Hishon v. King &
Spalding, 467 U.S. 69, 73 (1984); Duke v. Cleland. 5 F.3d 1399,1402 (11th Cir. 1993)
(citation omitted).10 "While a complaint attacked by a Rule 12(b)(6) motion to
dismiss does not need detailed factual allegations, [Brown's] obligation to provide
the grounds of his entitle [ment] to relief requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause of action will not do." Bell Atl.
Corp. v. Twomblv, 550 U.S. 544,555 (2007) (last alteration in original) (citations and
internal marks omitted).

10 //

However, the court need not 'accept as true a legal conclusion couched as
a factual allegation.'" Smith v. Delta Air Lines, Inc., 422 F. Supp. 2d 1310,1324 (N.D.
Ga. 2006) (quoting Papasan v. Allain, 478 U.S. 265, 286 (1986)). "Additionally,
'[cjonclusory allegations and unwarranted deductions of fact are not admitted as
true, especially when such conclusions are contradicted by facts disclosed by a
document appended to the complaint. If the appended document... reveals facts
which foreclose recovery as a matter of law, dismissal is appropriate.'" IcL
(alterations in original) (footnote omitted) (quoting Associated Builders, Inc, v. AlaPower Co., 505 F.2d 97,100 (5th Cir. 1974)).
22

115

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 23 of 38

Furthermore, "Rule 8(a)(2) of the Federal Rules of Civil Procedure requires
that a pleading contain 'a short and plain statement of the claim showing that the
pleader is entitled to relief/" Broner v. Wash. Mut. Bank, FA. 258 F. App'x 254,256
(11th Cir. 2007) (per curiam) (unpublished) (quotingFed. R. Civ. P. 8(a)(2)). "Factual
allegations must be enough to raise a right to relief above the speculative level,"
Twomblv, 550 U.S. at 555 (footnote and citation omitted), as the complaint must
contain "enough facts to state a claim to relief that is plausible on its face," id. at 570.
"A claim has facial plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendants] [are] liable for the
misconduct alleged." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Twomblv,
550 U.S. at 556).
The Supreme Court in Iqbal held:
Two working principles underlie our decision in Twombly. First, the
tenet that a court must accept as true all of the allegations contained in
a complaint is inapplicable to legal conclusions. Threadbare recitals of
the elements of a cause of action, supported by mere conclusory
statements, do not suffice. . . . Rule 8 marks a notable and generous
departure from the hypertechnical, code-pleading regime of a prior era,
but it does not unlock the doors of discovery for a plaintiff armed with
nothing more than conclusions. Second, only a complaint that states a
plausible claim for relief survives a motion to dismiss.... [W]here the
well-pleaded facts do not permit the court to infer more than the mere
possibility of misconduct, the complaint has alleged-but it has not
"show[n]"-"that the pleader is entitled to relief." 1

23

116

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 24 of 38

Id. at 678-79 (last alteration in original) (citations omitted). Thus, "[t]o state a
plausible claim for relief, [Brown] must go beyond merely pleading the 'sheer
possibility' of unlawful activity by [defendants] and so must offer 'factual content
that allows the court to draw the reasonable inference that [defendants] [are] liable
for the misconduct alleged.'" Stabb v. GMAC Mortg., LLC, 579 F. App'x 706, 708
(11th Cir. 2014) (per curiam) (unpublished) (citation omitted). "Regardless of the
alleged facts, however, a court may dismiss a complaint on a dispositive issue of
law." Moore v. McCalla Ravmer, LLC. 916 F. Supp. 2d 1332,1342 (N.D. Ga. 2013),
adopted at 1336 (citations and internal marks omitted).
Finally, although pro se pleadings are governed by less stringent standards
than pleadings prepared by attorneys, see Haines v. Kerner, 404 U.S. 519,520 (1972);
Tannenbaum v. United States, 148 F.3d 1262, 1263 (11th Cir. 1998) (per curiam)
(citation omitted), pro se parties are still required to comply with minimum pleading
standards set forth in the Federal Rules of Civil Procedure and this District's Local
Rules, Grew v. Hopper, No. 2:07-cv-550-FtM-34SPC, 2008 WL 114915, at *2 (M.D.
Fla. Jan. 9,2008) (citations omitted); see also Beckwith v. BellSouth Telecomms., Inc.,
146 F. App'x 368,371 (11th Cir. 2005) (per curiam) (unpublished) (citation omitted)
(noting that although they are construed liberally, "pro se complaints also must
comply with the procedural rules that govern pleadings"); Lindsay v. Bank of Am.

24

117

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 25 of 38

Home Loans. CIVIL ACTION NO. l:15-CV-2074-ELR-LTW, 2016 WL 4546654, at *4
(N.D. Ga. Feb. 1, 2016) (citation omitted).
2.

Analysis

Brown asserts claims of negligence, wrongful foreclosure, conversion, and
fraud, and he requests injunctive relief. See [Doc. 1]. Defendants move to dismiss
Brown's complaint in its entirety for failure to state a claim upon which relief can be
granted. See [Doc. 6]. The Court will address the merits of each of the claims
asserted in Brown's complaint.
a.

Negligence

Brown asserts a claim for negligence against Wells Fargo, arguing that it "had
a duty to implement HAMP and to approve [his] application for a loan modification
because [he] met the eligibility requirements for a loan modification under HAMP."
[Doc. 1 at 21

58B].11 Although Brown's negligence "claim[ is] couched in terms of

state law, [it] depend [s] entirely on [Well Fargo's] alleged violations of federal law,"
as "the basis of [Brown's]... negligence claim[] is that [Wells Fargo] violated several
provisions of HAMP and failed to properly apply the HAMP guidelines." Williams

11 Brown claims that defendants have not moved to dismiss his cause of action
for negligence against U.S. Bank, see [Doc. 7 at 6], but as defendants point out,
"[n]one of the allegations in the 'negligence' section of the [c]omplaint are directed
at U.S. Bank," and thus, Brown "did not assert a negligence claim against U.S.
Bank." [Doc. 8 at 2 n.l]. The Court agrees and will only address the negligence claim
alleged in the complaint, which is asserted only against Wells Fargo.
25

118

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 26 of 38

v. Wells Fargo Bank. N.A.. CIVIL ACTION NO. l:12-cv-0390-JEC, 2012 WL
13014956, at *2 (N.D. Ga. Sept. 18, 2012) (citations omitted). Defendants argue that
Brown fails to state a negligence claim against Wells Fargo based on alleged HAMP
violations because Brown "does not have [a] private right of action against Wells
Fargo premised on alleged HAMP violations, irrespective of how he captions or
couches the claim." [Doc. 6 at 6-7 (citations omitted)].12 The Court agrees.
"[T]he HAMP statute cannot serve as the basis for a negligence claim."
Moragon v. Ocwen Loan Servicing, LLC. Case No: 6:17-cv-2028-Orl-40KRS, 2018 WL
3761036, at *7 (M.D. Fla. June 22,2018), adopted by 2018 WL 3758310, at *1 (M.D. Fla.
July 12, 2018).

"HAMP was established in conjunction with [the Emergency

Economic Stabilization Act of 2008 ('EESA')], as part of an effort to preserve home
ownership and promote jobs and growth during the economic crisis of 2008."
Williams, 2012 WL 13014956, at *2 (citing 12 U.S.C. § 5201 (2)(B)). "To that end,
HAMP was designed to prevent avoidable foreclosures by 'incentivizing loan

12 Brown argues that defendants have mischaracterized his negligence claim
because his "claim in negligence is premised on the common law of the State of
Georgia and NOT HAMP." [Doc. 7 at 6]. However, as defendants point out in their
reply, Brown's negligence claim "plainly identifies three [] duties allegedly owed by
Wells Fargo all of which purportedly arise from HAMP[.]" [Doc. 8 at 2 (footnote
omitted)]. The Court agrees with defendants that there "is no way to read [Brown's
c]omplaint other than that he is trying to assert a negligence claim against Wells
Fargo premised on duties purportedly owed to him under HAMP" and, as
discussed hereinafter, those "alleged duties simply cannot serve as the basis for a
negligence claim[.]" [Id. at 3],
26

119

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 27 of 38

servicers to reduce the required monthly mortgage payments for certain struggling
homeowners.'" IcL (quoting Miller v. Chase Home Fin., LLC, 677 F.3d 1113,1116
(11th Cir. 2012) (per curiam)). "Neither HAMP nor EESA expressly creates a private
right of action for homeowners against loan servicers." Id. (citation omitted). "In
Miller, the Eleventh Circuit likewise concluded that it was 'clear that no implied
right of action exists' under either provision," explaining that "1) EESA and HAMP
were not passed for the 'especial benefit' of struggling homeowners, but rather to
restore liquidity and stability to the American financial system, (2) there is no
discernible legislative intent to create a private right of action in either EESA or
HAMP and providing such a right would likely chill participation in the program,
and (3) contract and property law are traditionally the domain of state as opposed
to federal law." IcL (citation omitted). "Applying Miller, [Brown] cannot state a
plausible claim for relief based on [Wells Fargo's] alleged HAMP violations,
regardless of whether the claim is couched in terms of negligencef.]" IcL (citation
omitted); see also Moragon, 2018 WL 3761036, at *7 ("Although the Miller case did
not involve negligence claims, its rationale clearly mandates that [plaintiff's
negligence and negligent processing claims are barred insofar as they are premised
on [defendant's alleged violation of the HAMP guidelines.").13 Accordingly, it is

13 Brown argues that "reliance on Miller is misplaced" because "Miller was
briefed and decided before the 2012 changes to HAMP took effect on June 1,2012,"
27

120

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 28 of 38

RECOMMENDED that defendants' motion to dismiss Brown's negligence claim
asserted against Wells Fargo be GRANTED.
b.

Wrongful Foreclosure

Brown next asserts a claim for wrongful foreclosure.

See [Doc. 1].

Specifically, he claims that the foreclosure was wrongful for the following reasons:
(1) the debt owed to defendants had been satisfied prior to the foreclosure since
Wells Fargo "monetized" the promissory note; (2) Wells Fargo breached its duty to
him by wrongfully denying his application for a loan modification under HAMP;
(3) U.S. Bank breached its duty to him in conducting the foreclosure sale without

and "the Miller Court did not involve a cause of action for negligence[.]" [Doc. 7 at
9-11]. However, as defendants point out, Brown "cites no authority that any
changes to HAMP in 2012 provide him with a private right of action," and "the
Williams and Moragon cases decided in September 2012 and June 2018, respectively,
. . . state [] that negligence claims premised on HAMP are barred by the rule
discussed in the Miller case." [Doc. 8 at 4 (footnote omitted)]. Brown attempts to
distinguish Williams and Moragon and argues that they are not "reported"
decisions. See [Doc. 7 at 12-13], While these cases are unreported district court
opinions, the Court finds them persuasive and rejects Brown's arguments. See S.
Farms Ltd, v. Am. Farmland Inv'rs Corp., No. 6:06-cv-309-Orl-22DAB, 2006 WL
2038532, at *2 & n.3 (M.D. Fla. July 19,2006) (finding unreported district court cases
were "persuasive"). Brown also argues that there is an exception to the Miller case
"where the plaintiff pleads promissory estoppel." [Doc. 7 at 13-14 (citations
omitted)]. "[Brown], however, raises this promissory estoppel claim for the first
time in his [r]esponse; nowhere does [he] assert in his [c]omplaint that he [is]
entitled to relief under HAMP on the basis of promissory estoppel." Rule v. Chase
Home Fin. LLC. No. 3:11-CV-146 CAR, 2012 WL 1833394, at *4 (M.D. Ga. May 18,
2012). Brown "may not supplant allegations made in his [c]omplaint with new
allegations raised in a response to a motion to dismiss." IcL (citations omitted).
28

121

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 29 of 38

having a face-to-face meeting as required by 24 C.F.R. §§ 203.604(b) and 203.606(a)
and the security deed; (4) U.S. Bank breached its duty to conduct the foreclosure sale
in good faith since the foreclosure sale was conducted at a time when the courthouse
and other government offices were closed due to inclement weather, which caused
the "sale to yield a greatly reduced sales price"; and (5) U.S. Bank lacked standing
to conduct a foreclosure sale because it had no interest in the property. [Id. at 26-30
If 59B1-11],
To establish a claim for wrongful foreclosure, Brown must show "(1) a legal
duty owed to [him] by the foreclosing party, (2) breach of that duty, (3) causal
connection between the breach of that duty and the injury sustained, and (4)
damages." McGinnis v. Am. Home Mortg. Servicing, Inc., No. 5:ll-CV-284 (CAR),
2012 WL 426022, at *3 (M.D. Ga. Feb. 9, 2012) (citation omitted). First, Brown has
"failed to allege a causal connection between any breach and the damages he
allegedly sustained." Fitzpatrick v. Bank of N.Y. Mellon. CIVIL ACTION NO. 1:13CV-1496-RWS-ECS, 2013 WL 12097456, at *4 (N.D. Ga. Nov. 12, 2013), adopted by
2013 WL 12108621, at *1 (N.D. Ga. Dec. 3, 2013), affd. 580 F. App'x 690 (11th Cir.
2014) (per curiam) (unpublished) (citations omitted). Indeed," [i]n order to show the
injury was caused by the breach of duty and not [his] own acts or omission, [Brown]
must not be in default on [his] mortgage." Harden v. TP Morgan Chase Bank, N.A.,

29

122

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 30 of 38

Civil Action No. l:13-CV-03535-RWS, 2014 WL 836013, at *3 (N.D. Ga. Mar. 4,2014)
(citation omitted). The complaint does "not allege[] that [Brown] has made [all of
his] mortgage payments" or that he "tendered any amount owed under the loan."
Silvestar v. Nationstar Mortg. LLC. CIVIL ACTION FILE NO. l:15-cv-4246-RWSJKL, 2016 WL 5339736, at *4 (N.D. Ga. July 12,2016), adopted by 2016 WL 5660348,
at *1 (N.D. Ga. Aug. 25,20161: see also Chester v. Bank of Am.. CIVIL ACTION FILE
NO. 1:14-CV-00027-JEC-GGB, Civil Action File No. 13CV02791,2014 WL 12117966,
at *6-7 (N.D. Ga. May 7, 2014), adopted by 2014 WL 12284023, at *1 (N.D. Ga. Aug.
28, 2014) (citations omitted).
In addition, as to Brown's allegation that his debt had been satisfied,
defendants argue that his claim is nonsensical and meritless. [Doc. 6 at 7-8]. In his
response brief, Brown "hereby dismisses] voluntarily any claim based on the
monetization of [his] Note and/or the claim that his mortgage is paid in full[.]"
[Doc. 7 at 15]. Thus, defendants' motion to dismiss Brown's wrongful foreclosure
claim on this basis is due to be granted as unopposed. With regard to his claim that
the foreclosure was wrongful because Wells Fargo denied his application for a loan
modification under HAMP, despite Brown's claim to the contrary, [Doc. 7 at 16], his
"wrongful foreclosure claim is nothing more than a disguised HAMP claim, and
fails to state a cause of action independent of HAMP," Shofner v. CitiMortgage, Inc..

30

123

Case 3:19-cv-00001-TCB Document 10 Filed 01122119 Page 31 of 38

CIVIL ACTION FILE NO. 4:ll-CV-0254-HLM, 2011 WL 13229645, at *8 (N.D. Ga.
Dec. 12,2011). His "wrongful foreclosure claim [based on HAMP] therefore is due
to be dismissed." Id.14
As for Brown's remaining contentions regarding his wrongful foreclosure
claim, defendants argue that U.S. Bank did not breach any duties as the cited federal
regulations relate to mortgages insured by HUD, that U.S. Bank had standing to
foreclose, and that U.S. Bank did not breach any duty by conducting the foreclosure
sale on December 6, 2016. [Doc. 6 at 9-11]. As defendants point out in their reply,
Brown "does not address the[se] other grounds for dismissal of the wrongful

14 Brown claims that courts "have allowed wrongful foreclosure actions to
proceed when HAMP is involved" and cites Rule, 2012 WL 1833394, "where the
[c]ourt found that Rule's claims of promissory estoppel and lack of pre-foreclosure
notice could proceed." [Doc. 7 at 16-17 (internal marks omitted)]. However, similar
to the plaintiff in Rule, Brown raises his claim of promissory estoppel for the first
time in response to defendants' argument that his claim for wrongful foreclosure
based on any purported HAMP violation fails, and as previously discussed, this
claim is not properly before the Court and will not be considered. See Rule, 2012
WL 1833394, at *4. And, while the court in Rule did recognize that a "bank's failure
to provide proper notice is a breach of the duty to fairly exercise the power of sale
and may support a claim for wrongful foreclosure," id. (citation omitted), this does
not support his claim that he can proceed on his wrongful foreclosure claim based
on alleged HAMP violations, and he does not base his wrongful foreclosure claim
on lack of proper notice, see [Doc. 1 at 26-30 Tf 59B1-11], Brown also cites Williams
v. Wells Fargo Bank, N.A., Civil Action No. l:12-cv-0752-JEC, 2013 WL 1189500
(N.D. Ga. Mar. 21,2013), asserting that it "cannot be contested that [he has] set forth
a sufficient cause of action for wrongful foreclosure," [Doc. 7 at 16], but the court
in Williams found that plaintiff failed to state a claim for wrongful foreclosure, 2013
WL 1189500, at *3. Thus, Brown's reliance on Rule and Williams is misplaced.
31

124

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 32 of 38

foreclosure claim raised in the [m]otion[ to dismiss]." [Doc. 8 at 8]. "[I]n this
district, failure to respond to arguments relating to a claim in the plaintiffs initial
response to the motion constitutes abandonment of the claim." Moreno v. Turner,
CIVIL ACTION NO. 1:13-CV-01518-RLV-JCF, 2013 WL 12095213, at *3 (N.D. Ga.
Dec. 19,2013), adopted by 2014 WL 12527483, at *1 (N.D. Ga. Jan. 31,2014), aff d on
other grounds, 572 F. App'x 852 (11th Cir. 2014) (per curiam) (unpublished) (citation
and internal marks omitted). "This principle applies ... to justify dismissal of
[Brown's] claim[] on the ground[] that [it has] been abandoned." White v. GA Dep't
of Motor Vehicle Safety. Civil Action No. 1:06-CV-0124-TWT, 2006 WL 1466254, at
*1 (N.D. Ga. May 19, 2006), adopted at *1.15 Accordingly, it is RECOMMENDED
15 Even if Brown had not abandoned these arguments as to his wrongful
foreclosure claim, this claim would still be subject to dismissal. First, "Brown's
wrongful foreclosure claim cannot be premised on [U.S. Bank's] purported failure
to comply with HUD regulations since those regulations were not incorporated,
either explicitly or implicitly, in the security deed." Brown v. Wells Fargo Bank,
N.A.. CIVIL ACTION NO. 3:17-cv-00044-TCB-RGV, 2018 WL 6694897, at *10 (N.D.
Ga. Oct. 11, 2018), adopted by 2018 WL 6694921, at *5 (N.D. Ga. Dec. 3, 2018). In
addition, his argument that U.S. Bank lacked standing to foreclose is meritless. In
Georgia, "the holder of a deed to secure debt is authorized to exercise the power of
sale in accordance with the terms of the deed even if it does not also hold the note
or otherwise have any beneficial interest in the debt obligation underlying the
deed."
DeWeese v. TPMorgan Chase Bank, N.A., Civil Action No.
2:13-CV-00059-RWS, 2013 WL 6178546, at *5 (N.D. Ga. Nov. 25, 2013) (citing You
v. TP Morgan Chase Bank, N.A., 743 S.E.2d 428, 433 (Ga. 2013)). Here, it is
undisputed that Brown executed a valid security deed that conveyed the property
to Wells Fargo, with power of sale. See [Doc. 1 at 39-56]. Since Wells Fargo
subsequently assigned its rights under the security deed to U.S. Bank, which was
properly filed in the Office of the Clerk of the Superior Court of Fayette County, see
32

125

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 33 of 38

that defendants' motion to dismiss Brown's claim for wrongful foreclosure be
GRANTED for all the reasons discussed.

[id. at 57], it follows that U.S. Bank is entitled to exercise the power of sale under the
terms of the security deed. In other words, because U.S. Bank holds the security
deed to the property, it "possesses full authority to exercise the power of sale upon
. . .default, regardless of [whether it is the "secured creditor" or "real party in
interest"] with respect to the note," You, 743 S.E.2d at 433; see also Smith v. Saxon
Mortg., 446 F. App'x 239,240 (11th Cir. 2011) (per curiam) (unpublished), summarily
aff'g. Civil Action No. l:09-cv-3375-WCO, at [Doc. 31 at 3-6] (N.D. Ga. Mar. 16,
2011). Furthermore, "Brown appears to allege a claim for wrongful foreclosure
based on 'chilling the bid' given his allegations regarding an inadequate price and
conducting the sale at a time when offices and businesses were closed due to
inclement weather, thereby reducing the number of people present to bid." Brown,
2018 WL 6694897, at *10; see also [Doc. 1 at 27-28 ^ 59B6]. "A claim of 'chilling the
bidding' arises from evidence that the foreclosing party's conduct (perhaps in
combination with the conduct of others) suppressed the bidding at a foreclosure
sale." LSREF2 Baron, LLC v. Alexander SRP Apartments, LLC, 17 F. Supp. 3d 1289,
1311 (N.D. Ga. 2014) (citation omitted). "To prevail on a wrongful foreclosure claim
premised on alleged bid-chilling, the debtor must prove (1) a grossly inadequate
price and (2) conduct that amounts to fraud, mistake, misapprehension, surprise or
similar behavior." Id. (citations omitted). Brown "has not alleged any facts
indicating that the property was sold at foreclosure for an inadequate price, much
less a price that was grossly inadequate," and he therefore "has not averred facts
that would entitle [him] to recover damages under the theory that [U.S. Bank] failed
to exercise the power of sale fairly and in good faith, because []he has not pleaded
that the property was sold at foreclosure for a grossly inadequate price." Casamavor
v. BAC Home Loans Servicing. LP, CIVIL ACTION NO. l:12-cv-1522-SCJ-ECS, 2013
WL 12247700, at *10-11 (N.D. Ga. Feb. 4,2013), adopted by 2013 WL 12247837, at *4
(N.D. Ga. Feb. 25,2013) (citations omitted). Moreover, "[inadequacy of price alone
is insufficient to sustain a claim for wrongful foreclosure," LSREF2 Baron, 17 F.
Supp. 3d at 1311 (citations omitted), and Brown has not alleged facts that otherwise
plausibly support the elements of a wrongful foreclosure bid-chilling claim.
33

126

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 34 of 38

c.

Conversion

Brown also asserts a claim for conversion against defendants, again relying
on HAMP violations, which he contends "interfered with [his] right to possess and
control the [] [property." [Doc. 1 at 30 ^ 60B]. Defendants argue that this claim
should be dismissed because Brown fails to allege the essential elements of
conversion. [Doc. 6 at 12]. Brown "did not address his conversion claim in his
[Response," [Doc. 8 at 9], and thus, defendants' motion to dismiss this claim could
be granted on this basis alone, see White, 2006 WL1466254, at *1. Nevertheless, the
Court will briefly address Brown's conversion claim.
First, to the extent Brown's claim is based entirely on defendants' alleged
failure to comply with HAMP, it is due to be dismissed. See Shofner, 2011 WL
13229645, at *8 (citations omitted) ("The majority of courts that have addressed this
issue have concluded that a plaintiff may not pursue a state law cause of action that
seeks to do nothing more than enforce HAMP, or that is not sufficiently independent
of HAMP."). Moreover, Brown does not allege a plausible claim for conversion as
he has not pled that either defendant is in actual possession of the property, see
Porter v. Ocwen Loan Servicing, Civil Action No. l:16-CV-04759-RWS-JCF, 2017 WL
8186845, at *3 (N.D. Ga. Apr. 24,2017), adopted by 2017 WL 8186800, at *1 (N.D. Ga.
July 7,2017) (citation omitted) ("To allege a plausible claim for conversion, a plaintiff

34

127

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 35 of 38

must show '(1) title to the property or the right of possession, (2) actual possession
in the other party, (3) demand for return of the property, and (4) refusal by the other
party to return the property/"); see also Kin Chun Chung v. TPMorgan Chase Bank,
N.A., 975 F. Supp. 2d 1333, 1347 (N.D. Ga. 2013) (citation omitted) ("Further
precluding recovery [on plaintiffs conversion claim], the [pjlaintiff does not even
allege that Chase still possesses any of these items."), and it appears from the
complaint and his response that he is in possession of the property, see [Doc. 1 at 3435 Tf 62 (requesting TRO to prevent eviction); Doc. 7 at 18 (noting that the state court
has stayed the dispossessory proceedings pending the outcome of this case)]. Lastly,
Brown "cannot state a claim for conversion because the property [d]efendant[s]
allegedly converted is [his] home, and under Georgia law, conversion does not
apply to real property." Porter, 2017 WL 8186845, at * 3 (alterations, citation, and
internal marks omitted); see also Kin Chun Chung, 975 F. Supp. 2d at 1347 (citation
omitted) ("Conversion does not apply to real property.").

Accordingly, it is

RECOMMENDED that defendants' motion to dismiss Brown's conversion claim
be GRANTED.
d.

Fraud

Brown's complaint contains a count entitled "Georgia Consume Fraud Act"
and cites O.C.G.A. § 51-6-1 thererin. [Doc. 1 at 31-34 ^[ 61]. Defendants interpret this

35

128

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 36 of 38

cause of action as an attempt to assert a claim for fraud and argue that Brown fails
to allege his claim with particularity as required by Federal Rule of Civil Procedure
9(b) when asserting a claim for fraud. [Doc. 6 at 12-14]. Brown appears to concede
defendants' argument, [Doc. 7 at 17], and defendants' motion to dismiss Brown's
fraud claim is due to be granted as unopposed.
Brown asks "the Court for leave to amend [his c]omplaint to plead [his] claim
for fraud with more particularity." [Id.]. Brown's request is due to be denied
because "[fjiling a motion is the proper method to request leave to amend a
complaint." Long v. Satz, 181 F.3d 1275,1279 (11th Cir. 1999) (per curiam). Rule
7(b) of the Federal Rules of Civil Procedure provides that a "request for a court order
must be made by motion," which must "(A) be in writing unless made during a
hearing or trial; (B) state with particularity the grounds for seeking the order; and
(C) state the relief sought." Fed. R. Civ. P. 7(b)(1). Since Brown's request for leave
to file an amended complaint was included in his memorandum in opposition to
defendants' motion to dismiss, not in a separate motion, and he has failed to include
a proposed amended complaint or a description of the substance of any proposed
amendments that would support a plausible claim, his request is due to be denied.
Dunkerlev v. Estes, Civil Action No. 13-00331-CB-M, 2014 WL 3063563, at *2 (S.D.
Ala. July 7,2014); see also Long, 181 F.3d at 1279; Meeks v. Equifax Info. Servs., LLC,

36

129

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 37 of 38

CIVIL ACTION FILE NO. L18-CV-03666-TWT-WEJ, 2019 WL1856411, at *7 (N.D.
Ga. Mar. 4, 2019), adopted by 2019 WL 1856412, at *1 (N.D. Ga. Apr. 23, 2019)
(citations omitted) (noting that "plaintiff never filed a motion for leave to amend
setting forth the substance of the proposed amendment or attaching a copy of a
proposed second amended complaint" and thus finding that the request to amend
was "legally insufficient and should be denied").
"Additionally, courts need not grant an opportunity to amend when
amendment would be futile, and it is well settled that amendment is futile where an
action is barred by res judicata." Givenchy v. Countrywide Home Loans, Inc., CIVIL
ACTION NO. l:18-cv-02180-SCJ-RGV, 2018 WL 6829074, at *7 (N.D. Ga. Nov. 21,
2018), adopted by 2018 WL 6829057, at *1 (N.D. Ga. Dec. 13, 2018) (citations
omitted). "Thus, even if [Brown] had followed the proper procedures in requesting
leave to amend, his requested amendment would have been futile because, as the
foregoing discussion demonstrates, his claims are barred by res judicata." Id.
Accordingly, Brown's request to amend his complaint is DENIED.
e.

Injunctive Relief

Finally, Brown requested in his complaint injunctive relief, including a TRO,
to prohibit defendants continuing with eviction proceedings. [Doc. 1 at 34-35

62],

Defendants moved to dismiss this claim, [Doc. 6 at 14-15], and in his response brief,

37

130

Case 3:19-cv-00001-TCB Document 10 Filed 07/22/19 Page 38 of 38

Brown voluntarily dismisses his request for injunctive relief as the state court has
stayed the dispossessory proceedings pending the outcome of this case, [Doc. 7 at
18]. Accordingly, it is RECOMMENDED that defendants' motion to dismiss
Brown's claim for injunctive relief be GRANTED as unopposed.16
III. CONCLUSION
For the foregoing reasons, it is RECOMMENDED that this case be
DISMISSED WITH PREJUDICE as barred by res judicata and, alternatively, that
defendants' motion to dismiss, [Doc. 6], be GRANTED.
The Clerk is DIRECTED to terminate this referral.
IT IS SO RECOMMENDED this 22nd day of July, 2019.
MjUa,
'RUSSELL G. VINEYARL0T
UNITED STATES MAGISTRATE JUDGE

16 Brown references 12 U.S.C. § 2605(f) and 12 C.F.R. § 1024.41(a) in the section
of his complaint pertaining to jurisdiction. See [Doc. 1 at 10 If 23]. However, he has
not asserted any claims under RESPA or alleged that either defendant violated
RESPA, nor has he included any factual allegations that would support such a claim.
Thus, to the extent Brown intended to assert a claim pursuant to RESPA, this claim
also is due to be dismissed. See Watkins v. Beneficial, HSBC Mortg., Civil Action
No. 1:10-CV-1999-TWT~RGV, 2010 WL 4318898, at *3 (N.D. Ga. Sept. 2, 2010),
adopted by 2010 WL 4312878, at *1 (N.D. Ga. Oct. 21, 2010) (citations omitted)
(finding plaintiff's "vague references to alleged RESPA violations" without
"sufficient facts to support his RESPA claims" failed to state a claim against
defendant under RESPA).
38

131

Case 3:19-cv-00001-TCB Document 14 Filed 08/19/19 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
NEWNAN DIVISION

TIMOTHY B. BROWN,
Plaintiff,
CIVIL ACTION FILE
v.
NO. 3:19-cv-l-TCB
U.S. BANK NATIONAL ASSOC,
and WELLS FARGO BANK, N.A.,
Defendants.

ORDER
This case comes before the Court on Magistrate Judge Russell G.
Vineyard’s report and recommendation (the “R&R”) [10], which
recommends dismissing this case with prejudice as barred by res
judicata and, alternatively, granting Defendants’ motion [6] to dismiss.
Plaintiff Timothy Brown has filed objections [13].
A district judge has a duty to conduct a “careful and complete”
review of a magistrate judge’s R&R. Williams v. Wainwright, 681 F.2d
732, 732 (11th Cir. 1982) (per curiam) (quoting Nettles v. Wainwright,

132

Case 3:19-cv-00001-TCB Document 14 Filed 08/19/19 Page 2 of 6

677 F.2d 404, 408 (5th Cir. Unit B 1982)). This review may take
different forms, however, depending on whether there are objections to
the R&R. The district judge must “make a de novo determination of
those portions of the [R&R] to which objection is made.” 28 U.S.C.
§ 636(b)(1)(C). In contrast, those portions of the R&R to which no
objection is made need only be reviewed for “clear error.” Macort v.
Prem, Inc., 208 F. App’x 781, 784 (11th Cir. 2006) (per curiam) (quoting
Diamond v. Colonial Life & Accident Ins., 416 F.3d 310, 315 (4th Cir.
2005)).1
“Parties filing objections must specifically identify those findings
objected to. Frivolous, conclusive or general objections need not be
considered by the district court.” Nettles, 677 F.2d at 410 n.8. “This rule

l

Macort dealt only with the standard of review to be applied to a magistrate’s
factual findings, but the Supreme Court has indicated that there is no reason for
the district court to apply a different standard to a magistrate’s legal conclusions.
Thomas v. Am, 474 U.S. 140, 150 (1985). Thus, district courts in this circuit have
routinely reviewed both legal and factual conclusions for clear error. See Tauber v.
Barnhart, 438 F. Supp. 2d 1366, 1373-74 (N.D. Ga. 2006) (collecting cases). This is
to be contrasted with the standard of review on appeal, which distinguishes
between the two. See Monroe v. Thigpen, 932 F.2d 1437, 1440 (11th Cir. 1991)
(holding that when a magistrate’s findings of fact are adopted by the district court
without objection, they are reviewed on appeal under a “plain error standard” while
questions of law always remain subject to de novo review).

133

Case 3:19-cv-00001-TCB Document 14 Filed 08/19/19 Page 3 of 6

facilitates the opportunity for district judges to spend more time on
matters actually contested and produces a result compatible with the
purposes of the Magistrates Act.” Id. at 410.
After conducting a complete and careful review of the R&R, the
district judge “may accept, reject, or modify” the magistrate judge’s
findings and recommendations. 28 U.S.C. § 636(b)(1)(C); Williams, 681
F.2d at 732. The district judge “may also receive further evidence or
recommit the matter to the magistrate judge with instructions.” 28
U.S.C. § 636(b)(1)(C).
Brown objects to the R&R’s findings that (1) the action is barred
by res judicata, (2) any negligence claim premised on the Home
Affordable Modification Program (“HAMP”) is barred, and (3) he should
not be allowed to re-plead his fraud claim. The Court addresses each of
these objections in turn.
Brown first objects to the R&R’s finding that his complaint is
barred by res judicata. Brown asserts that at the time he filed his
previous lawsuit, he was unaware of the causes of action that form the
basis of his current lawsuit.

134

Case 3:19-cv-00001-TCB Document 14 Filed 08/19/19 Page 4 of 6

On March 30, 2017, Brown filed, his first lawsuit alleging claims
for violations of the Fair Debt Collection Practices Act (“FDCPA”), 15
U.S.C. § 1692, et seq. and the Real Estate Settlement Procedures Act
(“RESPA”), 12 U.S.C. § 2602 et seq., along with myriad state-law
claims. In that case, the Court dismissed claims against Defendant
Wells Fargo for failure to state a claim and against Defendant U.S.
Bank for failure to effect service of process.
Brown then filed an amended complaint alleging claims for fraud,
breach of contract, and wrongful foreclosure. Again, this Court
dismissed the claims against Wells Fargo.
On January 3, 2019, Brown filed the present action. He brings
claims against U.S. Bank and Wells Fargo for negligence, wrongful
foreclosure, conversion, and violation of the Georgia Consumer Fraud
Act.
Though Brown argues that he had a new factual basis for the
claims in this action, the Court disagrees. The doctrine of res judicata
bars the filing of claims that were raised or could have been raised in an
earlier proceeding. Ragsdale v. Rubbermaid, 193 F.3d 1235, 1238 (11th

135

Case 3:19-cv-00001-TCB Document 14 Filed 08/19/19 Page 5 of 6

Cir. 1999). All elements of res judicata are satisfied; though Brown may
assert new factual allegations, his previous and present lawsuit arise
from the same operative nucleus of facts. Brown’s objection is overruled.
Next, Brown objects to the R&R’s finding that his negligence claim
is preempted by HAMP. He argues that HAMP imposed a duty upon
Defendants to treat him a certain way and that they breached that
duty. Thus, Brown asserts, he seeks redress under a negligence theory
because duty is an element of a negligence claim.
The law is clear that HAMP cannot serve as the basis for a
negligence claim, Moragon v. Ocwen Loan Servicing, LLC, No. 6:17-cv2028-Orl-40KRS, 2018 WL 3761036, at *7 (M.D. Fla. June 22, 2018),
and Brown’s objection is overruled.
Finally, Brown objects to the R&R’s finding that he should not be
allowed to amend his fraud claim because the claim is not barred by res
judicata.
As a preliminary matter, Brown filed his request to file an
amended complaint as part of his response to Defendants’ motion to
dismiss and not as a separate motion. Accordingly, because Brown did

136

Case 3:19-cv-00001-TCB Document 14 Filed 08/19/19 Page 6 of 6

not file a motion for leave to file an amended complaint, his request to
file an amended complaint should be denied. More important, Brown’s
amendment would be futile. Brown attempted to plead fraud in his
amended complaint in the prior action and the claim was dismissed;
therefore, the claim is barred by res judicata.
Having conducted a complete and careful review of the R&R,
including a de novo review of those portions of the R&R to which Brown
objects to, the Court overrules Brown’s objections [12] and adopts as its
order the R&R [10]. Brown’s case is dismissed. The Clerk is directed to
close this case.
IT IS SO ORDERED this 19th day of August, 2019.

t II;

Timothy C. Batten, Sr.
United States District Judge

137

Case 3:19-cv-00001-TCB Document 15 Filed 08/19/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
NEWNAN DIVISION

TIMOTHY B. BROWN,
Plaintiff,

CIVIL ACTION FILE

vs.

NO. 3:19-cv-OOO01 -TCB

U.S. BANK NATIONAL ASSOC, and
WELLS FARGO BANK, N.A.,
Defendant.

JUDGMENT
This action having come before the court, Honorable Timothy C. Batten, Sr., United
States District Judge, for consideration of defendant’s motion to dismiss, and the court having
granted said motion, it is
Ordered and Adjudged that the action be, and the same hereby is, dismissed.
Dated at Newnan, Georgia, this 19th day of August, 2019.
JAMES N. HATTEN
CLERK OF COURT

By:
Prepared, Filed, and Entered
in the Clerk’s Office
August 19, 2019
James N. Hatten
Clerk of Court
By: s/Uzma S. Wiggins
Deputy Clerk

138

si Uzma S. Wiggins________
Uzma S. Wiggins, Deputy Clerk

Case 3:19-cv-00001-TCB Document 16 Filed 08/30/19 Page 1 of 7
FH.ED !N CLERK’S OFFIf:
^ U.S.D.C.-AIIania

Timothy B. Brown
C/O 165 Monticello Way
Fayetteville, GA
Zip code exempt [30214]
Without the United States Corporation
770-827-6458
PLAINTIFF Pro Per/Sui Juris

F4 AUG 3 0 2019
By;JAMES N' HATTEN, cterk

" ' k^-^__--Pepuly Clent

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
NEWNAN DIVISION
TIMOTHY B. BROWN,
Plaintiff
CASE NUMBER: 3:19-cv-00001-TCBRGV

vs.

U.S. BANK NATIONAL ASSOC., AS
TRUSTEE, MASTR ASSET BACKED
SECURITIES TRUST 2006-AB1,
PLAINTIFF’S MOTION FOR NEW
MORTGAGE PASS-THROUGH
TRIAL AND MEMORANDUM OF
CERTIFICATES SERIES 2006-AB1,
LAW IN SUPPORT
AND WELLS FARGO BANK, N.A.,
ORAL ARGUMENT NOT
REQUESTED
Defendants

TO THE HONORABLE JUDGE OF SAID COURT:
Comes now Timothy B. Brown, hereinafter referred to as “Plaintiff,”
proceeding hereafter as Sui Juris, and files this my Motion for New Trial and

l
139

Case 3:19-cv-00001-TCB Document 16 Filed 08/30/19 Page 2 of 7

Memorandum of Law in Support requesting the Court to reconsider and to set
aside its Opinion and Judgment dismissing my case entered on August 19, 2019.
I.

RULE 59 STANDARD

A motion for new trial may be granted “after a nonjury trial, for any
reason for which a rehearing has heretofore been granted in a suit in equity in
federal court or District of Columbia courts,” Fed. R. Civ. P. 59(a)(1)(B). Further,
it is within “the sound discretion of the trial court”, to grant a motion for new trial
for any reason which will “prevent a miscarriage of justice." Roy v. Volkswagen of
America, 896 F.2d 1174, 1176 (9th Cir. 1990) (<citing Hanson v. Shell Oil Co, 541
F.2d 1352, 1359 (9th Cir. 1976)). Appellate courts “review the district court's
denial of a motion for new trial for abuse of discretion.” Steger v. General Elec.
Co., 318 F.3d 1066, 1081 (11th Cir. 2003).
II.

IT IS A MISCARRIAGE OF JUSTICE FOR THE COURT TO
GRANT DEFENDANTS’ MOTION TO DISMISS MY CAUSE OF
ACTION FOR NEGLIGENCE
The Court accepted the Magistrate Judge’s recommendation that my

negligence cause of action be dismissed for failure to state a claim because such an
action is preempted by HAMP. The Court cited a single case, Moragon v. Ocwen
Loan Servicing, LLC, No. 6:17-cv-2028-Orl-40KRS, 2018 WL 3761036, at *7
(M.D. Fla. June 22, 2018), to support its ruling. I do not have access to WestLaw
and could not locate this case anywhere else. In addition, I cannot find a single
2
140

Case 3:19-cv-00001-TCB Document 16 Filed 08/30/19 Page 3 of 7

case in the 11th Cir. Which cites Moragon. However, I did find some cases which
reach a different conclusion that does Moragon.
In the leading federal appellate decision on this issue, the United States
Court of Appeals for the Seventh Circuit rejected Wells Fargo’s contention that the
absence of a private federal remedy under HAMP displaced the plaintiffs’ statelaw claims. Wigod v. Wells Fargo Bank, N.A., 673 F.3d 547, 581 (7th Cir. 2012).
There, the plaintiff alleged that Wells Fargo had issued her a “trial” loan
modification under which it agreed to permanently modify the loan if she qualified
under HAMP guidelines. The plaintiff alleged that although she did qualify, Wells
Fargo refused to grant her a permanent modification after it miscalculated her
property taxes. The district court dismissed the complaint in its entirety, reasoning
that the plaintiffs state-law claims were premised on Wells Fargo’s obligations
under HAMP, which did not confer a private right of action. Id. at 555-59. In
reversing the dismissal, Wigod concluded that “[t]he absence of a private right of
action from a federal statute provides no reason to dismiss a claim under a state
law just because it refers to or incorporates some element of the federal law.” Id. at
581.
Other districts throughout the country have similarly found that the FIAMP
will not obviate a cause of action purely because the cause of action is in some
manner related to the HAMP. See Vida v. OneWest Bank, F.S.B., 2010 WL
3
141

Case 3:19-cv-00001-TCB Document 16 Filed 08/30/19 Page 4 of 7

5148473 (D. Or. Dec. 13, 2010) (finding that defendants were not necessarily
immunized for their conduct even though the alleged transaction was associated
with the HAMP); Darcy v. CitiFinancial, Inc., 2011 WL 3758805, at *4 (W.D.
Mich. Aug. 25, 2011) (holding that plaintiffs contract action "[was] not preempted
or otherwise precluded by HAMP"); see also Corvello v. Wells Fargo Bank, NA,
728 F.3d 878, 884 (9th Cir. 2013).1 See also Givens v. Saxon Mortg. Servs., Inc.,
CIVIL ACTION NO. 13-00245-KD-N (S.D. Ala. May. 30, 2014) where the
district court allowed a claim for fraudulent inducement into a HAMP modification
to go forward.
The 11th Cir., after restating its rule in Miller, found that promissory estoppel
and negligent misrepresentation related to HAMP were not barred under Miller,
although the Appeals Court affirmed a grant of summary judgment on lack of
evidence grounds, Bloch v. Wells Fargo Home Mortg., 755 F.3d 886 (1 1th Cir.
2014). My negligence claims are much more detailed and reliable than the scintilla
of evidence offered by the Blochs. I ask the Court to look particularly at
paragraphs K, L, M, P, and Q of my negligence cause of action. In addition, I
should be allowed to amend my complaint and add promissory estoppel instead of
fraud for the misrepresentation of Wells Fargo who told me that I needed to let my

1 Cited in Ferrerr v. U.S. Bank, N.A., Case No. 14-CIV-20741-BLOOM/Valle
(S.D. Fla. Sep. 15,2014).
4
142

Case 3:19-cv-00001-TCB Document 16 Filed 08/30/19 Page 5 of 7

mortgage get three months behind before I could qualify for a loan modification
a statement Wells Fargo knew was false and which it knew that I would rely upon
it to my detriment which is just what happened. This inability thus far to hold
Wells Fargo and others liable for their misdeeds is just the kind of miscarriage of
justice Rule 59 seeks to rectify. “Otherwise, it would be impossible to give any
meaning to the concept of "miscarriage of justice.

11 >5

U.S. v. Wall, 389 F.3d 457,

466 (5th Cir. 2004).
Although U.S. v. Wall is a criminal appeal, the miscarriage of justice
standard applies to civil cases as well, Cline v. Wal-Mart Stores, Incorporated, 144
F.3d 294, 306-7 (4th Cir. 1998).
III.

CONCLUSION

The housing crisis continues driven in large part by the misconduct, and
in some instances, fraudulent conduct of many of the financial institutions involved
in the housing market. Few consumers, myself included, have the resources or
power to redress wrongful foreclosures except by resort to courts which are
supposed to be the guardians of justice. However, sometimes, courts fail to see
clearly because of the smokescreen generated by those who see numbers rather
than people. Such is the case here. Miller has been given too narrow an
interpretation and too much of a far-reaching application. I have shown that the
11th Cir. Which rendered the Miller decision, has stated clearly that Miller does not
5
143

Case 3:19-cv-00001-TCB Document 16 Filed 08/30/19 Page 6 of 7

bar all state law claims premised in some respect on HAMP. I have shown also that
many district court cases in the 1 llh Cir. discuss HAMP related cases without any
discussion of Miller.
I was wronged by the misconduct of the defendants in this case and that
misconduct caused me to become delinquent in my mortgage payments even
though I was not delinquent in those payments when I contacted defendants for
assistance. It is a miscarriage of justice to deny me an opportunity to be heard and
to hold the defendants accountable for their misconduct. I ask the Court to
reconsider its dismissal of my case and to grant me a new trial.
%

Respectfully submitted this

day of August 2019.

Timothy Bix’Hvn
C/O 165 Monticello Way
Fayetteville, GA
Zip code exempt [30214]
Without the United States Corporation
770-827-6458
PLAINTIFF Pro Per/Sui Juris
CERTIFICATE OF
SERVICE
I hereby certify that on Augustj29f2019,1 mailed postage
prepaid, certified mail, return receipt requested, a copy of the above and
foregoing PLAINTIFF’S MOTION FOR NEW TRIAL AND
MEMORANDUM OF LAW IN SUPPORT
6
144

Case 3:19-cv-00001-TCB Document 16 Filed 08/30/19 Page 7 of 7

to the following attorneys of record for Defendants at the addresses indicated
below:
Daniel P. Moore
Baker, Donelson, et al
Monarch Plaza, Suite 1600
3414 Peachtree Rd., N.E.
Atlanta, GA 30326
Arthur A. Ebbs, Esq.
WOMBLE BOND DICKINSON (US), LLP
271 17 St. NW, Suite 2400
Atlanta, GA 30363

Timothy B %rown
CERTIFICATION AS TO FONT
Pursuant to N.D. Ga. Local Rule 7.1 D, I hereby certify that this document
is submitted in Times New Roman 14-point type as required by N.D. Ga. Local
Rule 5.1(b).
Timothy B.^rown

7
145

Case 3:19-cv-00001-TCB Document 22 Filed 09/24/19 PageBJlcEB IN CLERK’S OFFICE
U.S.D.C.-Atlanta

fe SEP 2 h 2019
JAMES N. HATTEN, Clark
UNITED STATES COURT OF APPEALS
By:
Deputy Cleri
FOR THE Q£\jyM CIRCUIT
Form 1. Notice of Appeal from a Judgment or Order of a
United States District Court

Name of U.S. District Court:
U.S. District Court case number:

Northern District of Georgia
3:19-cv-00001-TCB-RGV

Date case was first filed in U.S. District Court:

01/23/2019

Date of judgment or order you are appealing:

08/19/2019

Fee paid for appeal? (appealfees are paid at the U.S. District Court)

© Yes

O No

O IFP was granted by U.S. District Court

List all Appellants (List each party filing the appeal. Do not use "et al. " or other abbreviations.)

Timothy B. Brown

Is this a cross-appeal? C Yes

® No

If Yes, what is the first appeal case number?
Was there a previous appeal in this case?

O Yes

©No

If Yes, what is the prior appeal case number?
Your mailing address:
165 Monticello Way

City: Fayetteville

State: GA

Zip Code: 30214

Prisoner Inmate or A Number (if applicable):
Signature

Date Sep 24, 2019

Complete andfile with }he attached representation statement in the U.S. District Court
Feedback or questions about this form? Email us at formsta).ca9. uscourts. gov

Form 1

Rev. 12/01/2018

Case 3:19-cv-00001-TCB Document 22 Filed 09/24/19 Page 2 of 3

UNITED STATES COURT OF APPEALS
FOR THE EEKWCIRCUIT
Form 6. Representation Statement
Instructions for this form: http://www.ca9.iiscourts.gov/forms/fonn06instnictions.pdf
Appellant(s) (List each party filing the appeal, do not use “et al. ” or other abbreviations.)
Name(s) of party/parties:___________________________________________
Timothy B. Brown

Name(s) of counsel (if any):
None.

Address: 165 Monticello Way, Fayetteville, GA 30214
Telephone number(s): 770-827-6458
Email(s): brownt@nmobgyn.com
Is counsel registered for Electronic Filing in the 9th Circuit?

O Yes

<•> No

Appellee(s) (List only the names ofparties and counsel who will oppose you on appeal. List
separately represented parties separately.)
Name(s) of party/parties:____________________________________________
Wells Fargo Bank, N.A.
U.S. BANK NATIONAL ASSOC, AS TRUSTEE, MASTR ASSET BACKED
SECURITIES TRUST 2006-AB1, MORTGAGE PASS-THROUGH CERTIFICA
Name(s) of counsel (if any):_________________________
Dylan W. Howard
Daniel Patrick Moore
Baker, Donelson, Bearman, Caldwell & Berkowitz, PC- Atl
Address: 3414 Peachtree Road, N.E. Suite 1600, Monarch Plaza Atlanta, GA 3(L
Telephone number(s): 404-577-6000 678-406-8704 770-643-7242 (fax)
Email(s): dhoward@bakerdonelson.com dmoore@geherenlaw.com

To list additional parties and/or counsel, use next page.
Form 6

Feedback or questions about this form? Email us at forms(a)ca9:uscourts. vov
147

1

Rev. 12/01/2018

Case 3:19-cv-00001-TCB Document 22 Filed 09/24/19 Page 3 of 3

Continued list of parties and counsel: (attach additional pages as necessary)
Appellants
Name(s) of party/parties:____________________________________

Name(s) of counsel (if any):

Address:
Telephone number(s):
Email(s):
Is counsel registered for Electronic Filing in the 9th Circuit?

O Yes

® No

Appellees
Name(s) of party/parties:
U.S. BANK NATIONAL ASSOC., AS TRUSTEE, MASTR ASSET BACKED
SECURITIES TRUST 2006-AB1, MORTGAGE PASS-THROUGH CERTIFICA
Name(s) of counsel (if any):
Arthur Allen Ebbs
Womble Bond Dickinson (US), LLP-Atl
Address: Suite 2400 271 17th Street, NW, Atlanta, GA 30363-1017
Telephone number(s): 404-872-7000 404-870-8183 (fax)
Email(s): arthur.ebbs@wbd-us.com
Name(s) of party/parties:
Wells Fargo Bank, N.A.
Name(s) of counsel (if any):
Arthur Allen Ebbs
Womble Bond Dickinson (US), LLP-Atl
Address: Suite 2400 271 17th Street, NW, Atlanta, GA 30363-1017
Telephone number(s): |404-872-7000 404-870-8183 (fax)
Email(s): arthur.ebbs@wbd-us.com
Feedback or questions about this form? Email us at forms(wca9. uscnwts. ynv

Form 6

vm
2

Rev. 12/01/2018

Case 3:19-cv-00001-TCB Document 18 Filed 09/20/19 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
NEWNAN DIVISION

TIMOTHY B. BROWN,
Plaintiff,
CIVIL ACTION FILE
v.

NO. 3:19-cv-l-TCB
U.S. BANK NATIONAL ASSOC,
and WELLS FARGO BANK. N.A.,
Defendants.

ORDER
This case comes before the Court on Plaintiff Timothy Brown’s pro
se motion [16] for new trial.
Brown’s motion is mistitled because a trial was never held in this
case. Rather, the Court construes Brown’s motion as a motion for
reconsideration.
The Federal Rules of Civil Procedure do not specifically authorize
motions for reconsideration. Local Rule 7.2E provides that motions for
reconsideration are not to be filed “as a matter of routine practice,” but

149

Case 3:19-cv-00001-TCB Document 18 Filed 09/20/19 Page 2 of 7

only when “absolutely necessary.” A party may move for reconsideration
only when at least one of the following three elements exists: (1) the
discovery of new evidence; (2) an intervening development or change in
the controlling law; or (3) the need to correct a clear error or manifest
injustice. Pres. Endangered Areas of Cobb's History, Inc. v. United
States Army Corps of Eng’rs, 916 F. Supp. 1557, 1560 (N.D. Ga. 1995).
A motion for reconsideration “is not an opportunity for the moving
party ... to instruct the court on how the court could have done it better
the first time.” Id. (internal punctuation omitted). In other words, a
party “may not employ a motion for reconsideration as a vehicle to
present new arguments or evidence that should have been raised
earlier, introduce novel legal theories, or repackage familiar arguments
to test whether the Court will change its mind.” Brogdon ex rel. Cline v.
Nat'l Healthcare Corp., 103 F. Supp. 2d 1322, 1338 (N.D. Ga. 2000); see
also Godby v. Electrolux Corp., Nos. l:93-cv-0353-ODE, l:93-cv-126ODE, 1994 WL 470220, *1 (N.D. Ga. May 25, 1994) (“A motion for
reconsideration should not be used to reiterate arguments that have
previously been made. ... [It is an improper use of] the motion to
2
150

Case 3:19-cv-00001-TCB Document 18 Filed 09/20/19 Page 3 of 7

reconsider to ask the Court to rethink what the Court has already
thought through—rightly or wrongly.”) (citation omitted); In re
Hollowell, 242 B.R. 541, 542-43 (Bankr. N.D. Ga. 1999) (“Motions for
reconsideration should not be used to relitigate issues already decided
or as a substitute for appeal. Such motions also should not be used to
raise arguments which were or could have been raised before judgment
was issued.”) (citation omitted).
On March 30, 2017, Brown filed his first lawsuit alleging claims
for violations of the Fair Debt Collection Practices Act (“FDCPA”), 15
U.S.C. § 1692, et seq. and the Real Estate Settlement Procedures Act
(“RESPA”), 12 U.S.C. § 2602 et seq., myriad state-law claims, fraud,
breach of contract, and wrongful disclosure. The Court dismissed the
claims against Defendant Wells Fargo for failure to state a claim and
against Defendant U.S. Bank for failure to effect service of process.
On January 3, Brown filed the present action against the same
defendants, alleging claims for negligence, wrongful foreclosure,
conversion, and violation of the Georgia Consumer Fraud Act. Brown’s
current lawsuit arises out of the same operative nucleus of facts as his
3
151

Case 3:19-cv-00001-TCB Document 18 Filed 09/20/19 Page 4 of 7

first lawsuit. On August 19, the Court adopted Magistrate Judge
Russell G. Vineyard’s report and recommendation and dismissed
Brown’s claims in the present action. On August 30, Brown filed his
motion for a new trial.
Brown argues that his negligence claim should not have been
dismissed. However, he has failed to demonstrate the discovery of new
evidence, an intervening development or change in the controlling law,
or the need to correct a clear error or manifest injustice, as required for
a motion for reconsideration to be granted. See Pres. Endangered Areas
of Cobb’s History, Inc., 917 F. Supp. at 1560. Brown merely cites to
cases that allegedly “reach a different conclusion” than the case that the
Court previously cited, and fails to address the doctrine of res judicata.
[16] at 3.
The doctrine of res judicata bars the filing of claims that were
raised or could have been raised in an earlier proceeding. Ragsdale v.
Rubbermaid, 193 F.3d 1235, 1238 (11th Cir. 1999). Thus, “actual
knowledge of a potential claim ... is not a requirement for res judicata
to bar a subsequent action.” In re Baldwin, No. 03-MC-3152-N, 307 B.R.
4
152

Case 3:19-cv-00001-TCB Document 18 Filed 09/20/19 Page 5 of 7

251, 266 (M.D. Ala. Mar. 10, 2004) (internal citations omitted).
Regardless of the claims that Brown asserts in the current lawsuit, the
first lawsuit and the current lawsuit arise out of the same operative
nucleus of facts. Although Brown previously asserted that he was
unaware of the causes of action that form the basis of his current
lawsuit when he filed his first lawsuit, his assertion does not overcome
the doctrine of res judicata. Thus, the doctrine of res judicata bars the
claims in the current lawsuit.
Brown also cites several cases to further his argument that the
absence of a private federal remedy under HAMP does not displace
state-law claims. However, as stated in the August 19 order, HAMP
cannot serve as the basis for a negligence claim. See Miller v. Chase
Home Finance, LLC, 677 F.3d 1113, 1116-17 (11th Cir. 2012) (holding
that the plaintiff lacked standing to bring breach of contract, breach of
implied duty of good faith and fair dealing, and promissory estoppel
claims “insofar as they [were] premised on an alleged breach of
[Defendant]’s HAMP obligations” because no private right of action

5
153

Case 3:19-cv-00001-TCB Document 18 Filed 09/20/19 Page 6 of 7

exists under HAMP); see also Williams v. Wells Fargo Bank, N.A., No.
l:12-cv-0390-JEC, 2012 WL 13014956, at *2 (N.D. Ga. Sept. 18, 2012).
Brown points the Court to paragraphs K, L, M, P, and Q of the
negligence cause of action in his complaint to support his assertion that
his negligence claim is not barred. However, those paragraphs discuss
Defendant Wells Fargo’s alleged HAMP violations. Because Brown’s
negligence claim is based on alleged HAMP violations, Brown lacks the
requisite standing to bring his negligence claim.
Finally, Brown asserts that he should be allowed to file an
amended complaint as part of his motion for a new trial and not as a
separate motion. Because Brown did not file a motion for leave to file an
amended complaint, his request to file an amended complaint will be
denied. More importantly, Federal Rule of Civil Procedure 15(a), which
governs the amendment of pleadings, only permits amended pleadings
“before judgment is entered.” Toenniges v. Ga. Dep’t ofCorr., 502 F.
App’x. 888, 890 (11th Cir. 2012) (citing Jacobs v. Tempur-Pedic Int’l,
Inc., 626 F.3d 1327, 1344 (11th Cir. 2010)). Rule 15(a) does not apply
“once the district court has dismissed the complaint and entered final
6
154

Case 3:19-cv-00001-TCB Document 18 Filed 09/20/19 Page 7 of 7

judgment for the defendant.” Jacobs, 626 F.3d at 1344 (citing
Czeremcha v. Int’l Assn of Machinists & Aerospace Workers, AFL-CIO,
724 F.2d 1552, 1556 (11th Cir. 1984)). Brown filed his motion on August
30, after the Court entered judgment and dismissed the case on August
19. Thus, the Court denies Brown leave to amend his complaint post­
judgment.
For the foregoing reasons, after careful review, the Court finds
that Brown has failed to meet his burden of showing that his motion for
reconsideration is proper and should be granted; therefore, it is denied.
IT IS SO ORDERED this 19th day of September, 2019.

Timothy C. Batten, Sr.
United States District Judge

7
155

V

Case: 19-13825

Date Filed: 04/15/2020

Page: 1 of 3

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13825
Non-Argument Calendar
D.C. Docket No. 3:19-cv-00001-TCB

TIMOTHY B. BROWN,
Plaintiff-Appellant,
versus
U.S. BANK NATIONAL ASSOC.,
as trustee for As Trustee, Mastr Asset Backed Securities Trust 2006-AB1
Mortgage Pass-Through Certificates Series 2006-AB1
WELLS FARGO BANK N.A.,
Defendants-Appellees.

Appeal from the United States District Court
for the Northern District of Georgia
(April 15,2020)

156

Y.r^V

Case: 19-13825

Date Filed: 04/15/2020

Page; 2 of 3

Before WILLIAM PRYOR, JILL PRYOR and NEWSOM, Circuit Judges.
PER CURIAM:
Timothy Brown appeals/**? se the dismissal of his complaint against U.S.
Bank National Association and Wells Fargo Bank, N.A. Brown complained of
negligence by Wells Fargo in implementing the Home Affordable Modification
Program and refusing to modify Brown’s mortgage payments; of a wrongM
foreclosure by Wells Fargo and by U.S. Bank; of conversion by both Ww
; and of
violations of the Georgia Consumer Fraud Act by both banks. The district court
dismissed Brown’s complaint as barred by res judicata and, in the alternative, for
failure to state a claim for relief, Fed. R. Civ. P. 12(b)(6). We affirm.
The district court correctly dismissed Brown’s complaint as barred by res
judicata. “Res judicata, or more properly claim preclusion, is a judicially made
doctrine with the purpose of both giving finality to parties who have already
litigated a claim and promoting judicial economy; it bars claims that could have
been litigated as well,” In re Atlanta Retail, Inc., 456 F.3d 1277, 1284 (llthCir.
2006). The doctrine applies if “(1) there is a final judgment on the merits; (2) the
decision was rendered by a court of competent jurisdiction; (3) the parties, or those
in privity with them, are identical in both suits; and (4) the same cause of action is
involved in both cases ” Ragsdale v. Rubbermaid, Inc., 193 F,3d 1235, 1238 (11th
Cir. 1999). Brown does not dispute that his present action and an action he filed in
2

157

V ■'■•V

Case; 19-13825

Date Filed: 04/15/2020

Page: 3 of 3

2017 against Wells Fargo and U.S. Bank involve the same parties. The two actions
are based on the same factual predicate: the alleged wrongful foreclosure and sale
of his property. Brown complained previously of breach of contract, a wrongful
foreclosure on his property, and of violations of the Fair Debt Collection Practices
Act and the Real Estate Settlement Procedures Act, and the district court dismissed
the complaint for failure to state a claim, which “unambiguously constitutes a
ruling on the merits.” Borden v. Allen, 646 F.3d 785, 812 (11th Cir. 2011) (internal
quotation marks omitted). In his new complaint, Brown alleges, for the first time, a
claim of negligence for failing to modify his loan payments, but that claim is
“based upon the same factual predicate... as [his] former action, [so] the two
cases are really the same claim or cause of action for purposes of res judicata,”
Citibank, N.A. v. Data Leasing Fin. Carp., 904 F.2d 1498,1503 (11th Cir. 1990).
Brown’s new legal theory is rooted in the actions Wells Fargo took leading up to
and during foreclosure. See Jaffree v. Wallace, 837 F.2d 1461,1468 (11th Cir.
1988) ( Res judicata.,, extends not only to the precise legal theory presented in
the previous litigation, but to all legal theories and claims arising out of the same
operative nucleus of fact.”).
We AFFIRM the dismissal of Brown’s complaint.

158

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
• No. 19-13825

District Court Docket No.
3:19-cv-OOOO 1 -TCB
TIMOTHY B. BROWN,
Plaintiff - Appellant,
versus
U.S. BANK NATIONAL ASSOC.,
as trustee for As Trustee, Mastr Asset Backed Securities Trust 2006-AB1,
Mortgage Pass-Through Certificates Series 2006-AB1,
WELLS FARGO BANK N.A.,
Defendants - Appellees.

Appeal from the United States District Court for the
Northern District of Georgia
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: April 15,2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

ISSUED AS MANDATE 06/04/2020

162

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 36303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1-uscouro.gov

May 27,2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-13825-HH
Case Style: Timothy Brown v. U.S. Bank National Association, et al
District Court Docket No: 3:19-cv-OOOOl-TCB
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Christopher Bergquist, HH/lt
Phone #: 404-335-6169
REHG-1 Ltr Order Petition Rehearing

•!.

165

Case: 19-13825

Date Filed: 05/27/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13825-HH

TIMOTHY B. BROWN.
Plaintiff - Appellant,
versus
U.S. BANK NATIONAL ASSOC.,
as trustee for As Trustee, Mastr Asset Backed Securities Trust 2006-AB1,
Mortgage Pass-Through Certificates Series 2006-AB1,
WELLS FARGO BANK N.A.,
Defendants - Appellees.

Appeal from the United States District Court
for the Northern District of Georgia
BEFORE: WILLIAM PRYOR, JILL PRYOR and NEWSOM, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Timothy Brown is DENIED.

ORD-41

